APPENDIX

1a
APPENDIX A
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
________________________
COMCAST CABLE COMMUNICATIONS, LLC,
Appellant
v.
PROMPTU SYSTEMS CORPORATION,
Appellee
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL
PROPERTY AND DIRECTOR OF THE UNITED
STATES PATENT AND TRADEMARK OFFICE,
Intervenor
________________________
2019-1947, 2019-1948
________________________
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board
in Nos. IPR2018-00340, IPR2018-00341.
________________________
Decided: January 4, 2021
________________________

2a
MARK ANDREW PERRY, Gibson, Dunn & Crutcher
LLP, Washington, DC, for appellant. Also represented by JESSICA A. HUDAK, Irvine, CA; JAMES L.
DAY, JR., Farella Braun Martel LLP, San Francisco,
CA.
JACOB ADAM SCHROEDER, Finnegan, Henderson,
Farabow, Garrett & Dunner, LLP, Palo Alto, CA, for
appellee. Also represented by JOSHUA GOLDBERG,
Washington, DC.
DANIEL KAZHDAN, Office of the Solicitor, United
States Patent and Trademark Office, Alexandria, VA,
for intervenor. Also represented by THOMAS W.
KRAUSE, FRANCES LYNCH, FARHEENA YASMEEN
RASHEED.
______________________
Before LOURIE, SCHALL, and MOORE, Circuit
Judges.
MOORE, Circuit Judge.
Comcast Cable Communications, LLC, appeals
two inter partes review final-written decisions, 1 in
which the Patent Trial and Appeal Board held that
Comcast failed to prove claims 1–7, 17–24, 33–35, 37,
and 40–41 (the challenged claims) of U.S. Patent No.
7,260,538 would have been obvious. For the following
reasons, we affirm.

Consistent with the parties’ briefing, we do not differentiate
between the two FWDs (IPR2018-00340, IPR2018-00341), and
only cite the -340 decision.
1

3a
BACKGROUND
Comcast petitioned for IPR of the ’538 patent, arguing the challenged claims would have been obvious
in light of two primary references—U.S. Patent No.
6,513,063 (Julia) or U.S. Patent No. 7,013,283 (Murdock)—alone or in combination with U.S. Patent No.
5,774,859 (Houser). Review was instituted, and the
Board issued a final-written decision in each IPR. It
rejected Comcast’s reading of the claimed “command
J.A.
function” term as unreasonably broad. 2
53800031–33; see, e.g., ’538 patent at 9:35–36, 13:54–
56. Because Comcast’s arguments had been predicated on its rejected construction, the Board held that
Comcast had failed to show the challenged claims
would have been obvious over Julia alone or Murdock
alone. Likewise, because the Board found no motivation to combine Houser with either primary reference,
it held that Comcast’s remaining grounds failed. Separately, the Board held that Comcast had failed to
prove obviousness for means-plus-function claim 18
because it had not identified the structure corresponding to the recited function for one of the claim’s elements. Comcast appeals. We have jurisdiction under
28 U.S.C. § 1295(a)(4)(A).
DISCUSSION
Comcast raises a panoply of arguments challenging the Board’s final-written decisions. Primarily, it
claims the Board erred by rejecting its construction of
“command function” as overly broad and by finding no
Consistent with the parties’ usage, we treat the “set-top-boxcompatible instruction” limitation in claims 34 and 40–41 interchangeably with the “command function” limitation in claims 1,
2, and 18.
2

4a
motivation to combine Houser with the primary references. We do not agree.
I
“We review the Board’s constructions based on intrinsic evidence de novo and its factual findings based
on extrinsic evidence for substantial evidence.” HTC
Corp. v. Cellular Commc’ns Equip., LLC, 877 F.3d
1361, 1367 (Fed. Cir. 2017). Because Comcast filed its
petitions before November 13, 2018, we construe
claims in the unexpired ’538 patent according to their
“broadest reasonable interpretation in light of the
specification.” 37 C.F.R. § 42.100(b) (2017).
We see no reversible error in the Board’s rejection
of Comcast’s construction of “command function” as
overly broad. As claimed, “command” is an adjective
modifying “function,” limiting that noun to functions
that “command.” See Appellant Br. at 39 (arguing
“command” modifies “function”). The plain language
of the claim, therefore, unambiguously limits the
claimed command function to functions that command
an action to be taken. Yet Comcast argues that “command function” includes functions that merely cause
an action. That is an unreasonably broad construction: a function may cause (i.e., lead to) an action
without commanding (i.e., directing) it. See J.A.
53800031–32 (“For instance, a function may be performed upon the satisfaction of a condition, e.g., when
A happens, then do B. Although B is performed as a
result of A occurring, A is not a command to perform
B.”). Nothing in the written description shows the patentee intended to deviate from the plain meaning of
“command.” See, e.g., ’538 patent at 7:10–12 (“The

5a
command functions are used to control remote control functions such as the gain control.” (emphasis
added)); see also J.A. 53800894 (Tr. of Oral Arg. before
the Board) (counsel for Comcast stating that “[t]he patent uses that phrase basically to mean what you
would think. It’s a function that tells the set-top box
what to do.”). Thus, the claims’ broadest reasonable
interpretation cannot support functions that merely
cause an action. See Hill-Rom Servs., Inc. v. Stryker
Corp., 755 F.3d 1367, 1373 (Fed. Cir. 2014) (“[T]o deviate from the plain and ordinary meaning of a claim
term . . . the patentee must, with some language, indicate a clear intent to do so in the patent.”). Comcast’s arguments fail to persuade us otherwise.
II
“The Board’s motivation to combine finding is reviewed for substantial evidence.” Outdry Techs. Corp.
v. Geox S.p.A., 859 F.3d 1364, 1368 (Fed. Cir. 2017).
“A finding is supported by substantial evidence if a
reasonable mind might accept the evidence to support
the finding.” Allied Erecting & Dismantling Co. v.
Genesis Attachments, LLC, 825 F.3d 1373, 1380 (Fed.
Cir. 2016).
Substantial evidence supports the Board’s finding
that Comcast failed to show a motivation to combine
Houser with Julia or Murdock. The Board found that
“the record lack[ed] ‘explanation as to how or why the
reference would be combined to produce the claimed
invention.’” J.A. 53800026 (quoting TriVascular, Inc.
v. Samuels, 812 F.3d 1056, 1066 (Fed. Cir. 2016)). It
did not supplant KSR’s flexible test, as Comcast argues. See KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398,
417 (2007). Instead, the Board simply found that

6a
Comcast’s conclusory, threadbare arguments were not
enough to establish motivation to combine. See TQ
Delta, LLC v. CISCO Sys., Inc., 942 F.3d 1352, 1359
(Fed. Cir. 2019) (“[A] conclusory assertion with no explanation is inadequate to support a finding that
there would have been a motivation to combine.”).
Specifically, it found Comcast had not proven a motivation to combine because it merely (1) alleged the references came from the same field of study and address
the same problem; and (2) recited boilerplate legal
conclusions untethered to any claim language. We
hold those findings are supported by substantial evidence.
CONCLUSION
We have considered Comcast’s remaining arguments and find them unpersuasive. 3 Because Comcast has not identified reversible error in the Board’s
final-written decisions, we affirm.
AFFIRMED

3

We need not reach Comcast’s arguments regarding claim 18.

7a
APPENDIX B
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
________________________
COMCAST CABLE COMMUNICATIONS, LLC,
Appellant
v.
PROMPTU SYSTEMS CORPORATION,
Appellee
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
Intervenor
________________________
2019-2287, 2019-2288
________________________
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board
in Nos. IPR2018-00344, IPR2018-00345.
________________________
Decided: January 4, 2021
________________________

8a
MARK ANDREW PERRY, Gibson, Dunn & Crutcher
LLP, Washington, DC, for appellant. Also represented by JESSICA A. HUDAK, Irvine, CA; JAMES L.
DAY, JR., Farella Braun Martel LLP, San Francisco,
CA.
JACOB ADAM SCHROEDER, Finnegan, Henderson,
Farabow, Garrett & Dunner, LLP, Palo Alto, CA, for
appel-lee. Also represented by JOSHUA GOLDBERG,
Washington, DC.
DANIEL KAZHDAN, Office of the Solicitor, United
States Patent and Trademark Office, Alexandria, VA,
for intervenor. Also represented by THOMAS W.
KRAUSE, FRANCES LYNCH, FARHEENA YASMEEN
RASHEED.
_____________________
Before LOURIE, SCHALL, and MOORE, Circuit
Judges.
MOORE, Circuit Judge.
Comcast Cable Communications, LLC, appeals
two inter partes review final-written decisions, in
which the Patent Trial and Appeal Board held that
Comcast failed to prove claims 1, 2, 4–6, 12–15, 17–
19, 25–28, 30–32, 38–42, 53–55, 61, 62, 64–66 (the
challenged claims) of U.S. Patent No. 7,047,196 would
have been obvious. For the following reasons, we affirm-in-part, vacate-in-part, and remand.

9a
BACKGROUND
The ’196 patent relates to a “method and system
of speech recognition presented by a back channel
from multiple user sites within a network.” ’196 patent at Abstract. Representative claims 1 and 14 recite:
1. A method of using a back channel containing a multiplicity of identified speech channels from a multiplicity of user sites presented
to a speech processing system at a wireline
node in a network sup-porting at least one of
cable television delivery and video delivery,
comprising the steps of:
receiving said back channel to create
a received back channel;
partitioning said received back channel
into a multiplicity of received identified
speech channels;
processing said multiplicity of said received identified speech channels to create
a multiplicity of identified speech content;
and
responding to said identified speech content to create an identified speech content
response that is unique, for each of said
multiplicity of identified speech contents.
...

10a
14. A program system controlling at least
part of a speech recognition system coupled to a wireline node in a network, said
program system comprising the program
steps of:
processing a multiplicity of received identified speech channels to create a multiplicity of identified speech content; and
responding to said identified speech content to create an identified speech content
response that is unique to each of said
multiplicity of identified speech contents;
wherein said speech recognition system is
provided said multiplicity of received
identified speech channels based upon a
received back channel at said wireline
node from a multiplicity of user sites coupled to said network;
wherein each of said program steps reside
in memory accessibly coupled to at least
one computer included in said speech
recognition system; wherein said at least
one computer communicatively couples
through said wireline node to said multiplicity of user sites; and
wherein said network supports at least
one of the collection comprising: cable television delivery to said multiplicity of user
sites; and video delivery to said multiplicity of user sites.
’196 patent at 50:62–51:10, 52:65–53:21 (emphases
added).

11a
Comcast petitioned for two IPRs of the ’196 patent, arguing the challenged claims would have been
obvious in light of two primary references—U.S. Patent No. 6,513,063 (Julia) or U.S. Patent No. 7,013,283
(Murdock)—individually or combined with additional
references. Review was instituted, and the Board issued final-written decisions in both IPRs.
In
IPR2018-00345, the Board determined that the
“speech recognition system” and “wireline node” in
claim 14’s preamble are different elements. Because
Com-cast mapped the “speech recognition system”
and the “wireline node” to a single element, the Board
held Comcast failed to show claims 14, 15, 17–19, 25,
26, 53–55, 61, 62, and 64–66 were unpatentable. The
Board also declined to consider Comcast’s new mapping of the “speech recognition system” in reply. In
IPR2018-00344, the Board determined the “back
channel” and “received back channel” in claim 1 are
distinct elements, rather than a relabeling of one element. Because Comcast failed to allege any reference
teaches the “received back channel,” the Board held
that Comcast failed to show claims 1, 2, 4–6, 12, 13,
27, 28, 30–32, and 38–42 were unpatentable. Comcast
appeals. We have jurisdiction under 28 U.S.C.
§ 1295(a)(4)(A).
DISCUSSION
“We review the Board’s constructions based on intrinsic evidence de novo and its factual findings based
on extrinsic evidence for substantial evidence.” HTC
Corp. v. Cellular Commc’ns Equip., LLC, 877 F.3d
1361, 1367 (Fed. Cir. 2017). Because Comcast filed its
petitions before November 13, 2018, we construe
claims in the unexpired ’196 patent according to their
“broadest reasonable interpretation in light of the

12a
specification.” 37 C.F.R. § 42.100(b) (2017). “Decisions related to compliance with the Board’s procedures,” like considering new arguments raised in reply, “are reviewed for an abuse of discretion.” Intelligent Bio-Sys., Inc. v. Illumina Cambridge Ltd., 821
F.3d 1359, 1367 (Fed. Cir. 2016).
I
For IPR2018-00345, Comcast argues the Board
erred by determining that claim 14’s “speech recognition system” and “wireline node” are different elements. It also argues the Board erred by not considering its new mapping in reply. We do not agree. 1
We see no reversible error in the Board’s construction requiring that the “speech recognition system”
and “wire-line node” be distinct elements. Claim 14
recites “a speech recognition system coupled to a
wireline node.” By listing the elements separately
and by using the word “coupled,” claim 14 strongly indicates the “speech recognition system” is distinct
from the “wireline node.” See Becton, Dickinson & Co.
v. Tyco Healthcare Grp., LP, 616 F.3d 1249, 1254 (Fed.
Cir. 2010) (“Where a claim lists elements separately,
the clear implication of the claim language is that
those elements are distinct components of the patented invention.” (cleaned up)). While the ’196 patent’s written description contains an embodiment
where a speech recognition sys-tem is “in” a wireline
node, it also describes an embodiment with a speech
recognition system “near” a wireline node. See ’196
We need not reach Comcast’s arguments regarding Murdock’s status as prior art.
1

13a
patent at 5:11–15. Thus, the written description does
not show a “clear intent” to depart from the claim’s
plain language. See Hill-Rom Servs., Inc. v. Stryker
Corp., 755 F.3d 1367, 1373 (Fed. Cir. 2014). The
broadest reason-able interpretation of “coupled to” requires that the “speech recognition system” and “wireline node” are distinct components.
Nor do we see any abuse of discretion in declining
to consider Comcast’s new mapping raised for the first
time in reply. “It is of the utmost importance that petitioners in the IPR proceedings adhere to the requirement that the initial petition identify with particularity the evidence that supports the grounds for the
challenge to each claim.” Intelligent Bio-Sys., 821
F.3d at 1369 (internal quotation omitted). The Board
correctly identified Comcast’s mapping for the “speech
recognition system” raised in reply as absent from
Comcast’s petition.
Compare J.A. 19604521 &
19604524–25 with J.A.19604823–25. And Comcast
has not come forward with a sufficient justification to
excuse that failure. Thus, the Board acted within its
broad discretion in declining to consider Comcast’s
new reply arguments. See Intelligent Bio-Sys., 821
F.3d at 1369–70.
We have considered Comcast’s remaining arguments regarding the IPR2018-00345 final-written decision and find them unpersuasive. Therefore, we affirm that decision, which held that Comcast failed to
show claims 14, 15, 17–19, 25, 26, 53–55, 61, 62, and
64–66 were unpatentable.

14a
II
For IPR2018-00344, Comcast challenges the
Board’s claim construction. It contends the Board
erred in construing “received back channel” in claim
1. To Comcast, the “received back channel” is merely
a relabeled “back channel.” Under the broadest reasonable interpretation standard, we agree.
Comcast’s posed construction is broader than the
Board’s adopted construction and is consistent with
the specification. The Board required Comcast to
prove an additional element, “to create a received back
channel.” But, as Comcast argues, the broadest reasonable interpretation of “receiving said back channel
to create a received back channel” is not so limited.
One may read the “received back channel” as merely
the “back channel” after being received. Under such
a reading, the phrase “to create a received back channel” describes the result of “receiving” the “back channel.” Nothing in the claim’s plain language forecloses
such a reading. Nor does the written description narrow the claim’s plain language; in fact, the specification treats the “back channel” and “received back
channel” as interchangeable. Compare ’196 patent at
40:1–2 (discussing partitioning the “back channel”)
with id. at 51:3–4 (claiming portioning the “received
back channel”). Although atypical and inartful, it is
not unreasonable for the patentee to apply two different time frames to the same claim element, a “back
channel” before receipt and a “received back channel”
after receipt. And this construction does not result in
surplusage because every claimed term, including “to
create” and “received,” has meaning. See Bicon, Inc.
v. Straumann Co., 441 F.3d 945, 950 (Fed. Cir. 2006)
(“[C]laims are interpreted with an eye toward giving

15a
effect to all terms in the claim.”). Ultimately, the
broadest reasonable interpretation of “received back
channel” is a “back channel that has been received.”
Because the IPR2018-00344 final-written decision
is predicated on the Board’s erroneous construction,
we vacate and remand for the Board to consider the
parties’ arguments under the correct construction.
CONCLUSION
Based on the foregoing, we affirm-in-part, vacatein-part, and remand.
AFFIRMED-IN-PART, VACATED-IN-PART,
AND REMANDED
COSTS
No costs

16a
APPENDIX C
UNITED STATES PATENT AND
TRADEMARK OFFICE
______________
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
______________
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioner,
v.
PROMPTU SYSTEMS CORPORATION,
Patent Owner.
______________
Case IPR2018-00340
Patent 7,260,538 B2
______________
Before JAMESON LEE, ROBERT L. KINDER, and
ALEX S. YAP, Administrative Patent Judges.
YAP, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 318(a)

17a
I. INTRODUCTION
Petitioner, Comcast Cable Communications, LLC.
(“Comcast”), filed a Petition (Paper 1, “Pet.”) requesting an inter partes review of claims 1–7, 17–24, and 33
of U.S. Patent 7,260,538 B2 (Ex. 1001, “the ’538 Patent”). We instituted review of claims 1–7, 17–24, and
33 on all grounds asserted in the Petition. Paper 10.
Patent Owner, Promptu Systems Corporation
(“Promptu”), filed a Response. Paper 20 (“Resp.”). Petitioner filed a Reply (Paper 29) and Patent Owner
filed a Sur-Reply (Paper 37). An oral hearing was held
on January 28, 2019. A copy of the transcript for the
oral hearing has been entered as Paper 55 (“Tr.”).
As discussed below, Petitioner has not shown, by
a preponderance of the evidence, that any of claims 1–
7, 17–24, and 33 is unpatentable under any asserted
grounds.
A. Related Matters
The ’538 Patent is the subject of a pending civil
action, Promptu Systems Corporation v. Comcast Corporation and Comcast Cable Communications, LLC,
Case No. 2:16-cv-06516 (E.D. Pa.). Patent Owner’s
Mandatory Notices (Paper 6), 2. Another petition for
inter partes review has been filed by Petitioner on this
patent in IPR2018-00341, which is pending before the
Board. Pet. xii; see also IPR2018-00341, Paper 1. According to Patent Owner, the District Court stayed the
pending civil action after the Board instituted trial in
this matter. Patent Owner’s Updated Mandatory Notice (Paper 16), 2.

18a
B. The ’538 Patent
The ’538 Patent, titled “Method and Apparatus for
Voice Control of a Television Control Device,” was issued on August 21, 2007. Ex. 1001, [45]. It issued
from U.S. Patent Application 10/338,591, filed on January 7, 2003, and claims the benefit of U.S. Provisional Application No. 60/346,899 filed on January 8,
2002. Id. at [21], [22], [60]. The ’538 Patent generally
relates to a “method and apparatus [] for remotely processing voice commands for controlling a television.”
Ex. 1001, Abstract. Figure 1 of the ’538 Patent is reproduced below.

19a
Figure 1 “is a diagram illustrating elements of the
voice control television system according to the invention.” Id. at 2:52–53. According to the Specification,
a “problem with the prior art voice recognition systems is that they require a sophisticated voice recognition system in close proximity to the user, requiring
individual units[,] which is quite costly.” Id. at 1:59–
62. The Specification discloses “method and apparatus [] for remotely processing voice commands,” purportedly solving one of the alleged problems in prior
art systems. Id. at Abstract. A user’s voice command
“is received by a microphone contained in a [] remote
control.” Id. at 2:23–25. The microphone in the remote control “is activated by the depression of a pushto-talk (PTT) button or by word activation.” Id. at
2:41–42. “The voice command is modulated and wirelessly transmitted to a wireless receiver connected to
the set-top box.” Id. at 2:25–26. “The voice command
is then transmitted, for example, to a central processing station located at a cable television head-end
unit[, which] processes the voice command for voice
command recognition.” Id. at 2:29–33. “Once the
voice command is determined a command function is
created [and] transmitted back to the set-top box
where the set-top box performs the command function.” Id. at 2:33–37.
C. Challenged Claims
Claims 1, 2, 18, and 19 are independent. Claims
1 and 2 are method claims “for providing voice recognition processing at a cable television head-end unit.”
Id. at 9:20–21, 41–42. Claims 18 and 19 are apparatus claims directed to apparatus “for providing voice
recognition processing at a cable television head-end

20a
unit” (id. at 11:26–27, 56–57). Claims 3–7 and 17 depend directly or indirectly from claim 2. Claims 20–
24 and 33 depend directly or indirectly from claim 19.
Independent claims 1 and 18, reproduced below, are
illustrative of the challenged claims.
1. A method for providing voice recognition
processing at a cable television head-end unit
for a plurality of voice controlled television cable set-top boxes in a cable television network,
comprising the steps of:
a television remote control receiving useractivated indication of a voice command;
receiving said voice command through a
microphone associated with said television remote control;
said television remote control wirelessly
transmitting a signal representing said voice
command to a cable set-top box;
said cable set-top box transmitting a signal representing said voice command via cable
television link to a remotely located head-end
unit;
processing said voice command at said
head-end unit;
the head-end unit deriving a set-top-boxcompatible command function corresponding
to said voice command;
the head-end unit transmitting said command function to said cable set-top box via the
cable television link;

21a
performing said command function at said
cable set-top box.
Ex. 1001, 9:20–40.
18. An apparatus for providing voice recognition processing at a cable television head-end
unit for a plurality of voice controlled television cable set-top boxes in a cable television
network, comprising:
a television remote control including: activation means for receiving user-activated indication of a voice command, microphone
means for receiving the voice command, and
transmission means for wirelessly transmitting a signal representing the voice command
to a cable television controller;
a cable television controller including receiver means for receiving the signal representing the voice command from the television
remote control and transmitter means for
transmitting a signal representing the voice
command via cable television link to a remotely located head-end unit;
a head-end unit including processing
means for deriving cable-television-controllercompatible command functions corresponding
to signals representing the voice commands
received from the cable television controllers,
and transmission means for transmitting signals representing the command functions
back to respective cable television controllers;

22a
where the cable television controller additionally includes second receiver means for receiving the signals representing the command
functions from the head-end unit via the cable
television link, and where the cable television
controller includes means responsive to receipt of the command functions for executing
the command functions.
Ex. 1001, 11:26–55.
D. References Relied Upon
Petitioner relies on the following references:
Exhibit
1017
1018
1019

Reference
United States Patent No. 6,513,063
B1, filed March 14, 2000 (“Julia”).
United States Patent No. 7,013,283
B1, filed November 16, 2000 (“Murdock”).
United States Patent No. 5,774,859,
issued June 30, 1998 (“Houser”).

Pet. 2–3. Petitioner also relies on the Declaration of
Anthony Wechselberger (Ex. 1022, “Wechselberger
Declaration”), the Reply Declaration of Anthony
Wechselberger (Ex. 1032), and the Declaration of
Daniel C. Callaway (Ex. 1021).

23a
1. Julia (Ex. 1017)
Julia describes a “navigation of electronic data by
means of spoken natural language requests.” Ex.
1017, 1:16–18. Figure 1a of Julia is reproduced below.

Figure 1a “illustrates a system providing a spoken
natural language interface for network-based information navigation . . . with server-side processing of
requests.” Id. at 3:6–9. “[A] user’s voice input data is
captured by a voice input device 102, such as a microphone[, which p]referably [] includes a button or the
like that can be pressed or held down to activate a listening mode.” Id. at 3:39–43. Input device 102 can be
also be “a portable remote control device with an integrated microphone, and the voice data is transmitted
from device 102 preferably via infrared (or other wireless) link to [a receiver in] communications box 104.”
Id. at 3:46–52. “The voice data is then transmitted
across network 106 to a remote server or servers 108.”
Id. at 3:54–55. The voice data “is processed by request

24a
processing logic 300 in order to understand the user’s
request and construct an appropriate query or request
for navigation of remote data.” Id. at 3:61–64. “Once
the desired information has been retrieved from data
source 110, it is electronically transmitted via network 106 to the user for viewing on client display device 112.” Id. at 4:18–20. Communications box 104 is
used for “receiving and decoding/formatting the desired electronic information that is received across
communications network 106.” Id. at 4:27–30. It is
“preferabl[e to use] the same [] communications box
104, but [it] may also be a separate unit) for receiving
and decoding/formatting the desired electronic information that is received across communications network 106.” Id. at 4:25–30.
2. Murdock (Ex. 1018)
Murdock describes a “system and a concomitant
method for providing programming content in response to an audio signal.” Ex. 1018, Abstract. Figure
1 of Murdock is reproduced below.

25a

Figure 1 “depicts a high-level block diagram of a voice
control system.” Ex. 1018, 1:64–65. The program control device 110 can be “a portable or hand-held controller.” Id. at 2:35–36. It can “capture[] the input
verbal command signal from the user of the voice activated control system 100.” Id. at 2:22–24. “Once the
input command signal is received, the program control device 110 performs a transmission, e.g., a wireless transmission, of the command signal to the local
processing unit 120,” which “may include a set top terminal, a cable box, and the like.” Id. at 2:31–34, 45–
47. The input command signal is then transmitted to
remote server computer 130 via back channel 134. Id.
at 3:1–12. Remote server computer 130 “performs
speech recognition on the received signal, . . . retrieves
the requested program content from a program database and transmits the retrieved program content via
the forward channel 132 to the local processing unit
120.” Id. at 3:15–36. “Upon receipt of the requested
programming content, the local processing unit 120
transmits the received content to the video player 122
or the television recorder 124.” Id. at 2:61–66.

26a
3. Houser (Ex. 1019)
Houser describes a “system for controlling a device such as a television and for controlling access to
broadcast information such as video, audio, and/or
text information.” Ex. 1019, Abstract. Figure 1 of
Houser is reproduced below.

Figure 1 of Houser “is a generalized block diagram of
an information system in accordance with” the
claimed invention. Ex. 1019, 4:60–61. A remote control, which includes a microphone, captures “sounds
or words spoken by a user” and transmits the sound
data signals to terminal unit 16. Id. at 6:33–7:24.
“Terminal unit 16 includes a processor for executing a
speech recognition algorithm . . . to recognize, for example, commands for controlling device 18 or commands for accessing information transmitted by information distribution center 12.” Id. at 5:62–5:67. The
information is then retrieved from “information distribution center 12[,] which receives information from

27a
one or more remotely located information providers
14-1, . . . 14-n[,] and supplies or broadcasts this information to a terminal unit 16.” Id. at 5:39–44. “Terminal unit 16 then [] generates a command for controlling device 18.” Id. at 5:67–6:2. “Device 18 may be
any device [that] is capable of being operated in response to user supplied commands.” Id. at 7:27–29.
E. Asserted Grounds of Unpatentability
Petitioner challenges claims 1–7, 17–24, and 33 of
the ’538 Patent based on the asserted grounds of unpatentability set forth in the following table. Pet. 1–
3, 17–58.
Ground

Reference(s)

Basis 1

1

Julia

§ 103(a)

2

Julia and
Houser

§ 103(a)

3

Murdock

§ 103(a)

4

Murdock and
Houser

§ 103(a)

Claims
Challenged
1–7, 17–24,
and 33
1–7, 17–24,
and 33
1–7, 17–24,
and 33
1–7, 17–24,
and 33

II. ANALYSIS
A. Level of Ordinary Skill in the Art
In determining the level of ordinary skill in the
art, various factors may be considered, including the

The relevant section of the Leahy-Smith America Invents Act
(“AIA”), Pub. L. No. 112–29, took effect on March 16, 2013. Because the application from which the ’538 Patent issued was filed
before that date, the pre-AIA statutory framework applies.
1

28a
“type of problems encountered in the art; prior art solutions to those problems; rapidity with which innovations are made; sophistication of the technology; and
educational level of active workers in the field.” In re
GPAC, Inc., 57 F.3d 1573, 1579 (Fed. Cir. 1995) (citation omitted). In that regard, Petitioner and Mr.
Wechselberger contend that a person of ordinary skill
in the relevant art would have:
(i) an undergraduate degree (or equivalent) in
electrical engineering, computer science, or a
comparable subject and at least three years of
work experience in the field of analog and digital television systems with exposure to interactive networks and associated control technologies; or (ii) an advanced degree (or equivalent) in electrical engineering, computer science, or a comparable subject and at least one
year of post-graduate research or work experience in the same field.
Pet. 7, emphases added; see also Ex. 1022 ¶¶ 101–
102.
Quoting Petitioner’s proposal for the level of ordinary skill to be applied in connection with the reviews
of related patents, Patent Owner contends that a person of ordinary skill in the relevant art would have:
(i) an undergraduate degree (or equivalent) in
electrical engineering, computer science, or a
comparable subject and at least three years of
professional work experience in the field of
multi-media systems including in particular speech recognition and control technologies, or (ii) an advanced degree (or equiv-

29a
alent) in electrical engineering, computer science, or a comparable subject and at least one
year of post-graduate research or work experience in the field of multi-media systems including in particular speech recognition
and control technologies.
Resp. 7 (quoting Comcast Cable Commc’ns, LLC v.
Promptu Sys. Corp., IPR2018-00342, Pet. at 8–9
(PTAB Dec. 19, 2017) (Paper 1)); see also Resp. 7–9
(asserting the level of ordinary skill as proposed by
Petitioner in related IPR proceedings is appropriate
for this case); Ex. 2033 ¶¶ 22–29 (same). As Patent
Owner explains, its proposed definition is the same as
that proposed by Petitioner in Case Nos. IPR201800342,
IPR2018-00343,
IPR2018-00344,
and
IPR2018-00345 (“other Comcast IPR proceedings”),
which differs from Petitioner’s proposed definition in
this proceeding in that the proposed definition in
those other Comcast IPR proceedings includes a further requirement that the person of ordinary skill in
the art at the time of the invention must also have experience in the field of multi-media systems “including in particular speech recognition and control technologies.” Resp. 6–9. Patent Owner explains that Petitioner’s proposed definition in this proceeding
“would not necessarily include expertise with voice
recognition technology, at least because ‘interactive
networks and associated control technologies’ at the
time of the invention for analog and digital television
systems would not have included voice control, which
was not commercially available (or well known) for
television systems.” Id. at 8–9. Patent Owner also
points out that “Promptu’s patents[, in this proceeding
and the other Comcast IPR proceedings,] all relate to

30a
the same technology and claim various aspects of television voice command recognition and processing.”
Id. at 6.
We agree with Petitioner that the definitions for a
person of ordinary skill in the art involving unrelated
patents in different proceedings need not be the same
in each proceeding. Reply 2–4. Although the patents
in each proceeding before us are issued to the same
assignee and have some of the same inventors, the
specific goal of each patent differ between proceedings. We also agree with Mr. Wechselberger that
“[w]hile the ’538 Patent discloses a system that includes voice recognition processing,” it discusses voice
recognition technology only as a component part of the
system, and expertise in voice recognition technology
was not required to understand the ’538 Patent because it does not discuss any particular voice recognition techniques or algorithms. Ex. 1032 ¶¶ 6–7.
Therefore, we agree with Mr. Wechselberger that a
practitioner would have understood how to implement
existing voice recognition products in a cable television network without having special knowledge or experience with voice recognition algorithms. Id. ¶¶ 5–
7.
For the foregoing reasons, we credit the testimony
of Mr. Wechselberger regarding the person of ordinary
skill in the art and adopt, with modification (e.g., removing the words “at least” from Petitioner’s proposed
definition), Petitioner’s definition of a person of ordinary skill in the art:
(i) an undergraduate degree (or equivalent) in
electrical engineering, computer science, or a
comparable subject and three years of work

31a
experience in the field of analog and digital
television systems with exposure to interactive networks and associated control technologies; or
(ii) a Master’s of Science degree (or equivalent)
in electrical engineering, computer science, or
a comparable subject and one year of postgraduate research or work experience in the
same field.
We further note that the prior art in the instant
proceeding reflects the level of ordinary skill in the art
at the time of the invention.
See Okajima v.
Bourdeau, 261 F.3d 1350, 1355 (Fed. Cir. 2001). For
example, as reflected in Julia, a person of ordinary
skill in the art would have familiarity with using a
spoken natural language as an input into control systems. See Ex. 1017, 1:39–48.
B. Claim Construction
1. General Principles
In an inter partes review, claim terms in an unexpired patent are given their broadest reasonable construction in light of the specification of the patent in
which they appear. See 37 C.F.R. § 42.100(b) (2017); 2
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131,
2144–46 (2016) (upholding the use of the broadest rea-

A recent amendment to this rule does not apply here, because
the Petition was filed before November 13, 2018. See “Changes
to the Claim Construction Standard for Interpreting Claims in
Trial Proceedings Before the Patent Trial and Appeal Board,” 83
Fed. Reg. 51,340 (Oct. 11, 2018) (amending 37 C.F.R. § 42.100(b)
effective November 13, 2018) (to be codified at 37 C.F.R. pt. 42).
2

32a
sonable interpretation standard as the claim construction standard to be applied in an inter partes review proceeding). Under the broadest reasonable interpretation standard, claim terms generally are
given their ordinary and customary meaning as would
be understood by one of ordinary skill in the art in the
context of the entire disclosure. See In re Translogic
Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007).
Construction of a “means-plus-function” limitation under 35 U.S.C. § 112, sixth paragraph, involves
two steps: first identifying the function explicitly recited in the claim, and then identifying the corresponding structure set forth in the written description
that performs the particular function set forth in the
claim. Asyst Techs, Inc. v. Empak, Inc., 268 F.3d 1364,
1369–70 (Fed. Cir. 2001).
Petitioner proposes constructions for several
terms in claim 18, including “activation means for receiving user-activated indication of a voice command,”
“transmission means for wirelessly transmitting a signal representing the voice command to a cable television controller,” “processing means for deriving cabletelevision-controller-compatible command functions
. . . ,” and “means responsive to receipt of the command functions.” Pet. 8–11. Patent Owner takes no
position as to any of these terms. See generally Resp.
Petitioner acknowledges, and we are persuaded on the
record before us, that these are means-plus-function
limitations that should be construed in accordance
with 35 U.S.C. § 112, ¶ 6. See id.

33a
2. “activation means for receiving useractivated indication of a voice command”
Petitioner proposes the following construction for
“activation means for receiving user-activated indication of a voice command”:
•

Function: “receiving user-activated indication of a voice command”;

•

Structure: “push to talk (PTT) button” or
“a word recognition unit” and equivalents. 3

Pet. 8 (citing Ex. 1022 ¶¶ 106–108; Ex. 1001 4:36–40,
7:37–40, Fig. 2). Patent Owner does not propose an
alternative construction nor does Patent Owner respond to Petitioner’s proposal. See generally Resp.
Based on our review of the record before us, we partially adopt Petitioner’s proposed construction for the
recited function but find the corresponding structure
to be: “‘push to talk (PTT) button’ or ‘a voice processor
and a buffer’ and equivalents.” Specifically, we replace “a word recognition unit” in the proposed corresponding structure with “a voice processor and a
buffer” because “word recognition unit” is a functional
recitation and does not identify any particular structure. The Specification refers to the “word recognition
unit [a]s typically constructed of a voice processor and
a buffer.” See Ex. 1001, 7:42–44.

We read “equivalents” in Petitioner’s proposed constructions
for means plus function elements as referring to equivalents of
the identified corresponding structure.
3

34a
3. “transmission means for wirelessly transmitting
a signal representing the voice command to a
cable television controller”
Petitioner proposes the following construction for
“transmission means for wirelessly transmitting a signal representing the voice command to a cable television controller”:
•

Function: “wirelessly transmitting a signal representing the voice command to a
cable television controller”;

•

Structure: “transmitter 224,” which can
be a “radio frequency (RF) transmitter” or
an “infrared transmitter,” and equivalents.

Pet. 8–9 (citing Ex. 1022 ¶¶ 113–115; Ex. 1001, 2:54–
56, 2:62–64, 4:37–40, 4:51–55, 11:33–35, Fig. 2). Patent Owner does not propose an alternative definition
nor does Patent Owner respond to Petitioner’s proposal. See generally Resp. Based on our review of the
record before us, we adopt Petitioner’s proposed construction for this term.
4. “processing means for deriving
cable-television-controller- compatible
command functions . . .”
Petitioner proposes the following construction for
“processing means for deriving cable-television-controller-compatible command functions . . .”:
•

Function: “deriving cable-television-controller- compatible command functions
corresponding to signals representing the
voice commands received from the cable
television controllers”;

35a
•

Structure: “speech recognition processor
670” and equivalents.

Pet. 9 (citing Ex. 1022 ¶¶ 124–126; Ex. 1001, 5:46–56).
Patent Owner does not propose an alternative definition nor does Patent Owner respond to Petitioner’s
proposal. See generally Resp. Based on our review of
the record before us, we adopt Petitioner’s proposed
construction for this term.
5. “means responsive to receipt of the command
functions for executing the command functions”
Petitioner proposes the following construction for
“means responsive to receipt of the command functions for executing the command functions”:
•

Function: “executing the command functions”;

•

Structure: “a processor” and equivalents.

Pet. 10–11 (citing Ex. 1022 ¶¶ 136–138; Ex. 1001,
3:51–52, 4:20–24, 11:53–55). First, regarding the recited function, claim 18 includes the recitation “responsive to receipt of the command functions.” That
is, the recited function is “responsive to receipt of the
command functions for executing the command functions.” Neither Petitioner nor its expert explains why
it is appropriate to remove “responsive to receipt of
the command functions for” from the recited function.
Pet. 10–11; Ex. 1022 ¶ 137.
Next, Petitioner is required to identify “the specific portions of the specification that describe the
structure, material, or acts corresponding to each
claimed function.” 37 C.F.R. § 42.104(b)(3). As the
Federal Circuit has noted, “‘structure disclosed in the
specification is “corresponding” structure only if the

36a
specification or prosecution history clearly links or associates that structure to the function recited in the
claim. This duty to link or associate structure to function is the quid pro quo for the convenience of employing § 112, ¶ 6.’” Saffran v. Johnson & Johnson, 712
F.3d 549, 562 (Fed. Cir. 2013) (quoting B. Braun Med.,
Inc. v. Abbott Labs., 124 F.3d 1419, 1424 (Fed. Cir.
1997)). We are not persuaded that Petitioner has
identified sufficient corresponding structure for this
means-plus-function limitation.
Here, Petitioner contends that the corresponding
structure for performing the recited function is “‘a processor’ and equivalents.” Pet. 11. Petitioner’s expert
further opines that “the patent identifies the Motorola
DCT-2000 set-top box (’538 Patent[,] 3:51–52), and a
person of ordinary skill in the art would have known
that the DCT-2000 includes a processor that executes
command functions from the cable head-end.” Ex.
1022 ¶ 138. However, for means-plus-function limitations,
[i]f special programming is required for a general-purpose computer to perform the corresponding claimed function, then the default
rule requiring disclosure of an algorithm applies. It is only in the rare circumstances
where any general-purpose computer without
any special programming can perform the
function that an algorithm need not be disclosed.
Ergo Licensing, LLC v. CareFusion 303, Inc., 673 F.3d
1361, 1365 (Fed. Cir. 2012); see also Williamson v. Citrix Online, LLC, 792 F.3d 1339, 1352 (Fed. Cir. 2015)
(en banc) (“In cases . . . involving a claim limitation

37a
that is subject to § 112, para. 6 that must be implemented in a special purpose computer, this court has
consistently required that the structure disclosed in
the specification be more than simply a general purpose computer or microprocessor[; it must] disclose an
algorithm for performing the claimed function.”) (citations omitted); Aristocrat Techs. Austl. Party Ltd. vs.
Int’l Game Tech., 521 F.3d 1328, 1333 (Fed. Cir.
2008).
We decline to adopt Petitioner’s proposed construction because Petitioner has not explained sufficiently that the recited function for this term (“responsive to receipt of the command functions for executing
the command functions”) is a basic computer function
that would not require a special purpose computer,
nor has Petitioner directed us to any portion of the
Specification sufficient to link a structure (i.e., an algorithm) 4 to the recited function. The reference to “a
processor” without specifying the algorithm is too generic to identify any specific structure. In Aristocrat,
the Federal Circuit stated that “the corresponding
structure for a § 112 ¶ 6 claim for a computer-implemented function is the algorithm disclosed in the specification.” Id., emphasis added. As the Federal Circuit explained, “a general purpose computer programmed to carry out a particular algorithm creates
a ‘new machine’ because a general purpose computer
‘in effect becomes a special purpose computer once it
is programmed to perform particular functions pursuant to instructions from program software.’” 521 F.3d
at 1333 (quoting Harris Corp. v. Ericsson Inc., 417
We do not opine on whether the Specification contains such
an algorithm.
4

38a
F.3d 1241, 1249 (Fed. Cir. 2005)); see also WMS Gaming, Inc. v. Int’l Game Techs., 184 F.3d 1339, 1349
(Fed. Cir. 1999). Consequently, the specification must
disclose enough of a specific algorithm to provide the
necessary structure under § 112, sixth paragraph.
Finisar Corp. v. DirectTV Grp., Inc., 523 F.3d 1323,
1340 (Fed. Cir. 2008). Allowing a computer programmed to perform a specialized function to be
claimed without disclosure of the algorithm used for
that programming would exhibit the same type of impermissible overbreadth of purely functional claims.
Net MoneyIN, Inc. v. VeriSign, Inc., 545 F.3d 1359,
1367 (Fed. Cir. 2008).
If special programming is required for a general-purpose computer to perform the corresponding claimed function, then the default
rule requiring disclosure of an algorithm applies. It is only in the rare circumstances
where any general-purpose computer without
any special programming can perform the
function that an algorithm need not be disclosed.
Ergo Licensing, LLC v. CareFusion 303, Inc., 673 F.3d
1361, 1365 (Fed. Cir. 2012).
Here, by simply noting that “a processor” can perform the recited function of “responsive to receipt of
the command functions for executing the command
functions,” Petitioner has not identified the underlying algorithm to perform the recited function. Petitioner has not made the case that this falls within the
narrow exception explained in In re Katz Interactive
Call Processing Patent Litigation, 639 F.3d 1303, 1316
(Fed. Cir. 2011), where the function recited is generic

39a
and can be performed by any general-purpose computer without special programming, e.g., “processing,”
“receiving,” “storing.” Petitioner makes no explanation as to why the recited function would be so basic
that it could be performed by “a processor” without
any special programming. Accordingly, Petitioner has
not identified corresponding structure, described in
the Specification of the ’538 Patent, that causes a computer to perform the recited function of “responsive to
receipt of the command functions for executing the
command functions.”
6. Other Terms Containing “means for”
Petitioner proposes that the following terms, in
claim 18, containing the words “means for” should not
be construed as means-plus-function terms: “microphone means for . . . ,” “receiver means for . . . ,”
“transmitter means for . . . ,” and “second receiver
means for . . . .” Pet. 11 (citing to Ex. 1022 ¶¶ 109–
112, 116–119, 120–123, 131–135). Patent Owner does
not propose any alternative definitions nor does Patent Owner respond to Petitioner’s proposal. See generally Resp.
The use of the term “means” triggers a rebuttable
presumption that § 112, ¶ 6 applies. TriMed, Inc. v.
Stryker Corp., 514 F.3d 1256, 1259 (Fed. Cir. 2008).
One way in which this presumption can be overcome
is if “the claim recites sufficient structure for performing the described functions in their entirety.” Id. To
determine if the claim recites sufficient structure, “it
is sufficient if the claim term is used in common parlance or by persons of skill in the pertinent art to designate structure, even if the term covers a broad class

40a
of structures and even if the term identifies the structures by their function.” Lighting World, Inc. v. Birchwood Lighting, Inc., 382 F.3d 1354, 1359–60 (Fed. Cir.
2004).
Here, for each limitation, the claim recites sufficient structure for performing the described functions.
For example, a microphone is sufficient structure “for
receiving the voice command” (Ex. 1022 ¶ 109) and a
transmitter is sufficient structure for “transmitting a
signal representing the voice command via cable television link to a remotely located head-end unit” (id.
¶ 120). See also id. ¶¶ 110–112, 116–119, 121–123,
131–135. Therefore, based on our review of the record
before us, we are persuaded by Petitioner that these
terms do not invoke 35 U.S.C. § 112, ¶ 6.
C. Obviousness
1. General Principles
A claim is unpatentable under § 103(a) if the differences between the claimed subject matter and the
prior art are such that the subject matter, as a whole,
would have been obvious at the time the invention
was made to a person having ordinary skill in the art
to which said subject matter pertains. KSR Int’l Co.
v. Teleflex Inc., 550 U.S. 398, 406 (2007). The question
of obviousness is resolved on the basis of underlying
factual determinations, including (1) the scope and
content of the prior art; (2) any differences between
the claimed subject matter and the prior art; (3) the
level of skill in the art; and (4) when in evidence, objective indicia of non-obviousness (i.e., secondary considerations). Graham v. John Deere Co., 383 U.S. 1,
17–18 (1966).

41a
An invention “composed of several elements is not
proved obvious merely by demonstrating that each of
its elements was, independently, known in the prior
art.” KSR, 550 U.S. at 418. Rather, to establish obviousness, petitioner bears the “burden to demonstrate
both that a skilled artisan would have been motivated
to combine the teachings of the prior art references to
achieve the claimed invention, and that the skilled artisan would have had a reasonable expectation of success in doing so.” In re Magnum Oil Tools Int’l, Ltd.,
829 F.3d 1364, 1381 (Fed. Cir. 2016) (internal quotations omitted); see KSR, 550 U.S. at 418. Moreover, a
petitioner cannot satisfy this burden by “employ[ing]
mere conclusory statements” and “must instead articulate specific reasoning, based on evidence of record”
to support an obviousness determination. Magnum
Oil, 829 F.3d at 1380. Stated differently, there must
be “articulated reasoning with some rational underpinning to support the legal conclusion of obviousness.” KSR, 550 U.S. at 418 (quoting In re Kahn, 441
F.3d 977, 988 (Fed. Cir. 2006)).
The “factual inquiry” into the reasons for
“combin[ing] references must be thorough and searching, and the need for specificity pervades . . . .” In re
Nuvasive, Inc., 842 F.3d 1376, 1381–82 (Fed. Cir.
2016) (internal quotations and brackets omitted). A
determination of obviousness cannot be reached
where the record lacks “explanation as to how or why
the references would be combined to produce the
claimed invention.” TriVascular, Inc. v. Samuels, 812
F.3d 1056, 1066 (Fed. Cir. 2016); see Nuvasive, 842
F.3d at 1382–86 (holding that an obviousness determination cannot be reached where there is no “articulat[ion of] a reason why a [person having ordinary skill

42a
in the art] would combine” and “modify” the prior art
teachings). This required explanation as to how and
why the references would be combined avoids an impermissible “hindsight reconstruction,” using “the patent in suit as a guide through the maze of prior art
references, combining the right references in the right
way so as to achieve the result of the claims in suit.”
TriVascular, 812 F.3d at 1066; see also In re NTP, Inc.,
654 F.3d 1279, 1299 (Fed. Cir. 2011). We analyze the
asserted grounds based on obviousness with these
principles in mind.
2. Claim 18
As discussed above, Petitioner fails to identify the
structure corresponding to the recited function “responsive to receipt of the command functions for executing the command functions” within the meansplus-function element “means responsive to receipt of
the command functions for executing the command
functions” of claim 18. As such, we determine that Petitioner has not established, by a preponderance of the
evidence, the unpatentability of claim 18 in any of the
asserted grounds (Grounds 1 to 4).
3. Combination Grounds – Obviousness over Julia
in view of Houser and Obviousness over Murdock
in view of Houser
Patent Owner contends that “Petitioner’s combinations fail because [Petitioner] did not articulate a
sufficient motivation to combine the features of the
prior art to yield the claimed invention.” Resp. 12–13.
According to Patent Owner, “[t]he entirety of the
[P]etition’s discussion of a motivation to combine Julia
with Houser (or Murdock with Houser) falls within a
mere two paragraphs of each ground.” Id. at 13–15.

43a
Petitioner notes that a person of ordinary skill in
the art would have been motivated to combine Julia
with Houser and Murdock with Houser because the
references “all relate to the field of interactive television systems specifically including cable television
networks” (i.e., analogous art) and that they all “also
address the same problem of providing voice control
capability in such an interactive television system.”
Pet. 44–45, 70–71. Petitioner also states that “a person of ordinary skill in the art would have recognize[d]
the benefits of combining” the references and that
such a combination “would have been no more than
combining prior art elements according to known
methods to yield predictable results.” Id.
Petitioner’s conclusory rationale for the combinations, however, is untethered to any claim limitations.
See Pet. 44–45, 70–71 (citing to Ex. 1022 ¶¶ 375–380,
382–383, 493–497, 499–500). For example, when discussing the combination of the references for a particular limitation, Petitioner starts with a discussion of
either Julia or Murdock, followed by a discussion of
Houser, and then provides a conclusory assertion that
the combination would disclose the limitation at issue.
See, e.g., Pet. 24–26 (“In Julia . . . . In addition to the
disclosures in Julia, the Houser prior art patent also
discloses . . . . Thus, Julia alone or combined with
Houser discloses . . . .”), 27–28 (“As explained above,
Julia discloses . . . . In addition, Houser also discloses
. . . . Thus, Julia alone or combined with Houser discloses . . . .”). These discussions do not articulate,
with respect to any specific limitation, or for any claim
as a whole, why or how Julia or Murdock can and
should be combined with Houser.

44a
A determination of obviousness cannot be reached
where the record lacks “explanation as to how or why
the references would be combined to produce the
claimed invention.” TriVascular, 812 F.3d at 1066.
The Petitioner also states that “a skilled artisan
would have been capable of combining the teaching[s]
of [the prior art references because such] combination[s] would have been no more than combining prior
art elements according to known methods to yield predictable results.” However, this discussion is similarly untethered to any claim element, or to the claim
as a whole. Pet. 45, 72 (citing to Ex. 1022 ¶¶ 382–
383; 5 499–500.) And, again, we are not informed what
teaching of one reference is proposed to be combined
with what teaching of the other reference, or why and
how the combination would have been made. To the
extent Petitioner’s position is that once it establishes
that two prior art references are within the same field
and are directed to solving the same problem, then all
features within one reference can be used within the
other, and vice versa, without need for further explanation, it cites no authority to support that broad position and we are aware of none.
Therefore, we determine that Petitioner has not
established, by a preponderance of the evidence, that
claims 1–7, 17, 19–24, and 33 would have been obvious over Julia in view of Houser or Murdock in view
of Houser.

The Petition cites, erroneously, to paragraphs 382 to 383 of
the Wechselberger Declaration. Pet. 45. We assume Petitioner
intends to cite to paragraphs 322 to 323 of the Wechselberger
Declaration.
5

45a
4. Single Reference Obviousness Grounds –
Obvious over Julia alone or Obvious over
Murdock Alone
a. Claims 1–7, 17, 19–24, and 33
Petitioner contends that claims 1–7, 17, 19–24,
and 33 are unpatentable over Julia alone or Murdock
alone under 35 U.S.C. § 103(a), relying on the supporting testimony of Mr. Wechselberger (Exs. 1022, 1032).
Pet. 18–35, 40–61, 66–70; see also Reply 4–12.
Patent Owner makes numerous arguments regarding how Julia or Murdock fails to “renders obvious several specific claim features” of claims 1–7, 17,
19–24, and 33. Resp. 22–50; Sur-Reply 9–19; see also
Resp. 15–22 (discussing the Petition’s alleged deficiency in its Graham analysis); Sur-Reply 8–9 (same).
As discussed below, we determine that Petitioner
has not established, by a preponderance of the evidence, that either Julia alone or Murdock alone
teaches “the head-end unit deriving a set-top-boxcompatible command function corresponding to said
voice command” limitation of independent claims 1
and 2 or “a head-end unit to derive set-top-box-compatible command functions corresponding to signals
representing voice commands” limitation of independent claim 19.
In light of these deficiencies, Petitioner has not
persuasively established that any of claims 1–7, 17,
19–24, and 33 would have been unpatentable. Because the above issue is dispositive, we exercise our
discretion to not reach all other arguments raised by
Patent Owner regarding the non-obviousness of these
claims.

46a
Petitioner and its declarant cite to three examples
to show how Julia teaches the limitation “the headend unit deriving a set-top-box-compatible command
function corresponding to said voice command,” as recited in claim 1 and similarly recited in claims 2 and
19. 6 Pet. 24–26.
(1) Decoding / Formatting
Petitioner, citing to various portions of Julia and
the testimony of Mr. Wechselberger, explains that after the “remote server performs speech recognition
processing[, it] then constructs a query to obtain the
requested content.” Pet. 24 (citing Ex. 1017, 3:61–64).
The desired content is then searched and retrieved.
Id. According to Petitioner’s expert, “[i]n the case of
an on-demand video (and other types of content), the
information must be decoded and formatted by the
set-top box before being displayed.” Ex. 1022 ¶ 178
(citing to Julia, Ex. 1017, 4:25–30 (“display device 112
is coupled to or integrated with a communications box
(which is preferably the same as communications box
104, but may also be a separate unit) for receiving and
decoding/formatting the desired electronic information that is received across communications network 106”), emphasis omitted).
Patent Owner and its declarant, Mr. Tinsman,
disagree. Resp. 29–31; Ex. 2033 ¶¶ 41–43. Patent
Owner points out that “Petitioner does not explain
why decoding/formatting video content requires the
claimed command” and contends that a “POSITA

The parties analyze these claim limitations together. We will
address this limitation of claim 1 as representative of the corresponding limitations in claims 2 and 19.
6

47a
would know that decoding and formatting content
data does not require that a command be derived by a
head-end unit in response to a user’s query and then
sent to the set-top box.” Resp. 29 (citing Ex. 2033
¶¶ 41–43). According to Patent Owner’s declarant,
Mr. Tinsman, Petitioner “has not shown that that information includes a set-top box compatible command
function” because “while the references’ disclosures
broadly indicate that their set-top boxes receive some
information from a remote network location,” the information does not require a command to be sent for
decoding or formatting. Ex. 2033 ¶ 43.
Specifically, Mr. Tinsman testifies:
Cable digital television content is typically
transmitted as compressed data that must be
decompressed by the set-top box for display on
a television. Such content information is generally comprised of the compressed video data
accompanied by metadata describing the content data to the set-top box, including, e.g., details of the data’s format. A POSITA would
know that a set-top box does not need to receive specific instructions to perform a function every time it receives content data. Instead, the video decoder in the set top box automatically decodes the incoming data for display on a television without needing specific
instructions to do so from the head-end unit.
Id. We credit the above-quoted testimony of Mr. Tinsman, and find it to be persuasive. Patent Owner also
points out that Mr. Wechselberger admitted that decoding and formatting information does not neces-

48a
sarily require a command to be sent. Resp. 29–30 (citing Ex. 2034, 50:20–24 (“Q Is it your opinion that decoding and formatting information necessarily requires a command to be sent from the head end to the
set top box? A No.”)); see also Ex. 2034, 50:25–52:20.
In contrast, we do not credit the conclusory testimony of Mr. Wechselberger that “[a] person of ordinary skill in the art would know that remote server
108 would send a ‘set-top-box-compatible command
function’ to the communications box 104 (‘set-top box’)
as a prerequisite to permit it to decode and format the
video signal for display on display device 112.” Ex.
1022 ¶ 178. This conclusory statement is not supported by persuasive evidence, and is inconsistent
with Mr. Wechselberger’s admission that decoding
and formatting information does not necessarily require a command to be sent. See Ex. 2034, 50:20–24.
Petitioner also contends that:
Patent Owner’s argument is based on an unstated, narrow construction of the term “settop-box-compatible instructions” [and] Patent
Owner is unable to do so because the ’538 Patent does not specifically define or use the
term, except in the claims, and instead refers
broadly to derived voice commands that cause
the user’s set-top box to display video content
or otherwise perform a function.
Reply 8, emphasis added. 7 Petitioner’s counsel argued
during the oral hearing that a “command function”
Petitioner appears to be referring to “set-top-box-compatible
command function” (in claims 1, 2, 19) and “set-top-box-compatible instructions” (claims 34 and 41) interchangeably.
7

49a
can simply be information as long as it causes the settop box to perform a function:
JUDGE YAP: So a command can be a head
end unit sending an instruction or sending
something akin to “display this pop up box on
the screen?” Or it can also be, according to
you, a movie, just basically the name of a
movie, just information about the movie, and
it just displays it, and that would also be a
command. Is that right?
MR. DAY: I think that’s right. There’s nothing in -- well, yes, Your Honor. There’s nothing in the patent that requires a narrower
reading of what’s happening here. The invention is not -- these command functions are not
part of the invention here. The patent doesn’t
talk about command functions and say, oh, we
have this really neat thing, we’re going to
send command functions. What it talks about
is the user can speak a voice command into
their remote, it’s going to be interpreted -whatever they ask for is going to happen.
That’s what the patent is about.
And so these command functions just are not
defined in a narrow way to be anything other
than what you just said. Yes, sending information, sending data. If it causes the set top
box to perform a function, then it’s a set top box
compatible command function.
Tr. 23:18–24:12, emphasis added; see also Ex. 1032
¶ 18.

50a
We are not persuaded that a command function
can be any kind of information or data that causes the
set-top box to perform a function. Petitioner’s reading
of the term “command function” is unreasonably
broad. 8 The claim requires “the head-end unit [to]
deriv[e] a set-top-box-compatible command function
corresponding to said voice command.” Ex. 1001,
9:35–36. Petitioner’s construction of “command function” would essentially read the term out of the claim.
Importantly, the term “command function” should at
least include a “command” to perform a function. The
Specification also does not describe “command function” as simply information or data. See, e.g., Ex. 1001
2:35–39 (“The command function is transmitted back
to the set-top box where the set-top box performs the
command function. Alternatively, the set-top box just
passes on the command and the head end performs or
carries out the command.”), emphasis added; 4:19–23
(“After the voice command is processed, the central
processing station 160 sends a corresponding command function to the cable set-top box 130 or other
system component where the command is then performed.”), emphasis added.
Petitioner has not established that everything
that leads to performing a function is a command. For
instance, a function may be performed upon the satisfaction of a condition, e.g., when A happens, then do
B. Although B is performed as a result of A occurring,
A is not a command to perform B.

The parties do not offer any explicit claim construction for
this term.
8

51a
Petitioner also contends that “Patent Owner not
only fails to disclose and support its narrow construction of the term ‘set-top-box-compatible command
function,’ it abandons its construction when mapping
the challenged claims to its own product” in Patent
Owner’s attempt to show a nexus between its product
(AgileTV) to the challenged claims. Reply 8–11. This
argument is not persuasive because, as the Patent
Owner points out, “Ex. 2008, which Mr. Tinsman relied on in forming his opinion, expressly states that
the system issued ‘appropriate action commands
to the set-top box as speech requests are recognized.’”
Sur-Reply 15.
Petitioner also argues that “Patent Owner’s declarant and former CTO David Chaiken testified that
the similar term ‘set-top-box-compatible command
function’ refers broadly to anything causing the settop box to show video content or perform a function.”
Reply 9 n.3 (citing Ex. 1027, 17:21–18:24, 19:12–20:4).
Petitioner’s reliance on Dr. Chaiken’s testimony is not
persuasive because, although Dr. Chaiken was discussing his understanding of the AgileTV system and
how it was an embodiment of the challenged claims,
he is not an inventor of the ’538 Patent nor was he
opining on the definition of the term as would have
been understood by a person of ordinary skill in the
art. Reply 9, n.3; Sur-Reply 13–14.
For the foregoing reasons, we determine that Petitioner’s construction of “command function” is unreasonably broad . Accordingly, we determine that
Petitioner has not established that a person of ordinary skill in the art would have understood from
Julia’s disclosure that “‘set-top-box-compatible command function’ [would be sent] to the communications

52a
box 104 (‘set-top box’) as a prerequisite to permit it to
decode and format the video signal for display on display device 112,” as Mr. Wechselberger opines. Ex.
1022 ¶ 178.
(2) Authorization and Security Information
In addition, Petitioner, relying on Mr. Wechselberger’s testimony, states that “[a] skilled artisan
would also know that the head-end unit sends authorization and security information to the user’s set-top
box to permit it to display the movie[, and that s]uch
conditional authorization and security information
also constitutes a ‘set-top box compatible command
function.’” Pet. 25; see Ex. 1022 ¶ 179. Patent Owner
and its declarant, Mr. Tinsman, disagree. Resp. 31–
33; Ex. 2033 ¶¶ 41–43. Patent Owner points out that
Petitioner does not explain why “authorization and security information requires deriving and transmitting
a set-top box compatible command” and contends that
a “POSITA would know that conditional authorization
and security information does not need to be a command.” Resp. 31 (citing Ex. 2033 ¶¶ 44–46). Particularly, Patent Owner’s declarant, Mr. Tinsman, explains that:
45. A POSITA would know that conditional
authorization and security information does
not need to be a command. Premium channels
such as HBO may be encrypted. Security information delivered to a set-top box can include the digital key data needed to decrypt a
given channel. But such keys are not themselves commands; they simply provide data
necessary to view a program in the event a
user chooses to do so. Like receiving a key for

53a
a physical door, receiving the encryption key
data provides the ability—but not the affirmative instruction—to unlock the content. In
my view, the mere receipt of authorization
and security information does not require that
the head-end unit send the set-top box a command function, and Comcast has thus not explained how Julia or Murdock render obvious
this claim feature.
46. A POSITA would also know that authorization and security information does not always need to be sent in response to a user’s
query. As an example, when a user first subscribes to HBO, the cable company sends the
set-top box information allowing it to display
HBO on the television. But once the set-top
box is configured to enable a user access to a
particular channel, the cable company does
not need to send authorization information to
the set-top box every time the user asks the
voice remote to play the channel. The delivery
of the channel could thus occur as a direct result of a user’s voice command to find a specific film or program, without any authorization or security information being sent in response to the user’s command. Consequently,
it is incorrect to conclude that the delivery of
any needed entitlements to view a program is
a direct result of the claimed voice request.
Ex. 2033 ¶¶ 45–46; see also Resp. 31–32. We find Mr.
Tinsman’s testimony to be well-explained and wellreasoned, and we therefore afford it substantial
weight. In contrast, we do not credit the conclusory

54a
testimony of Mr. Wechselberger that “[a] skilled artisan would also know that the head- end unit sends
authorization and security information to the user’s
set-top box to permit it to display the movie[, and that
s]uch conditional authorization and security information also constitutes a ‘set-top box compatible command function.’” Pet. 25; see Ex. 1022 ¶ 179. Petitioner also relies on the claim construction argument,
as discussed above. Accordingly, for the same reasons
discussed above, we determine that Petitioner has not
established that a person of ordinary skill in the art
would have understood that conditional authorization
and security information also constitutes a “set-top
box compatible command function.” Id.; see also Reply
8–11.
(3) Displaying Interactive Menu
Petitioner provides a third example of how Julia
teaches “the head-end unit deriving a set-top-boxcompatible command function corresponding to said
voice command” limitation. Petitioner notes that “[i]n
addition to providing video and other content to the
user, Julia also discloses utilizing voice commands to
return control information such as an interactive list
of available on-demand movies.” Pet. 24–25. According to Petitioner:
[T]he user can say, for example, “I want to see
that movie starring and directed by Clint
Eastwood.” Julia at 11:31–32. The remote
server would query the data source and then
return instructions to the user’s set-top box to
display the list of movies satisfying the query.
Id. at 11:32–49. The system would then display an interactive menu of options for the

55a
user, who would respond with a further voice
command (e.g., “Let’s see Unforgiven”) to select a particular on-demand movie. Id. at
11:57–67.
Id. at 24. Petitioner then, relying on its declarant’s
testimony, concludes that “[t]he interactive menu information transmitted to the set-top box [also] constitutes a ‘set-top-box-compatible command function . . .
corresponding to said voice command,’ as claimed.”
Id. at 24–25 (citing Ex. 1022 ¶ 181). Patent Owner
disagrees and points out that “Petitioner fails to explain how displaying a menu on a television screen requires that a command be derived and sent to the settop box” and that Mr. Wechselberger’s “conclusory testimony should not be given weight.” Resp. 34–35, emphasis omitted.
We agree with Mr. Tinsman that Mr. Wechselberger “does not explain why” a person of ordinary
skill in the art “would recognize that the ‘list of film
titles’ displayed to the user is based on a command
function” (Ex. 2033 ¶ 49 (citing Ex. 1022 ¶ 181)), and
therefore we do not credit the testimony of Mr. Wechselberger. As noted above, Petitioner’s argument (see
Reply 8–11) and the conclusory testimony of Mr.
Wechselberger (Ex. 1022 ¶ 181) rely on an overly
broad construction of “command function” that we
have rejected. We also agree with and credit Mr. Tinsman’s testimony that:
Even if that is true, a POSITA would recognize that if the head-end “generates an interactive menu” that is then sent to the set-top
box to be displayed on the screen, then the

56a
head-end would appear to simply prepare information based on a user’s query, not a command for the set-top box to do something. Mr.
Wechselberger’s statement that the menu is
“executed” by the cable set-top box could be accomplished by the set-top box simply performing a pre-programmed function when it receives a certain type of information, and does
not explain how either of Julia or Murdock
alone teaches deriving a command function.
In my opinion, a POSITA would not view mere
information sent to the set-top box from the
head-end unit (that the set-top box uses to
generate a menu) as a “command function.”
Ex. 2033 ¶ 49. We, therefore, determine that Petitioner has not established that “[a person of ordinary
skill in the art] would recognize that the ‘list of film
titles’ displayed to the user is based on a command
function.”
b. Secondary Considerations of Non-obviousness
Patent Owner also contends that secondary considerations further demonstrate non-obviousness of
the challenged claims. Resp. 50–63. We need not,
however, consider or discuss the objective evidence of
nonobviousness, because even assuming the absence
of any evidence of nonobviousness, there is not sufficient evidence of obviousness to support a conclusion
that any challenged claim is unpatentable.
c. Single-Reference Obviousness Conclusions
For the foregoing reasons, we determine that Petitioner has not established, by a preponderance of the

57a
evidence, that claims 1–7, 17, 19–24, and 33 would
have been obvious over Julia.
Petitioner’s arguments with regard to the alleged
ground of obviousness over Murdock are premised on
the same overly broad interpretation of “command
functions” that we have rejected in connection with
Petitioner’s arguments based on Julia. See Pet. 51–52
(“A person of ordinary skill in the art would have
known that ‘command functions’ would be transmitted along with the programming content (e.g., formatting and display instructions, authorization information, etc.). Wechselberger Decl. ¶¶ 341–342.”).
Therefore, for the same reasons explained above in
connection with Petitioner’s arguments based on
Julia, we also determine that Petitioner has not established, by a preponderance of the evidence, that
claims 1–7, 17, 19–24, and 33 would have been obvious over Murdock.
D. Motions to Exclude
1. Petitioner’s Motion to Exclude
Petitioner filed a Motion to Exclude Evidence
seeking to exclude Exhibits 2001–2003, 2009–2011,
2015, 2021, 2024, and 2032 as inadmissible hearsay
evidence. Paper 35; see also Papers 44 (Patent
Owner’s Opposition to Petitioner’s Motion to Exclude
Evidence), 49 (Petitioner’s Reply in Support of its Motion to Seal). These exhibits relate to Patent Owner’s
support for its secondary considerations arguments.
Resp. 50–63. Because we do not reach the issue of secondary considerations, we dismiss Petitioner’s motion
as moot.

58a
2. Patent Owner’s Motion to Exclude
Patent Owner filed a Motion to Exclude seeking to
exclude Dr. Chaiken’s testimony in response to two
questions that purportedly exceeded the scope of permissible cross-examination. Paper 39 (citing Ex.
1027, 17:21–18:24, 19:12–20:4). According to Patent
Owner, Dr. Chaiken, in his declaration (Ex. 2032) “offered no opinion regarding the construction of ‘command function’ or about the application of the claims
of the ’538 Patent to the AgileTV device. Rather, Dr.
Chaiken’s declaration simply stated that ‘the architecture and solution described in the ’538 patent accurately reflect the AgileTV solution in 2002.’” Paper 39,
1 (citing Ex. 2032 ¶ 16). Patent Owner argues that
“Comcast’s questions regarding the meaning of ‘settop-box-compatible command function’ therefore fell
outside the scope of Dr. Chaiken’s direct testimony”
and should be excluded because “they exceeded the
proper scope of cross-examination.” Id. at 1–2.
Petitioner contends that “Dr. Chaiken’s testimony
regarding the term ‘command function’ is relevant
[because i]n his declaration, Dr. Chaiken primarily
addresses Patent Owner’s arguments regarding purported secondary considerations of non-obviousness.”
Paper 47, 1. Specifically, according to Petitioner, “[b]y
relying on Dr. Chaiken’s testimony in an effort to establish a nexus between the challenged claims and the
AgileTV product, Patent Owner put his understanding of the challenged claims at issue[, hence, h]is testimony regarding his understanding of the claim term
‘command function’ is therefore relevant” and within
the scope of cross-examination. Id. at 2. Patent
Owner disagrees, arguing that Dr. Chaiken, a fact
witness, “never mapped the AgileTV system to the

59a
claims, and his testimony truly had nothing to do with
the claims or any potential interpretation of them.”
Paper 48, 1. According to Patent Owner, “Dr. Chaiken
presented testimony as a fact witness regarding the
development of Promptu’s AgileTV system in the
early 2000s that was previously licensed by Comcast
and successfully installed in Comcast’s cable network
system” and his testimony “answers were based on his
memory of how the Promptu system worked and not
on a legal interpretation of the invention described in
the ’538 Patent or the proper scope of the claims.” Id.
at 2–3 (citing Ex. 2032, 113:17–115:1).
Patent Owner’s argument concerns subject matter
that is not properly raised in a Motion to Exclude. As
we have noted in our Scheduling Order, a “Motion to
Exclude shall only raise admissibility issues under
the Federal Rules of Evidence, and not be used as additional briefing on any other topic, subject, or issue,
for example, any assertion that a certain brief or evidentiary submission exceeds the proper scope for such
brief or submission.” Paper 11, 7, emphasis added.
Moreover, “[i]n case of an issue based on exceeding the
proper scope of a submission, the parties must raise
the matter by initiating a conference call with the
Board.” Id. Therefore, because Patent Owner’s motion concerns the scope of permissible cross-examination, Patent Owner should have raised the matter
with the Board by initiating a conference call rather
than raising this issue in a Motion to Exclude. 9

Furthermore, as discussed above, Petitioner has not shown
unpatentability even if we were to consider the evidence Patent
Owner seeks to exclude. Thus, in any event, it is not necessary
to rule on the Motion to Exclude because it is moot.
9

60a
Accordingly, Patent Owner’s Motion to Exclude is
dismissed.
III. CONCLUSION
Petitioner has not established, by a preponderance of the evidence, that claims 1–7, 17–24, and 33
would have been obvious over Julia;
Petitioner has not established, by a preponderance of the evidence, that claims 1–7, 17–24, and 33
would have been obvious over Julia and Houser;
Petitioner has not established, by a preponderance of the evidence, that claims 1–7, 17–24, and 33
would have been obvious over Murdock;
Petitioner has not established, by a preponderance of the evidence, that claims 1–7, 17–24, and 33
would have been obvious over Murdock and Houser.
IV. ORDER
For the foregoing reasons, it is hereby:
ORDERED that Petitioner has not shown, by a
preponderance of the evidence, that any of claims 1–
7, 17–24, and 33 is unpatentable;
FURTHER ORDERED that Petitioner’s Motion to
Exclude is dismissed;
FURTHER ORDERED that Patent Owner’s Motion to Exclude is dismissed; and
FURTHER ORDERED that because this is a Final Written Decision, parties to the proceeding seeking judicial review of the decision must comply with
the notice and service requirements of 37 C.F.R.
§ 90.2.

61a
PETITIONER:
James L. Day
Daniel Callaway
FARELLA BRAUN + MARTEL LLP
jday@fbm.com
dcallaway@fbm.com
Leo L. Lam
KEKER, VAN NEST & PETERS LLP
llam@kvn.com
PATENT OWNER:
Joshua L. Goldberg
Jacob A. Schroeder
Cory C. Bell
Daniel Klodowski
FINNEGAN, HENDERSON, FARABOW, GARRETT
& DUNNER, LLP
joshua.goldberg@finnegan.com
jacob.schroeder@finnegan.
cory.bell@finnegan.com
daniel.klodowski@finnegan.com

62a
APPENDIX D
UNITED STATES PATENT AND
TRADEMARK OFFICE
________________________
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
________________________
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioner,
v.
PROMPTU SYSTEMS CORPORATION,
Patent Owner.
________________________
Case IPR2018-00341
Patent 7,260,538 B2
________________________
Before JAMESON LEE, ROBERT L. KINDER, and
ALEX S. YAP, Administrative Patent Judges.
YAP, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 318(a)

63a
I.

INTRODUCTION

Petitioner, Comcast Cable Communications, LLC.
(“Comcast”), filed a Petition (Paper 1, “Pet.”) requesting an inter partes review of claims 34, 35, 37, 40, and
41 of U.S. Patent 7,260,538 B2 (Ex. 1001, “the ’538 Patent”). We instituted review of claims 34, 35, 37, 40,
and 41 on all grounds asserted in the Petition. Paper
10. Patent Owner, Promptu Systems Corporation.
(“Promptu”), filed a Response. Paper 20 (“Resp.”). Petitioner filed a Reply (Paper 29) and Patent Owner
filed a Sur-Reply (Paper 37). An oral hearing was held
on January 28, 2019. A copy of the transcript for the
oral hearing has been entered as Paper 55 (“Tr.”).
As discussed below, Petitioner has not shown, by
a preponderance of the evidence, that any of claims
34, 35, 37, 40, and 41 is unpatentable under any asserted grounds.
A. Related Matters
The ’538 Patent is the subject of a pending civil
action, Promptu Systems Corporation v. Comcast Corporation and Comcast Cable Communications, LLC,
Case No. 2:16-cv-06516 (E.D. Pa.). Patent Owner’s
Mandatory Notices (Paper 6), 2. Another petition for
inter partes review has been filed by Petitioner on this
patent in IPR2017-00340, which is pending before the
Board. Pet. xi; see also IPR2018-00340, Paper 1. According to Patent Owner, the District Court stayed the
pending civil action after the Board instituted trial in
this matter. Patent Owner’s Updated Mandatory Notice (Paper 16), 2.

64a
B. The ’538 Patent
The ’538 Patent, titled “Method and Apparatus for
Voice Control of a Television Control Device,” was issued on August 21, 2007. Ex. 1001, [45]. It issued
from U.S. Patent Application 10/338,591, filed on January 7, 2003, and claims the benefit of U.S. Provisional Application No. 60/346,899 filed on January 8,
2002. Id. at [21], [22], [60]. The ’538 Patent generally
relates to a “method and apparatus [] for remotely processing voice commands for controlling a television.”
Ex. 1001, Abstract. Figure 1 of the ’538 Patent is reproduced below.

65a
Figure 1 “is a diagram illustrating elements of the
voice control television system according to the invention.” Id. at 2:52–53. According to the Specification,
a “problem with the prior art voice recognition systems is that they require a sophisticated voice recognition system in close proximity to the user, requiring
individual units[,] which is quite costly.” Id. at 1:59–
62. The Specification discloses “method and apparatus [] for remotely processing voice commands,” purportedly solving one of the alleged problems in prior
art systems. Id. at Abstract. A user’s voice command
“is received by a microphone contained in a [] remote
control.” Id. at 2:23–25. The microphone in the remote control “is activated by the depression of a pushto-talk (PTT) button or by word activation.” Id. at
2:41–42. “The voice command is modulated and wirelessly transmitted to a wireless receiver connected to
the set-top box.” Id. at 2:25–26. “The voice command
is then transmitted, for example, to a central processing station located at a cable television head-end
unit[, which] processes the voice command for voice
command recognition.” Id. at 2:29–33. “Once the
voice command is determined a command function is
created [and] transmitted back to the set-top box
where the set-top box performs the command function.” Id. at 2:33–37.
C. Challenged Claims
Claims 34, 40, and 41 are independent. Claims 34
and 40 are system claims directed to “[a] centralized
multi-user voice operated television control system”
(id. at 13:37–61, 14:37–64), while claim 41 is a method
claim directed to “[a] method for operating a centralized multi-user voice operated television control system that includes . . . .” (id. at 14:65–16:14). Claims

66a
35 and 37 depend directly from claim 34. Independent
claims 34, 40, and 41, reproduced below, are illustrative of the challenged claims.
34. A centralized multi-user voice operated
television control system, comprising:
television remote controls configured
to directly and wirelessly control television sets and additionally to television remote controls configured to directly and
wirelessly control television sets and additionally to receive user voice input and
wirelessly transmit first output representative of the voice input to television
set-top boxes;
television set top boxes configured to
receive television input signals via cable
television link and provide television output signals compatible with television
sets, the set top boxes additionally responsive to receiving the first output from the
television remote controls to transmit representative second output to a central processing station via the cable television
link;
a centralized processing station configured to receive and process second output from a multitude of television set top
boxes by applying voice recognition to the
second output to identify user-intended
voice commands, to derive set-top-boxcompatible instructions to carry out the
identified voice commands, and returning
signals representing the instructions to

67a
respective top boxes via the cable television link;
where the set top boxes are further responsive to receiving the signals representing the instructions from the central
processing station to execute the instructions.
Ex. 1001, 13:37–61.
40. A centralized multi-user voice operated
television control system, comprising:
a plurality of television remote control
means each for directly and wirelessly
controlling television sets and additionally receiving user voice input and wirelessly transmitting first output representative of the voice input to a television
set-top box means;
a plurality of television set top box
means each for receiving television input
signals via cable television link and
providing television output signals compatible with television sets, and responsive to receiving the first output from one
of the television remote control means to
transmit representative second output to
a central processing station via the cable
television link;
a centralized processing station configured to receive and process second output from a multitude of television set top
box means by applying voice recognition

68a
to the second output to identify user-intended voice commands, to derive set-topbox-means-compatible instructions to
carry out the identified voice commands,
and returning signals representing the instructions to respective set top box means
via the cable television link;
where each set top box means is further responsive to receiving the signals
representing the instructions from the
central processing station to execute the
instructions.
Ex. 1001, 14:37–64.
41. A method for operating a centralized
multi-user voice operated television control
system that includes a multitude of television
remote controls situated at various television
viewing sites, a multitude of set top boxes situated at the television sites to receive television input signals via cable television link and
provide television output signals compatible
with television sets at the television viewing
sites, and a centralized processing station remote from the television viewing sites and
coupled to the set top boxes via the cable television link, the method comprising operations
of:
operating the television remote controls to perform additional operations including receiving user voice input and
wirelessly transmitting first output representative of the voice input to set-top
boxes;

69a
operating the set top boxes to perform
additional operations including, responsive to receiving the first output from the
television remote controls, transmitting
representative second output to a central
processing station via the cable television
link;
operating the centralized processing
station to receive and process second output from a multitude of set top boxes by
applying voice recognition to the second
outputs to identify user-intended voice
commands, to derive set-top-box compatible instructions to carry out the identified
voice commands, and to return signals
representing the instructions to the set
top boxes via the cable television link;
operating the set top boxes to perform
further operations including, responsive
to receiving the signals representing the
instructions from the central processing
station, executing the instructions.
Ex. 1001, 14:65–16:14.
D. References Relied Upon
Petitioner relies on the following references:
Exhibit
1017
1018

Reference
United States Patent No. 6,513,063
B1, filed March 14, 2000 (“Julia”).
United States Patent No. 7,013,283
B1, filed November 16, 2000 (“Murdock”).

70a
1019

United States Patent No. 5,774,859, issued June 30, 1998 (“Houser”).

Pet. 2–3. Petitioner also relies on the Declaration of
Anthony Wechselberger (Ex. 1022, “Wechselberger
Declaration”), the Reply Declaration of Anthony
Wechselberger (Ex. 1032), and the Declaration of
Daniel C. Callaway (Ex. 1021).
1.

Julia (Ex. 1017)

Julia describes a “navigation of electronic data by
means of spoken natural language requests.” Ex.
1017, 1:16–18. Figure 1a of Julia is reproduced below.

Figure 1a “illustrates a system providing a spoken
natural language interface for network-based information navigation . . . with server-side processing of

71a
requests.” Id. at 3:6–9. “[A] user’s voice input data is
captured by a voice input device 102, such as a microphone[, which p]referably [] includes a button or the
like that can be pressed or held down to activate a listening mode.” Id. at 3:39–43. Input device 102 can be
also be “a portable remote control device with an integrated microphone, and the voice data is transmitted
from device 102 preferably via infrared (or other wireless) link to [a receiver in] communications box 104.”
Id. at 3:46–52. “The voice data is then transmitted
across network 106 to a remote server or servers 108.”
Id. at 3:54–55. The voice data “is processed by request
processing logic 300 in order to understand the user’s
request and construct an appropriate query or request
for navigation of remote data.” Id. at 3:61–64. “Once
the desired information has been retrieved from data
source 110, it is electronically transmitted via network 106 to the user for viewing on client display device 112.” Id. at 4:18–20. Communications box 104 is
used for “receiving and decoding/formatting the desired electronic information that is received across
communications network 106.” Id. at 4:27–30. It is
“preferabl[e to use] the same [] communications box
104, but [it] may also be a separate unit) for receiving
and decoding/formatting the desired electronic information that is received across communications network 106.” Id. at 4:25–30.
2.

Murdock (Ex. 1018)

Murdock describes a “system and a concomitant
method for providing programming content in response to an audio signal.” Ex. 1018, Abstract. Figure
1 of Murdock is reproduced below.

72a

Figure 1 “depicts a high-level block diagram of a voice
control system.” Ex. 1018, 1:64–65. The program control device 110 can be “a portable or hand-held controller.” Id. at 2:35–36. It can “capture[] the input
verbal command signal from the user of the voice activated control system 100.” Id. at 2:22–24. “Once the
input command signal is received, the program control device 110 performs a transmission, e.g., a wireless transmission, of the command signal to the local
processing unit 120,” which “may include a set top terminal, a cable box, and the like.” Id. at 2:31–34, 45–
47. The input command signal is then transmitted to
remote server computer 130 via back channel 134. Id.
at 3:1–12. Remote server computer 130 “performs
speech recognition on the received signal, . . . retrieves
the requested program content from a program database and transmits the retrieved program content via

73a
the forward channel 132 to the local processing unit
120.” Id. at 3:15–36. “Upon receipt of the requested
programming content, the local processing unit 120
transmits the received content to the video player 122
or the television recorder 124.” Id. at 2:61–66.
3.

Houser (Ex. 1019)

Houser describes a “system for controlling a device such as a television and for controlling access to
broadcast information such as video, audio, and/or
text information.” Ex. 1019, Abstract. Figure 1 of
Houser is reproduced below.

Figure 1 of Houser “is a generalized block diagram of
an information system in accordance with” the
claimed invention. Ex. 1019, 4:60–61. A remote control, which includes a microphone, captures “sounds

74a
or words spoken by a user” and transmits the sound
data signals to terminal unit 16. Id. at 6:33–7:24.
“Terminal unit 16 includes a processor for executing a
speech recognition algorithm . . . to recognize, for example, commands for controlling device 18 or commands for accessing information transmitted by information distribution center 12.” Id. at 5:62–5:67. The
information is then retrieved from “information distribution center 12[,] which receives information from
one or more remotely located information providers
14-1, . . . 14-n[,] and supplies or broadcasts this information to a terminal unit 16.” Id. at 5:39–44. “Terminal unit 16 then [] generates a command for controlling device 18.” Id. at 5:67–6:2. “Device 18 may be
any device [that] is capable of being operated in response to user supplied commands.” Id. at 7:27–29.
E. Asserted Grounds of Unpatentability
Petitioner challenges claims 34, 35, 37, 40, and 41
of the ’538 Patent based on the asserted grounds of
unpatentability set forth in the following table. Pet.
1–3, 17–71.
Reference(s)

Basis 1

1

Julia

§ 103(a)

2

Julia and
Houser

§ 103(a)

Ground

Claims
Challenged
34, 35, 37,
40, and 41
34, 35, 37,
40, and 41

The relevant section of the Leahy-Smith America Invents Act
(“AIA”), Pub. L. No. 112–29, took effect on March 16, 2013. Because the application from which the ’538 Patent issued was filed
before that date, the pre-AIA statutory framework applies.
1

75a
3

Murdock

§ 103(a)

4

Murdock and
Houser

§ 103(a)

34, 35, 37,
40, and 41
34, 35, 37,
40, and 41

II. ANALYSIS
A. Level of Ordinary Skill in the Art
In determining the level of ordinary skill in the
art, various factors may be considered, including the
“type of problems encountered in the art; prior art solutions to those problems; rapidity with which innovations are made; sophistication of the technology; and
educational level of active workers in the field.” In re
GPAC, Inc., 57 F.3d 1573, 1579 (Fed. Cir. 1995) citation omitted). In that regard, Petitioner and Mr.
Wechselberger contend that a person of ordinary skill
in the relevant art would have:
(i) an undergraduate degree (or equivalent) in
electrical engineering, computer science, or a
comparable subject and at least three years of
work experience in the field of analog and digital television systems with exposure to interactive networks and associated control technologies; or (ii) an advanced degree (or equivalent) in electrical engineering, computer science, or a comparable subject and at least one
year of post-graduate research or work experience in the same field.
Pet. 8, emphases added; see also Ex. 1022 ¶¶ 101–102.
Quoting Petitioner’s proposal for the level of ordinary skill to be applied in connection with the reviews
of related patents, Patent Owner contends that a person of ordinary skill in the relevant art would have:

76a
(i) an undergraduate degree (or equivalent) in
electrical engineering, computer science, or a
comparable subject and at least three years of
professional work experience in the field of
multi-media systems including in particular speech recognition and control technologies, or (ii) an advanced degree (or equivalent) in electrical engineering, computer science, or a comparable subject and at least one
year of post-graduate research or work experience in the field of multi-media systems including in particular speech recognition
and control technologies.
Resp. 7 (quoting Comcast Cable Commc’ns, LLC v.
Promptu Sys. Corp., IPR2018-00342, Pet. at 8–9
(PTAB Dec. 19, 2017) (Paper 1)); see also Resp. 7–9
(asserting the level of ordinary skill as proposed by
Petitioner in related IPR proceedings is appropriate
for this case); Ex. 2033 ¶¶ 22–29 (same). As Patent
Owner explains, its proposed definition is the same as
that proposed by Petitioner in Case Nos. IPR201800342,
IPR2018-00343,
IPR2018-00344,
and
IPR2018-00345 (“other Comcast IPR proceedings”),
which differs from Petitioner’s proposed definition in
this proceeding in that the proposed definition in
those other Comcast IPR proceedings includes a further requirement that the person of ordinary skill in
the art at the time of the invention must also have experience in the field of multi-media systems “including in particular speech recognition and control technologies.” Resp. 6–9. Patent Owner explains that Petitioner’s proposed definition in this proceeding
“would not necessarily include expertise with voice
recognition technology, at least because ‘interactive

77a
networks and associated control technologies’ at the
time of the invention for analog and digital television
systems would not have included voice control, which
was not commercially available (or well known) for
television systems.” Id. at 8–9. Patent Owner also
points out that “Promptu’s patents[, in this proceeding
and the other Comcast IPR proceedings,] all relate to
the same technology and claim various aspects of television voice command recognition and processing.”
Id. at 6.
We agree with Petitioner that the definitions for a
person of ordinary skill in the art involving unrelated
patents in different proceedings need not be the same
in each proceeding. Reply 2–4. Although the patents
in each proceeding before us are issued to the same
assignee and have some of the same inventors, the
specific goal of each patent differ between proceedings. We also agree with Mr. Wechselberger that
“[w]hile the ’538 Patent discloses a system that includes voice recognition processing,” it discusses voice
recognition technology only as a component part of the
system, and expertise in voice recognition technology
was not required to understand the ’538 Patent because it does not discuss any particular voice recognition techniques or algorithms. Ex. 1032 ¶¶ 6–7.
Therefore, we agree with Mr. Wechselberger that a
practitioner would have understood how to implement
existing voice recognition products in a cable television network without having special knowledge or experience with voice recognition algorithms. Id. ¶¶ 5–
7.
For the foregoing reasons, we credit the testimony
of Mr. Wechselberger regarding the person of ordinary

78a
skill in the art and adopt, with modification (e.g., removing the words “at least” from Petitioner’s proposed
definition), Petitioner’s definition of a person of ordinary skill in the art:
(i) an undergraduate degree (or equivalent) in
electrical engineering, computer science, or a
comparable subject and three years of work
experience in the field of analog and digital
television systems with exposure to interactive networks and associated control technologies; or
(ii) a Master’s of Science degree (or equivalent)
in electrical engineering, computer science, or
a comparable subject and one year of postgraduate research or work experience in the
same field.
We further note that the prior art in the instant
proceeding reflects the level of ordinary skill in the art
at the time of the invention.
See Okajima v.
Bourdeau, 261 F.3d 1350, 1355 (Fed. Cir. 2001). For
example, as reflected in Julia, a person of ordinary
skill in the art would have familiarity with using a
spoken natural language as an input into control systems. See Ex. 1017, 1:39–48.
B. Claim Construction
1.

General Principles

In an inter partes review, claim terms in an unexpired patent are given their broadest reasonable construction in light of the specification of the patent in

79a
which they appear. See 37 C.F.R. § 42.100(b) (2017); 2
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131,
2144–46 (2016) (upholding the use of the broadest reasonable interpretation standard as the claim construction standard to be applied in an inter partes review proceeding). Under the broadest reasonable interpretation standard, claim terms generally are
given their ordinary and customary meaning as would
be understood by one of ordinary skill in the art in the
context of the entire disclosure. See In re Translogic
Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007).
Construction of a “means-plus-function” limitation under 35 U.S.C. § 112, sixth paragraph, involves
two steps: first identifying the function explicitly recited in the claim, and then identifying the corresponding structure set forth in the written description
that performs the particular function set forth in the
claim. Asyst Techs, Inc. v. Empak, Inc., 268 F.3d 1364,
1369–70 (Fed. Cir. 2001).
2.

Terms Containing “means . . . for” and
“means [each] for”

Petitioner proposes that the following terms, in
claim 40, containing the words “means . . . for” should
not be construed as means-plus-function terms: “a
plurality of television remote control means each for
. . . ,” “receiver means for . . . ,” “transmitter means for
. . . ,” and “a plurality of television set top box means
A recent amendment to this rule does not apply here, because
the Petition was filed before November 13, 2018. See “Changes
to the Claim Construction Standard for Interpreting Claims in
Trial Proceedings Before the Patent Trial and Appeal Board,” 83
Fed. Reg. 51,340 (Oct. 11, 2018) amending 37 C.F.R. § 42.100(b)
effective November 13, 2018) (to be codified at 37 C.F.R. pt. 42).
2

80a
each for . . . .” Pet. 8–10 (citing to Ex. 1022 ¶¶ 139,
143). Patent Owner does not propose any alternative
definitions nor does Patent Owner respond to Petitioner’s proposal. See generally Resp.
The use of the term “means” triggers a rebuttable
presumption that § 112, ¶ 6 applies. TriMed, Inc. v.
Stryker Corp., 514 F.3d 1256, 1259 (Fed. Cir. 2008).
One way in which this presumption can be overcome
is if “the claim recites sufficient structure for performing the described functions in their entirety.” Id. To
determine if the claim recites sufficient structure, “it
is sufficient if the claim term is used in common parlance or by persons of skill in the pertinent art to designate structure, even if the term covers a broad class
of structures and even if the term identifies the structures by their function.” Lighting World, Inc. v. Birchwood Lighting, Inc., 382 F.3d 1354, 1359–60 (Fed. Cir.
2004).
Here, for each limitation, the claim recites sufficient structure for performing the described functions.
For example, a television remote control is sufficient
structure “for directly and wirelessly controlling television sets and additionally receiving user voice input
and wirelessly transmitting first output representative of the voice input to a television set-top box
means” (Ex. 1022 ¶ 139) and a television set-top box
is sufficient structure for “receiving television input
signals via cable television link and providing television output signals compatible with television sets,
and responsive to receiving the first output from one
of the television remote control means to transmit representative second output to a central processing station via the cable television link.” (id. ¶ 143). Therefore, based on our review of the record before us, we

81a
are persuaded by Petitioner that these terms do not
invoke 35 U.S.C. § 112, ¶ 6.
C. Obviousness
1.

General Principles

A claim is unpatentable under § 103(a) if the differences between the claimed subject matter and the
prior art are such that the subject matter, as a whole,
would have been obvious at the time the invention
was made to a person having ordinary skill in the art
to which said subject matter pertains. KSR Int’l Co.
v. Teleflex Inc., 550 U.S. 398, 406 (2007). The question
of obviousness is resolved on the basis of underlying
factual determinations, including (1) the scope and
content of the prior art; (2) any differences between
the claimed subject matter and the prior art; (3) the
level of skill in the art; and (4) when in evidence, objective indicia of non-obviousness (i.e., secondary considerations). Graham v. John Deere Co., 383 U.S. 1,
17–18 (1966).
An invention “composed of several elements is not
proved obvious merely by demonstrating that each of
its elements was, independently, known in the prior
art.” KSR, 550 U.S. at 418. Rather, to establish obviousness, petitioner bears the “burden to demonstrate
both that a skilled artisan would have been motivated
to combine the teachings of the prior art references to
achieve the claimed invention, and that the skilled artisan would have had a reasonable expectation of success in doing so.” In re Magnum Oil Tools Int’l, Ltd.,
829 F.3d 1364, 1381 (Fed. Cir. 2016) (internal quotations omitted); see KSR, 550 U.S. at 418. Moreover, a
petitioner cannot satisfy this burden by “employ[ing]

82a
mere conclusory statements” and must instead articulate specific reasoning, based on evidence of record”
to support an obviousness determination. Magnum
Oil, 829 F.3d at 1380. Stated differently, there must
be “articulated reasoning with some rational underpinning to support the legal conclusion of obviousness.” KSR, 550 U.S. at 418 (quoting In re Kahn, 441
F.3d 977, 988 (Fed. Cir. 2006)).
The “factual inquiry” into the reasons for
“combin[ing] references must be thorough and searching, and the need for specificity pervades . . . .” In re
Nuvasive, Inc., 842 F.3d 1376, 1381–82 (Fed. Cir.
2016) (internal quotations and brackets omitted). A
determination of obviousness cannot be reached
where the record lacks “explanation as to how or why
the references would be combined to produce the
claimed invention.” TriVascular, Inc. v. Samuels, 812
F.3d 1056, 1066 (Fed. Cir. 2016); see Nuvasive, 842
F.3d at 1382–86 (holding that an obviousness determination cannot be reached where there is no “articulat[ion of] a reason why a [person having ordinary skill
in the art] would combine” and “modify” the prior art
teachings). This required explanation as to how and
why the references would be combined avoids an impermissible “hindsight reconstruction,” using “the patent in suit as a guide through the maze of prior art
references, combining the right references in the right
way so as to achieve the result of the claims in suit.”
TriVascular, 812 F.3d at 1066; see also In re NTP, Inc.,
654 F.3d 1279, 1299 (Fed. Cir. 2011). We analyze the
asserted grounds based on obviousness with these
principles in mind.

83a
2. Combination Grounds – Obviousness over
Julia in view of Houser and Obviousness over
Murdock in view of Houser
Patent Owner contends that “Petitioner’s combinations fail because [Petitioner] did not articulate a
sufficient motivation to combine the features of the
prior art to yield the claimed invention.” Resp. 12–13.
According to Patent Owner, “[t]he entirety of the
[P]etition’s discussion of a motivation to combine Julia
with Houser (or Murdock with Houser) falls within a
mere three paragraphs of each ground.” Id. at 13–15.
Petitioner notes that a person of ordinary skill in
the art would have been motivated to combine Julia
with Houser and Murdock with Houser because the
references “all relate to interactive television systems
with voice recognition capabilities” (i.e., analogous
art) and that they all “have numerous similarities to
each other and the challenged patent.” Pet. 35–36, 56.
Petitioner also states that “a person of ordinary skill
in the art would have recognize[d] the benefits of combining” the references and that such a combination
“would have been no more than combining prior art
elements according to known methods to yield predictable results.” Pet. 36–38, 57–58.
Petitioner’s conclusory rationale for the combinations, however, is untethered to any claim limitations.
See Pet. 35–38, 56–58 (citing to Ex. 1022 ¶¶ 226–229,
232–234; 299–300, 304–306). For example, when discussing the combination of the references for a particular limitation, Petitioner starts with a discussion of
either Julia or Murdock, followed by a discussion of
Houser, and then provides a conclusory assertion that
the combination would disclose the limitation at issue.

84a
See, e.g., Pet. 24–25 (“Julia also discloses . . . . In addition, Houser discloses . . . . Thus, Julia alone or
combined with Houser discloses . . .”), 26–27 (“As explained above, Julia discloses . . . . In addition,
Houser also discloses . . . . Thus, Julia alone or combined with Houser discloses . . .”). These discussions
do not articulate, with respect to any specific limitation, or for any claim as a whole, why or how Julia or
Murdock can and should be combined with Houser.
A determination of obviousness cannot be reached
where the record lacks “explanation as to how or why
the references would be combined to produce the
claimed invention.” TriVascular, 812 F.3d at 1066.
The Petitioner also states that “a skilled artisan
would have been capable of combining the teaching[s]
of [the prior art references because such] combination[s] would have been no more than combining prior
art elements according to known methods to yield predictable results.” However, this discussion is similarly untethered to any claim element, or to the claim
as a whole. Pet. 37–38, 58 (citing to Ex. 1022 ¶¶ 233,
306–307.) And, again, we are not informed what
teaching of one reference is proposed to be combined
with what teaching of the other reference, or why and
how the combination would have been made. To the
extent Petitioner’s position is that once it establishes
that two prior art references are within the same field
and are directed to solving the same problem, then all
features within one reference can be used within the
other, and vice versa, without need for further explanation, it cites no authority to support that broad position and we are aware of none.
Therefore, we determine that Petitioner has not
established, by a preponderance of the evidence, that

85a
claims 34, 35, 37, 40, and 41 would have been obvious
over Julia in view of Houser or Murdock in view of
Houser.
3. Single Reference Obviousness Grounds –
Obvious over Julia alone or Obvious over
Murdock Alone
a.

Claims 34, 35, 37, 40, and 41

Petitioner contends that claims 34, 35, 37, 40, and
41 are unpatentable over Julia alone or Murdock
alone under 35 U.S.C. § 103(a), relying on the supporting testimony of Mr. Wechselberger (Exs. 1022, 1032).
Pet. 17–56; see also Reply 4–13.
Patent Owner makes numerous arguments regarding how Julia or Murdock fails to “renders obvious several specific claim features” of claims 34, 35,
37, 40, and 41. Resp. 23–44; Sur-Reply 9–17; see also
Resp. 16–23 discussing the Petition’s alleged deficiency in its Graham analysis); Sur-Reply 6–8 (same).
As discussed below, we determine that Petitioner
has not established, by a preponderance of the evidence, that either Julia alone or Murdock alone
teaches the “to derive set-top-box-compatible instructions to carry out the identified voice commands” limitation of independent claims 34 and 41 and the “to
derive set-top-box-means-compatible instructions to
carry out the identified voice commands” limitation of
independent claim 40.
In light of these deficiencies, Petitioner has not
persuasively established that any of claims 34, 40, and
41 would have been unpatentable. Because the above
issue is dispositive, we exercise our discretion to not

86a
reach all other arguments raised by Patent Owner regarding the non-obviousness of these claims.
Petitioner and its declarant cite to three examples
to show how Julia teaches the limitation “to derive
set-top-box-compatible instructions to carry out the
identified voice commands,” as recited in claim 34 and
similarly recited in claims 40 and 41. 3 Pet. 21–25.
(1) Decoding / Formatting
Petitioner, citing to various portions of Julia and
the testimony of Mr. Wechselberger, explains that after the “remote server performs speech recognition
processing[, it] then constructs a query to obtain the
requested content.” Pet. 22 (citing Ex. 1017, 3:61–64).
The desired content is then searched and retrieved.
Id. According to Petitioner’s expert, “[i]n the case of
an on-demand video (and other types of content), the
information must be decoded and formatted by the
set-top box before being displayed.” Ex. 1022 ¶ 176
(citing to Julia, Ex. 1017, 4:25–30 (“display device 112
is coupled to or integrated with a communications box
(which is preferably the same as communications box
104, but may also be a separate unit) for receiving and
decoding/formatting the desired electronic information that is received across communications network 106”), emphasis omitted).
Patent Owner and its declarant, Mr. Tinsman,
disagree. Resp. 31–32; Ex. 2033 ¶¶ 41–43. Patent
Owner points out that “Petitioner does not explain
why decoding/formatting video content requires the
The parties analyze these claim limitations together. We will
address this limitation of claim 34 as representative of the corresponding limitations in claims 40 and 41.
3

87a
claimed instructions” and contends that a “POSITA
would know that decoding and formatting content
data does not require that an instruction be derived
by a centralized processing station in response to a
user’s query and then sent to the set-top box.” Resp.
31 (citing Ex. 2033 ¶¶ 42). According to Patent
Owner’s declarant, Mr. Tinsman, Petitioner “has not
shown that that information includes set-top box compatible instructions” because “while the references’
disclosures broadly indicate that their set-top boxes
receive some information from a remote network location,” the information does not require an instruction
to be sent for decoding or formatting. Ex. 2033 ¶ 43.
Specifically, Mr. Tinsman testifies:
Cable digital television content is typically
transmitted as compressed data that must be
decompressed by the set-top box for display on
a television. Such content information is generally comprised of the compressed video data
accompanied by metadata describing the content data to the set-top box, including, e.g., details of the data’s format. A POSITA would
know that a set-top box does not need to receive specific instructions to perform a function every time it receives content data. Instead, the video decoder in the set top box automatically decodes the incoming data for display on a television without needing specific
instructions to do so from the head-end unit.
Id. We credit the above-quoted testimony of Mr. Tinsman, and find it to be persuasive. Patent Owner also
points out that Mr. Wechselberger admitted that decoding and formatting information does not neces-

88a
sarily require an instruction to be sent. 4 Resp. 31 (citing Ex. 2034, 50:20–24 (“Q Is it your opinion that decoding and formatting information necessarily requires a command to be sent from the head end to the
set top box? A No.”)); see also Ex. 2034, 50:25–52:20.
In contrast, we do not credit the conclusory testimony of Mr. Wechselberger that “[a] person of ordinary skill in the art would know that remote server
108 would send a ‘set-top-box-compatible instruction’
to the communications box 104 (‘set-top box’) as a prerequisite to permit it to decode and format the video
signal for display on display device 112.” Ex. 1022
¶ 176. his conclusory statement is not supported by
persuasive evidence, and is inconsistent with Mr.
Wechselberger’s admission that an instruction be
sent. See Ex. 2034, 50:20–24.
Petitioner also contends that:
Patent Owner’s argument is based on an unstated, narrow construction of the term “settop-box-compatible instructions” [and] Patent
Owner is unable to do so because the ’538 Patent does not specifically define or use the
term, except in the claims, and instead refers
broadly to derived voice commands that cause
the user’s set-top box to display video content
or otherwise perform a function.

The parties appear to be referring to “set-top-box-compatible
command function” (in claims 1, 2, 19) and “set-top-box-compatible instructions” claims 34 and 41) interchangeably.
4

89a
Reply 8–9, emphasis added. Petitioner’s counsel argued during the oral hearing that a “command function” can simply be information as long as it causes
the set-top box to perform a function:
JUDGE YAP: So a command can be a head
end unit sending an instruction or sending
something akin to “display this pop up box on
the screen?” Or it can also be, according to you,
a movie, just basically the name of a movie,
just information about the movie, and it just
displays it, and that would also be a command.
Is that right?
MR. DAY: I think that’s right. There’s nothing in -- well, yes, Your Honor. There’s nothing in the patent that requires a narrower
reading of what’s happening here. The invention is not -- these command functions are not
part of the invention here. The patent doesn’t
talk about command functions and say, oh, we
have this really neat thing, we’re going to send
command functions. What it talks about is
the user can speak a voice command into their
remote, it’s going to be interpreted -- whatever
they ask for is going to happen. That’s what
the patent is about.
And so these command functions just are not
defined in a narrow way to be anything other
than what you just said. Yes, sending information, sending data. If it causes the set top
box to perform a function, then it’s a set top box
compatible command function.
Tr. 23:18–24:12, emphasis added; see also Ex. 1032
¶ 18.

90a
We are not persuaded that an instruction can be
any kind of information or data that causes the settop box to perform a function. Petitioner’s reading of
the term “instructions” is unreasonably broad. 5 The
claim requires “to derive set-top-box-compatible instructions to carry out the identified voice commands.” Ex. 1001, 13:54–56. Petitioner’s construction of “instruction” would essentially read the term
out of the claim. Importantly, the term “instruction”
should at least include a command or instruction to
perform the identified voice command. The Specification also does not describe “instruction” as simply information or data. See, e.g., Ex. 1001 2:35–39 (“The
command function is transmitted back to the set-top
box where the set-top box performs the command function. Alternatively, the set-top box just passes on the
command and the head end performs or carries out
the command.”), emphasis added; 4:19–23 (“After the
voice command is processed, the central processing
station 160 sends a corresponding command function
to the cable set-top box 130 or other system component
where the command is then performed.”), emphasis
added.
Petitioner has not established that everything
that leads to performing an identified voice command
is an instruction. For instance, an identified voice
command may be performed upon the satisfaction of a
condition, e.g., when A happens, then do B. Although
B is performed as a result of A occurring, A is not a
command to perform B.

The parties do not offer any explicit claim construction for
this term.
5

91a
Petitioner also contends that “Patent Owner not
only fails to disclose and support its narrow construction of the term ‘set-top-box-compatible instruction,’ it
abandons its construction when mapping the challenged claims to its own product” in Patent Owner’s
attempt to show a nexus between its product (AgileTV) to the challenged claims. Reply 9–11. This argument is not persuasive because, as the Patent
Owner points out, “Ex. 2008, which Mr. Tinsman relied on in forming his opinion, expressly states that
the system issued ‘appropriate action commands
to the set-top box as speech requests are recognized.’”
Sur-Reply 15.
Petitioner also argues that “Patent Owner’s declarant and former CTO David Chaiken testified that
the similar term ‘set-top-box-compatible command
function’ refers broadly to anything causing the settop box to show video content or perform a function.”
Reply 9 n.3 (citing Ex. 1027, 17:21–18:24, 19:12–20:4).
Petitioner’s reliance on Dr. Chaiken’s testimony is not
persuasive because, although Dr. Chaiken was discussing his understanding of the AgileTV system and
how it was an embodiment of the challenged claims,
he is not an inventor of the ’538 Patent nor was he
opining on the definition of the term as would have
been understood by a person of ordinary skill in the
art. Reply 9 n.3; Sur-Reply 14–15.
For the foregoing reasons, we determine that Petitioner’s construction of “instruction” is unreasonably
broad. Accordingly, we determine that Petitioner has
not established that a person of ordinary skill in the
art would have understood from Julia’s disclosure
that “‘set-top-box-compatible instruction’ [would be
sent] to the communications box 104 (‘set-top box’) as

92a
a prerequisite to permit it to decode and format the
video signal for display on display device 112,” as Mr.
Wechselberger opines. Ex. 1022 ¶ 176.
(2) Authorization and Security Information
In addition, Petitioner, relying on Mr. Wechselberger’s testimony, states that “[a] skilled artisan
would also know that the head-end unit sends authorization and security information to the user’s set-top
box to permit it to display the movie[, and that s]uch
conditional authorization information and security information also constitutes a ‘set-top-box compatible
command function.’” Pet. 23; see Ex. 1022 ¶ 177. Patent Owner and its declarant, Mr. Tinsman, disagree.
Resp. 32–35; Ex. 2033 ¶¶ 44–46. Patent Owner points
out that Petitioner does not explain why “authorization and security information requires deriving and
transmitting [a] set-top box compatible command”
and contends that a “POSITA would know that conditional authorization and security information does not
need to be an instruction.” Resp. 32–33 (citing Ex.
2033 ¶¶ 44–46). Particularly, Patent Owner’s declarant, Mr. Tinsman, explains that:
45. A POSITA would know that conditional
authorization and security information does
not need to be a command. Premium channels
such as HBO may be encrypted. Security information delivered to a set-top box can include the digital key data needed to decrypt a
given channel. But such keys are not themselves commands; they simply provide data
necessary to view a program in the event a
user chooses to do so. Like receiving a key for
a physical door, receiving the encryption key

93a
data provides the ability—but not the affirmative instruction—to unlock the content. In
my view, the mere receipt of authorization
and security information does not require that
the head-end unit send the set-top box a command function, and Comcast has thus not explained how Julia or Murdock render obvious
this claim feature.
46. A POSITA would also know that authorization and security information does not always need to be sent in response to a user’s
query. As an example, when a user first subscribes to HBO, the cable company sends the
set-top box information allowing it to display
HBO on the television. But once the set-top
box is configured to enable a user access to a
particular channel, the cable company does
not need to send authorization information to
the set-top box every time the user asks the
voice remote to play the channel. The delivery
of the channel could thus occur as a direct result of a user’s voice command to find a specific film or program, without any authorization or security information being sent in response to the user’s command. Consequently,
it is incorrect to conclude that the delivery of
any needed entitlements to view a program is
a direct result of the claimed voice request.
Ex. 2033 ¶¶ 45–46; see also Resp. 32–35. We find Mr.
Tinsman’s testimony to be well-explained and wellreasoned, and we therefore afford it substantial
weight. In contrast, we do not credit the conclusory
testimony of Mr. Wechselberger that “[a] skilled arti-

94a
san would also know that the head-end unit sends authorization and security information to the user’s settop box to permit it to display the movie[, and that
s]uch conditional authorization and security information also constitutes a ‘set-top box compatible command function.’” Pet. 23; see Ex. 1022 ¶ 177. Petitioner also relies on the claim construction argument,
as discussed above. Accordingly, for the same reasons
discussed above, we determine that Petitioner has not
established that a person of ordinary skill in the art
would have understood that conditional authorization
and security information also constitutes a “set-top
box compatible instructions.” Id.; see also Reply 8–11.
(3) Displaying Interactive Menu
Petitioner provides a third example of how Julia
teaches the “to derive set-top-box-compatible instructions to carry out the identified voice commands” limitation. Petitioner notes that “[i]n addition to providing video and other content to the user, Julia also discloses utilizing voice commands to return control information such as an interactive list of available ondemand movies.” Pet. 22–23. According to Petitioner:
[T]he user can say, for example, “I want to see
that movie starring and directed by Clint
Eastwood.” Julia at 11:31–32. The remote
server would query the data source and then
return instructions to the user’s set-top box to
display the list of movies satisfying the query.
Id. at 11:32–49. The system would then display an interactive menu of options for the
user, who would respond with a further voice

95a
command (e.g., “Let’s see Unforgiven”) to select a particular on-demand movie. Id. at
11:57–67.
Id. Petitioner then, relying on its declarant’s testimony, concludes that “[t]he interactive menu information transmitted to the set-top box [also] constitutes a ‘set-top-box-compatible command function . . .
corresponding to said voice command,’ as claimed.”
Pet. 23 (citing Ex. 1022 ¶ 179). Patent Owner disagrees and points out that “Petitioner fails to explain
how displaying a menu on a television screen requires
that instructions be derived and sent to the set-top
box” and that Mr. Wechselberger’s “conclusory testimony should not be given weight.” Resp. 36, emphasis
omitted.
We agree with Mr. Tinsman that Mr. Wechselberger “does not explain why” a person of ordinary
skill in the art “would recognize that the ‘list of film
titles’ displayed to the user is based on a command
function” (Ex. 2033 ¶ 49 (citing Ex. 1022 ¶ 179)), and
therefore we do not credit the testimony of Mr. Wechselberger. As noted above, Petitioner’s argument (see
Reply 8–11) and the conclusory testimony of Mr.
Wechselberger (Ex. 1022 ¶ 179) rely on an overly
broad construction of “instruction” that we have rejected. We also agree with and credit Mr. Tinsman’s
testimony that:
Even if that is true, a POSITA would recognize that if the head-end “generates an interactive menu” that is then sent to the set-top
box to be displayed on the screen, then the
head-end would appear to simply prepare in-

96a
formation based on a user’s query, not a command for the set-top box to do something. Mr.
Wechselberger’s statement that the menu is
“executed” by the cable set-top box could be accomplished by the set-top box simply performing a pre-programmed function when it receives a certain type of information, and does
not explain how either of Julia or Murdock
alone teaches deriving instructions based on a
voice command. In my opinion, a POSITA
would not view mere information sent to the
set-top box from the head-end unit (that the
set-top box uses to generate a menu) as “settop-box-compatible instructions to carry out
the identified voice commands.”
Ex. 2033 ¶ 49. We, therefore, determine that Petitioner has not established that “[a person of ordinary
skill in the art] would recognize that the ‘list of film
titles’ displayed to the user is based on a command
function.”
b.

Secondary Considerations of Non-obviousness

Patent Owner also contends that secondary considerations further demonstrate non-obviousness of
the challenged claims. Resp. 45–58. We need not,
however, consider or discuss the objective evidence of
nonobviousness, because even assuming the absence
of any evidence of nonobviousness there is not sufficient evidence of obviousness to support a conclusion
that any challenged claim is unpatentable.
c.

Single-Reference Obviousness Conclusions

For the foregoing reasons, we determine that Petitioner has not established, by a preponderance of the

97a
evidence, that claims 34, 35, 37, 40, and 41 would have
been obvious over Julia.
Petitioner’s arguments with regard to the alleged
ground of obviousness over Murdock are premised on
the same overly broad interpretation of “instructions”
that we have rejected in connection with Petitioner’s
arguments based on Julia. See Pet. 44–46; Ex. 1022
¶¶ 251–255. Therefore, for the same reasons explained above in connection with Petitioner’s arguments based on Julia, we also determine that Petitioner has not established, by a preponderance of the
evidence, that claims 34, 35, 37, 40, and 41 would have
been obvious over Murdock.
D. Motions to Exclude
1.

Petitioner’s Motion to Exclude

Petitioner filed a Motion to Exclude Evidence
seeking to exclude Exhibits 2001–2003, 2009–2011,
2015, 2021, 2024, and 2032 as inadmissible hearsay
evidence. Paper 35; see also Papers 44 (Patent
Owner’s Opposition to Petitioner’s Motion to Exclude
Evidence), 49 Petitioner’s Reply in Support of its Motion to Seal). These exhibits relate to Patent Owner’s
support for its secondary considerations arguments.
Resp. 45–58. Because we do not reach the issue of secondary considerations, we dismiss Petitioner’s motion
as moot.
2.

Patent Owner’s Motion to Exclude

Patent Owner filed a Motion to Exclude seeking to
exclude Dr. Chaiken’s testimony in response to two
questions that purportedly exceeded the scope of permissible cross-examination. Paper 39 (citing Ex.
1027, 17:21–18:24, 19:12–20:4). According to Patent

98a
Owner, Dr. Chaiken, in his declaration (Ex. 2032) “offered no opinion regarding the construction of ‘command function’ or about the application of the claims
of the ’538 Patent to the AgileTV device. Rather, Dr.
Chaiken’s declaration simply stated that ‘the architecture and solution described in the ’538 patent accurately reflect the AgileTV solution in 2002.’” Paper 39,
1 (citing Ex. 2032 ¶ 16). Patent Owner argues that
“Comcast’s questions regarding the meaning of ‘settop-box-compatible command function’ therefore fell
outside the scope of Dr. Chaiken’s direct testimony”
and should be excluded because “they exceeded the
proper scope of cross-examination.” Id. at 1–2.
Petitioner contends that “Dr. Chaiken’s testimony
regarding the term ‘command function’ is relevant
[because i]n his declaration, Dr. Chaiken primarily
addresses Patent Owner’s arguments regarding purported secondary considerations of non-obviousness.”
Paper 47, 1. Specifically, according to Petitioner, “[b]y
relying on Dr. Chaiken’s testimony in an effort to establish a nexus between the challenged claims and the
AgileTV product, Patent Owner put his understanding of the challenged claims at issue[, hence, h]is testimony regarding his understanding of the claim term
‘command function’ is therefore relevant” and within
the scope of cross-examination. Id. at 2. Patent
Owner disagrees, arguing that Dr. Chaiken, a fact
witness, “never mapped the AgileTV system to the
claims, and his testimony truly had nothing to do with
the claims or any potential interpretation of them.”
Paper 48, 1. According to Patent Owner, “Dr. Chaiken
presented testimony as a fact witness regarding the
development of Promptu’s AgileTV system in the
early 2000s that was previously licensed by Comcast

99a
and successfully installed in Comcast’s cable network
system” and his testimony “answers were based on his
memory of how the Promptu system worked and not
on a legal interpretation of the invention described in
the ’538 Patent or the proper scope of the claims.” Id.
at 2–3 (citing Ex. 2032, 113:17–115:1).
Patent Owner’s argument concerns subject matter
that is not properly raised in a Motion to Exclude. As
we have noted in our Scheduling Order, a “Motion to
Exclude shall only raise admissibility issues under
the Federal Rules of Evidence, and not be used as additional briefing on any other topic, subject, or issue,
for example, any assertion that a certain brief or evidentiary submission exceeds the proper scope for such
brief or submission.” Paper 11, 7, emphasis added.
Moreover, “[i]n case of an issue based on exceeding the
proper scope of a submission, the parties must raise
the matter by initiating a conference call with the
Board.” Id. Therefore, because Patent Owner’s motion concerns the scope of permissible cross-examination, Patent Owner should have raised the matter
with the Board by initiating a conference call rather
than raising this issue in a Motion to Exclude. 6
Accordingly, Patent Owner’s Motion to Exclude is
dismissed.

Furthermore, as discussed above, Petitioner has not shown
unpatentability even if we were to consider the evidence Patent
Owner seeks to exclude. Thus, in any event, it is not necessary
to rule on the Motion to Exclude because it is moot.
6

100a
III. CONCLUSION
Petitioner has not established, by a preponderance of the evidence, that claims 34, 35, 37, 40, and 41
would have been obvious over Julia;
Petitioner has not established, by a preponderance of the evidence, that claims 34, 35, 37, 40, and 41
would have been obvious over Julia and Houser;
Petitioner has not established, by a preponderance of the evidence, that claims 34, 35, 37, 40, and 41
would have been obvious over Murdock;
Petitioner has not established, by a preponderance of the evidence, that claims 34, 35, 37, 40, and 41
would have been obvious over Murdock and Houser.
IV. ORDER
For the foregoing reasons, it is hereby:
ORDERED that Petitioner has not shown, by a
preponderance of the evidence, that any of claims 34,
35, 37, 40, and 41 is unpatentable;
FURTHER ORDERED that Petitioner’s Motion to
Exclude is dismissed;
FURTHER ORDERED that Patent Owner’s Motion to Exclude is dismissed; and
FURTHER ORDERED that because this is a Final Written Decision, parties to the proceeding seeking judicial review of the decision must comply with
the notice and service requirements of 37 C.F.R.
§ 90.2.

101a
PETITIONER:
James L. Day
Daniel Callaway
FARELLA BRAUN + MARTEL LLP
jday@fbm.com
dcallaway@fbm.com
Leo L. Lam
KEKER, VAN NEST & PETERS LLP
llam@kvn.com
PATENT OWNER:
Joshua L. Goldberg
Jacob A. Schroeder
Cory C. Bell
Daniel Klodowski
FINNEGAN, HENDERSON, FARABOW, GARRETT
& DUNNER, LLP
joshua.goldberg@finnegan.com
jacob.schroeder@finnegan.com
cory.bell@finnegan.com
daniel.klodowski@finnegan.com

102a
APPENDIX E
UNITED STATES PATENT AND
TRADEMARK OFFICE
______________
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
______________
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioner,
v.
PROMPTU SYSTEMS CORPORATION,
Patent Owner.
______________
Case IPR2018-00344
Patent 7,047,196 B2
______________
Before JAMESON LEE, ROBERT L. KINDER, and
ALEX S. YAP, Administrative Patent Judges.
YAP, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 318(a)

103a
I.

INTRODUCTION

Petitioner, Comcast Cable Communications, LLC
(“Comcast”), filed a Petition (Paper 1, “Pet.”) requesting an inter partes review of claims 1, 2, 4–6, 12, 13,
27, 28, 30–32, and 38–42 of U.S. Patent 7,047,196 B2
(Ex. 1001, “the ’196 Patent”). We instituted review of
claims 1, 2, 4–6, 12, 13, 27, 28, 30–32, and 38–42 on
all grounds asserted in the Petition. Paper 10. Patent
Owner, Promptu Systems Corporation. (“Promptu”),
filed a Response. Paper 20 (“Resp.”). Petitioner filed
a Reply (Paper 29 (“Reply”)) and Patent Owner filed a
Sur-Reply (Paper 38 (“Sur-Reply”)). An oral hearing
was held on January 28, 2019. A copy of the transcript
for the oral hearing has been entered as Paper 56
(“Tr.”).
As discussed below, Petitioner has not shown, by
a preponderance of the evidence, that any of claims 1,
2, 4–6, 12, 13, 27, 28, 30–32, and 38–42 is unpatentable under any asserted grounds.
A. Related Matters
The ’196 Patent is the subject of a pending civil
action, Promptu Systems Corporation v. Comcast Corporation and Comcast Cable Communications, LLC,
Case No. 2:16-cv-06516 (E.D. Pa.). Patent Owner’s
Mandatory Notices (Paper 5), 2. According to Patent
Owner, the pending civil action “has been stayed . . .
based on the institution decisions rendered in . . .
IPR2018-00344, and IPR2018-00345.”
Patent
Owner’s Updated Mandatory Notices (Paper 16), 2.
Petitioner states that a related “petition for inter
partes review of different claims” of the ’196 Patent
was also filed “along with [its] petition” for this case.
Pet. x; see also IPR2018-00345, Paper 1. We are also

104a
issuing a final written decision in IPR2018-00345 concurrently.
B. The ’196 Patent
The ’196 Patent, titled “System and Method of
Voice Recognition Near a Wireline Node of a Network
Supporting Cable Television and/or Video Delivery,”
was issued on May 16, 2006. Ex. 1001, [45]. It issued
from U.S. Patent Application 09/785,375, filed on
February 16, 2001, and claims the benefit of U.S. Provisional Application No. 60/210,440 filed on June 8,
2000. Id. at [21], [22], [60]. The ’196 Patent generally
relates to a “method and system of speech recognition
presented by a back channel from multiple user sites
within a network.” Ex. 1001, Abstract.
According to the Specification, “a centralized wireline node refers to a network node providing video or
cable television delivery to multiple users using a
wireline physical transport between those users at the
node.” Id. at 1:66–2:2. The Specification states that
“the problems of speech recognition at a centralized
wireline node in a network supporting video delivery
or cable television delivery have not been addressed
by [the] prior art.” Id. at 1:63–66. The Specification
describes a “preferred embodiment [of the claimed invention that uses] a back channel containing a multiplicity of identified speech channels from a multiplicity of user sites presented to a speech processing system at a wireline node in a network that supports at
least one of cable television delivery and video delivery.” Id. at Abstract.

105a
Figure 3 of the ’196 Patent is reproduced below:

Figure 3 illustrates:
a remote control unit 1000 coupled 1002 to
set-top apparatus 1100, communicating via a
two-stage wireline communications system
containing a wireline physical transport 1200
through a distributor node 1300, and through
a high speed physical transport 1400, possessing various delivery points 1510 and entry
points 1512–1518 to a tightly coupled server
farm 3000, with one or more gateways 3100,
and one or more tightly coupled server arrays
3200[.]

106a
Ex. 1001, 7:17–25, emphasis added. Server farm 3000
includes a central “speech recognition processor system 3200” for processing speech signals from user
sites, such as from subscribers’ set-top boxes. Id. at
Fig. 3. The Specification further notes that “[t]he back
channel is from a multiplicity of user sites and is presented to a speech processing system at the wireline
node in the network.” Id. at 22:12–14. Specifically,
“[t]he speech signal transmitted from a subscriber’s
set-top box, or set-top appliance, 1100[,] is received [at
the] 1510 [entry points] by the five to 40 MHz data
receiving equipment.” Id. at 12:21–23, 12:57–58. Figure 10 of the ’196 Patent is reproduced below.

107a
Figure 10 “depicts a flowchart of a method using a
back channel from a multiplicity of user sites
containing a multiplicity of identified speech channels
presented to a speech processing system at a wireline
node in a network supporting cable television delivery
in accordance with the invention.” Id. at 7:42–46.
C. Challenged Claims
Claims 1 and 27 are independent. Claim 1 is a
method claim “of using a back channel containing a
multiplicity of identified speech channels from a multiplicity of user sites presented to a speech processing
system at a wireline node in a network supporting at
least one of cable television delivery and video delivery” (id. at 50:62–67), while claim 27 is a system claim
directed to a “system supporting speech recognition in
a network” (id. at 55:9–10). Claims 2, 4–6, 12, and 13
depend directly or indirectly from claim 1, while
claims 28, 30–32, and 38–42 depend directly or indirectly from claim 27. Independent claims 1 and 27,
reproduced below, are illustrative of the challenged
claims.
1. A method of using a back channel containing a multiplicity of identified speech channels from a multiplicity of user sites presented
to a speech processing system at a wireline
node in a network supporting at least one of
cable television delivery and video delivery,
comprising the steps of:
receiving said back channel to create a received back channel;

108a
partitioning said received back channel
into a multiplicity of received identified
speech channels;
processing said multiplicity of said received identified speech channels to create
a multiplicity of identified speech content;
and
responding to said identified speech content to create an identified speech content
response that is unique, for each of said
multiplicity of identified speech contents.
Ex. 1001, 50:62–51:10.
27. A system supporting speech recognition in a network, said system comprising:
a speech recognition system coupled to a
wireline node in said network for receiving a
back channel from a multiplicity of user sites
coupled to said network, further comprising
a back channel receiver, for receiving said
back channel to create a received back channel;
a speech channel partitioner, for partitioning said received back channel into a multiplicity of received identified speech channels; and
a processor network executing a program
system comprised of program steps residing in
memory accessibly coupled to at least one
computer in said processor network;
wherein said program system is comprised of the program steps of:

109a
processing said multiplicity of said received identified speech channels to create a multiplicity of identified speech content;
responding to said identified speech
content to create an identified speech content response, for each of said multiplicity
of said identified speech contents; and
wherein said network supports at
least one of the collection comprising: cable television delivery to said multiplicity
of user sites; and video delivery to said
multiplicity of user sites.
Ex. 1001, 55:9–36.
D. References Relied Upon
Petitioner relies on the following references:
Exhibit
1010
1012
1013
1014
1015
1016

Reference
United States Patent No. 7,013,283 B1,
issued March 14, 2006 (“Murdock”).
United States Patent No. 6,513,063 B1,
issued January 28, 2003 (“Julia”).
United States Patent No. 6,490,727 B1,
issued December 3, 2002 (“Nazarathy”).
United States Patent No. 6,650,624 B1,
issued November 18, 2003 (“Quigley”).
United States Patent No. 5,477,262, issued December 19, 1995 (“Banker”).
United States Patent No. 6,314,573 B1,
issued November 6, 2001 (“Gordon”).

110a
Pet. 1–2. Petitioner also relies on the Declaration of
Christopher Schmandt (Ex. 1019), the Reply Declaration of Christopher Schmandt (Ex. 1029), and on the
Declaration of Jeffrey Lau (Ex. 1018).
1. Murdock (Ex. 1010)
Murdock describes a “system and a concomitant
method for providing programming content in response to an audio signal.” Ex. 1010, Abstract. Figure
1 of Murdock is reproduced below.

Figure 1 “depicts a high-level block diagram of a voice
control system.” Ex. 1010, 1:64–65. The program control device 110 can be “a portable or hand-held controller.” Id. at 2:35–36. It can “capture[] the input
verbal command signal from the user of the voice activated control system 100.” Id. at 2:22–24. “Once the
input command signal is received, the program con-

111a
trol device 110 performs a transmission, e.g., a wireless transmission, of the command signal to the local
processing unit 120,” which “may include a set top terminal, a cable box, and the like.” Id. at 2:31–34, 45–
47. The input command signal is then transmitted to
remote server computer 130 via back channel 134. Id.
at 3:1–12. Remote server computer 130 “performs
speech recognition on the received signal, . . . retrieves
the requested program content from a program database, and transmits the retrieved program content via
the forward channel 132 to the local processing unit
120.” Id. at 3:15–36. “Upon receipt of the requested
programming content, the local processing unit 120
transmits the received content to the video player 122
or the television recorder 124.” Id. at 2:61–66.

112a
2. Julia (Ex. 1012)
Julia describes a “navigation of electronic data by
means of spoken natural language requests.” Ex.
1012, 1:16–18. Figure 1a of Julia is reproduced below.

Figure 1a “illustrates a system providing a spoken
natural language interface for network-based information navigation . . . with server-side processing of
requests.” Id. at 3:6–9. “[A] user’s voice input data is
captured by a voice input device 102, such as a microphone[, which p]referably [] includes a button or the
like that can be pressed or held down to activate a listening mode.” Id. at 3:39–43. Input device 102 can be

113a
also be “a portable remote control device with an integrated microphone, and the voice data is transmitted
from device 102 preferably via infrared (or other wireless) link to [a receiver in] communications box 104.”
Id. at 3:46–52. “The voice data is then transmitted
across network 106 to a remote server or servers 108.”
Id. at 3:54–55. The voice data “is processed by request
processing logic 300 in order to understand the user’s
request and construct an appropriate query or request
for navigation of remote data.” Id. at 3:61–64. “Once
the desired information has been retrieved from data
source 110, it is electronically transmitted via network 106 to the user for viewing on client display device 112.” Id. at 4:18–20. Communications box 104 is
used for “receiving and decoding/formatting the desired electronic information that is received across
communications network 106.” Id. at 4:27–30. It is
“preferabl[e to use] the same [] communications box
104, but [it] may also be a separate unit) for receiving
and decoding/formatting the desired electronic information that is received across communications network 106.” Id. at 4:25–30.
3. Nazarathy (Ex. 1013)
Nazarathy describes “hybrid fiber coaxial cable
networks such as [those] used in cable television
where two-way digital communications are desired.”
Ex. 1013, Abstract. Figure 9 of Nazarathy is reproduced below.

114a

Figure 9 of Nazarathy illustrates a Wavelength Division Multiplexing (“WDM”) and Time Division Multiplexing (“TDM”) network showing how data from multiple home terminals, 18-1, . . . 18-n, for example, cable modem or set-top box, is transmitted to the cable
headend (HE 202). Id. at Fig. 9, 1:21–27, 14:6–8.
Nazarathy discloses that “[a]ny operations of TDM
and/or WDM multiplexing are undone at the
[headend, HE202,] by corresponding WDM and TDM
demultiplexers.” Id. at 14:62–64, 15:40–46.
4. Quigley (Ex. 1014)
Quigley describes a “number of features for enhancing the performance of a cable transmission system in which data is transmitted between a cable modem termination system at a headend and a plurality
of cable modem located [at] different distances from
the headend.” Ex. 1014, Abstract, 1:32–35. Figure 1
of Quigley is reproduced below.

115a

Figure 1 of Quigley “is a schematic diagram of a hybrid fiber coaxial (HFC) network showing typical
pathways for data transmission between the
headend[,] which contains the cable modem termination system[,] and a plurality of homes[, ]each of which
contain[s] a cable modem[.]” Id. at 3:56–60. In
Quigley, “[t]he hybrid fiber coaxial network of a cable
modem system utilizes a point-to-multipoint topology
to facilitate communication between the cable modem
termination system and the plurality of cable modems.” Id. at 9:1–4. “Frequency domain multiple access (FDMA)/time domain multiple access (TDMA) is
used to facilitate communication from each cable modem to the cable modem termination system, [i.e.], in
the upstream direction.” Id. at 9:8–12, 48–52. “The
upstream channel 491, is divided into a plurality of
time intervals 110.” Id. at 46:31–34. “The upstream
channel 491 is thus partitioned so as to facilitate the

116a
definition of time slots, such that each of a plurality of
cable modems 12 may transmit data packets to the cable modem termination system 10 without interfering
with one another.” Id. at 46:34–40.
5. Banker
Banker describes an apparatus “for providing a
user friendly interface to a subscription television terminal.” Ex. 1015, Abstract. Banker describes a number of user interface features such as “messaging, establishing a favorite channel list, pay-per-view, program timing, and terminal control.” Id.; see also id. at
4:1–5, 16–18. Figures 6E and 6F of Banker are reproduced below.

117a

Figures 6E and 6F illustrate a sequence of screens a
user would navigate through in order to purchase a
pay-per-view event. Id. at 16:54–17:3. Banker also
discussed how customers can be billed for using the
subscription television terminal. See id. at 7:58–8:3,
12:1–15.

118a
6. Gordon (Ex. 1016)
Gordon describes a “method and apparatus for
providing subscription-on-demand (SOD) services for
a[n] interactive information distribution system,
where a consumer may subscribe to packages of ondemand programs for a single price[.]” Ex. 1016, Abstract. Figure 8 of Gordon is reproduced below.

Figure 8 of Gordon shows “a menu that allows a consumer to subscribe to a selected subscription-on-demand service.” Id. at 3:40–41. According to Gordon,
“through manipulation of the menus, the consumer
[can] select[] a programming package [and] become[]
a subscriber to that package and [will be] billed accordingly.” Id. at 2:61–63.
E. Asserted Grounds of Unpatentability
The Board instituted review of claims 1, 2, 4–6,
12, 13, 27, 28, 30–32, and 38–42 of the ’196 Patent
based on the following grounds of unpatentability set
forth in the following table. Paper 10, 20–21, 45.

119a
Claims
Challenged
Obviousness Grounds involving Murdock
1, 2, 4–6,
12, 13,
1
Murdock alone
§ 103(a) 27, 28, 30–
32, and
38–42
1, 2, 4–6,
12, 13,
Murdock and
2
§ 103(a) 27, 28, 30–
Nazarathy
32, and
38–42
1, 2, 4–6,
12, 13,
Murdock and
3
§ 103(a) 27, 28, 30–
Quigley
32, and
38–42
Murdock,
5, 6, 31,
4
Nazarathy, and
§ 103(a)
and 32
Banker
Murdock,
5, 6, 31,
5
Nazarathy, and
§ 103(a)
and 32
Gordon
Murdock,
5, 6, 31,
6
Quigley, and
§ 103(a)
and 32
Banker

Ground

Reference(s)

Basis 1

The relevant section of the Leahy-Smith America Invents Act
(“AIA”), Pub. L. No. 112–29, took effect on March 16, 2013. Because the application from which the ’196 Patent issued was filed
before that date, the pre-AIA statutory framework applies.
1

120a
7

8

9

10
11
12
13

Murdock,
5, 6, 31,
Quigley, and
§ 103(a)
and 32
Gordon
Obviousness Grounds involving Julia
1, 2, 4–6,
12, 13,
Julia and
§ 103(a) 27, 28, 30–
Nazarathy
32, and
38–42
1, 2, 4–6,
12, 13,
Julia and
§ 103(a) 27, 28, 30–
Quigley
32, and
38–42
Julia, Nazara5, 6, 31,
§ 103(a)
thy, and Banker
and 32
Julia, Nazara5, 6, 31,
§ 103(a)
thy, and Gordon
and 32
Julia, Quigley,
5, 6, 31,
§ 103(a)
and Banker
and 32
Julia, Quigley,
5, 6, 31,
§ 103(a)
and Gordon
and 32
II. ANALYSIS
A. Level of Ordinary Skill in the Art

In determining the level of ordinary skill in the
art, various factors may be considered, including the
“type of problems encountered in the art; prior art solutions to those problems; rapidity with which innovations are made; sophistication of the technology; and
educational level of active workers in the field.” In re
GPAC, Inc., 57 F.3d 1573, 1579 (Fed. Cir. 1995) (citation omitted). In that regard, Petitioner and Mr.

121a
Schmandt contend that a person of ordinary skill in
the relevant art would have:
(i) an undergraduate degree (or equivalent)
in electrical engineering, computer science, or
a comparable subject and at least three years
of professional work experience in the field of
multi-media systems including in particular
speech recognition and control technologies;
or (ii) an advanced degree (or equivalent) in
electrical engineering, computer science, or a
comparable subject and at least one year of
post-graduate research or work experience in
the field of multi-media systems including in
particular speech recognition and control
technologies.
Pet. 6, emphases added; see also Ex. 1019 ¶¶ 75–77.
Patent Owner does not propose an alternative definition nor does Patent Owner respond to Petitioner’s
proposal. See generally Resp. We adopt, with modification (e.g., removal of the qualifier “at least” which
broadens ordinary skill to include expert level
knowledge and skill), Petitioner’s definition of a person of ordinary skill in the art:
(i) an undergraduate degree (or equivalent)
in electrical engineering, computer science, or
a comparable subject and three years of professional work experience in the field of multimedia systems including in particular speech
recognition and control technologies; or
(ii) a Master’s of Science degree (or equivalent) in electrical engineering, computer science, or a comparable subject and one year of
post-graduate research or work experience in

122a
the field of multi-media systems including in
particular speech recognition and control
technologies.
We further note that the prior art in the instant proceeding reflects the level of ordinary skill in the art at
the time of the invention. See Okajima v. Bourdeau,
261 F.3d 1350, 1355 (Fed. Cir. 2001). For example, as
reflected in Julia, a person of ordinary skill in the art
would have familiarity with using spoken natural language as input into control systems. See Ex. 1012,
1:39–48.
B. Claim Construction
In an inter partes review, claim terms in an unexpired patent are given their broadest reasonable
construction in light of the specification of the patent
in which they appear. See 37 C.F.R. § 42.100(b)
(2017); Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct.
2131, 2144–46 (2016) (upholding the use of the broadest reasonable interpretation standard as the claim
construction standard to be applied in an inter partes
review proceeding). Under the broadest reasonable
interpretation standard, claim terms generally are
given their ordinary and customary meaning as would
be understood by one of ordinary skill in the art in the
context of the entire disclosure. See In re Translogic
Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007).
Petitioner proposes constructions for three terms:
“wireline node,” “back channel,” and “partitioning said
received back channel into a multiplicity of [said] received identified speech channels.” Pet. 6–9. The Patent Owner does not propose alternative constructions
but states that “[w]hile Promptu does not agree with
these constructions, many of which are disputed in the

123a
corresponding litigation, the Board need not construe
them here because the [P]etition fails to carry its burden of establishing that the claims are unpatentable
even under Petitioner’s own proposed claim constructions.” See Resp. 5–6.
Based on our review of the record before us, we
determine that no term, except “receiving a backchannel to create a received backchannel,” requires express construction to resolve the controversy regarding the unpatentability of the challenged claims. See
Nidec Motor Corp. v. Zhongshan Broad Ocean Motor
Co. Ltd., 868 F.3d 1013, 1017 (Fed. Cir. 2017); Vivid
Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d 795,
803 (Fed. Cir. 1999) (holding that only claim terms
that “are in controversy” need to be construed and
“only to the extent necessary to resolve the controversy”). The term “receiving a backchannel to create
a received backchannel” needs construction, which we
will address within the specific patentability analysis
below where more context is provided.
C. Obviousness
1.

General Principles

A claim is unpatentable under § 103(a) if the differences between the claimed subject matter and the
prior art are such that the subject matter, as a whole,
would have been obvious at the time the invention
was made to a person having ordinary skill in the art
to which said subject matter pertains. KSR Int’l Co.
v. Teleflex Inc., 550 U.S. 398, 406 (2007). The question
of obviousness is resolved on the basis of underlying
factual determinations, including (1) the scope and
content of the prior art; (2) any differences between
the claimed subject matter and the prior art; (3) the

124a
level of skill in the art; and (4) when in evidence, objective indicia of non-obviousness (i.e., secondary considerations). Graham v. John Deere Co., 383 U.S. 1,
17–18 (1966).
An invention “composed of several elements is
not proved obvious merely by demonstrating that each
of its elements was, independently, known in the prior
art.” KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 418
(2007). Rather, to establish obviousness, it is petitioner’s “burden to demonstrate both that a skilled artisan would have been motivated to combine the
teachings of the prior art references to achieve the
claimed invention, and that the skilled artisan would
have had a reasonable expectation of success in doing
so.” In re Magnum Oil Tools Int’l, Ltd., 829 F.3d 1364,
1381 (Fed. Cir. 2016) (quotations omitted); see KSR,
550 U.S. at 418. Moreover, a petitioner cannot satisfy
this burden by “employ[ing] mere conclusory statements” and “must instead articulate specific reasoning, based on evidence of record” to support an obviousness determination. Magnum Oil, 829 F.3d at
1380. Stated differently, there must be “articulated
reasoning with some rational underpinning to support
the legal conclusion of obviousness.” KSR, 550 U.S. at
418 (quoting In re Kahn, 441 F.3d 977, 988 (Fed. Cir.
2006)).
The “factual inquiry” into the reasons for
“combin[ing] references must be thorough and searching, and the need for specificity pervades . . . .” In re
Nuvasive, Inc., 842 F.3d 1376, 1381–82 (Fed. Cir.
2016) (quotations omitted). A determination of obviousness cannot be reached where the record lacks “explanation as to how or why the references would be

125a
combined to produce the claimed invention.” TriVascular, Inc. v. Samuels, 812 F.3d 1056, 1066 (Fed.
Cir. 2016); see Nuvasive, 842 F.3d at 1382–86 (holding
that an obviousness determination cannot be reached
where there is no “articulat[ion of] a reason why a
[person having ordinary skill in the art] would combine” and “modify” the prior art teachings). This required explanation as to how and why the references
would be combined avoids an impermissible “hindsight reconstruction,” using “the patent in suit as a
guide through the maze of prior art references, combining the right references in the right way so as to
achieve the result of the claims in suit.” TriVascular,
812 F.3d at 1066; In re NTP, Inc., 654 F.3d 1279, 1299
(Fed. Cir. 2011). We analyze the asserted grounds
based on obviousness with these principles in mind.
2.

Obviousness Grounds Involving Julia
(Grounds 8–13)

Petitioner contends that claims 1, 2, 4–6, 12, 13,
27, 28, 30–32, and 38–42 are unpatentable over Julia
in view of Nazarathy (Ground 8) or Quigley (Ground
9), or Julia in view of Nazarathy or Quigley and
Banker (Grounds 10 and 12) or Gordon (Grounds 11
and 13) under 35 U.S.C. § 103(a), relying on the supporting testimony of Mr. Schmandt (Exs. 1019, 1029).
Pet. 42–61; see also Reply 8–18.
Patent Owner makes numerous arguments regarding how Julia combined with the teaching of
Nazarathy or Quigley would not render any of the
claims obvious. Resp. 8–27; Sur-Reply 1–4, 9–10.
As discussed below, we determine that Petitioner
has not established, by a preponderance of the evidence, that Julia teaches the “receiving said back

126a
channel to create a received back channel” limitation
of independent claim 1 and the “for receiving said back
channel to create a received back channel” limitation
of independent claim 27. 2
In light of these deficiencies, Petitioner has not
persuasively established that any of claims 1 and 27
would have been unpatentable.
Claim 1 recites “receiving said back channel to
create a received back channel.” Ex. 1001, 51:1–2. Petitioner and its declarant contend that “a person of ordinary skill in the art would recognize that remote
server 108 receives the ‘back channel to create a received back channel,’ as recited in claim 1.” Pet. 45
(citing Ex. 1019 ¶¶ 311–312). According to Petitioner,
“[a] person of ordinary skill in the art would have
known that upstream data transmissions in the cable
television network disclosed [in] Julia are transmitted
on the ‘back channel’ (i.e., ‘upstream communication
channel delivering signals from multiple user sites to
a central wireline node’).” Pet. 44 (citing Ex. 1019
¶¶ 307, 311). Petitioner does not present any analysis
with regard to the “to create a received back channel”
portion of the limitation at issue. It appears that according to Petitioner, this portion of the limitation is
met if the transmission on the back channel has been
received.
Patent Owner argues that this limitation of claim
1 “requires two parts: ‘receiving’ a first element
(‘said back channel’) ‘to create’ a second element (‘a

The parties analyze these claim limitations together. We will
address this limitation of claim 1 as representative of the corresponding limitation in claim 27.
2

127a
received back channel’) [, but the P]etition’s two paragraphs discussing the receiving element [] never address how any of the references, Julia, Nazarathy, or
Quigley, creates a received back channel.” Resp. 10.
According to Patent Owner, Petitioner cannot “rely on
the purported knowledge of a [person of ordinary skill
in the art] in combination with Julia to meet the ‘create a received back channel’ claim limitation, because
such knowledge cannot form the basis of an IPR
ground under 35 U.S.C. § 311(b).” Resp. 12.
Petitioner, however, states that “[w]hen the remote server receives these voice requests [from the
back channel], it is creating the ‘received back channel.’” Reply 9 (citing Pet. at 44–45, Ex. 1019 ¶¶ 307,
311–312; Ex. 1029 ¶ 5). Specifically, Petitioner clarified during the oral hearing that the two parts of the
limitation at issue is referring to the same thing with
the difference being the labeling:
MR. DAY: . . . The dispute here is that Patent Owner is saying that this receiving step
requires two different things, you receive the
back channel and then you do this second
thing, you create some new thing called receive back channel. And that’s not what the
claim means, and in our reply declaration, Dr.
Schmandt addresses why that’s not a claim.
Let me explain. What it’s saying is you receive
the back channel, that’s all of these voice commands coming over the back channel that are
received by the remote server, that is the receiving step. And now we’re going to refer to
that as the received back channel, as opposed
to some other back channel.

128a
JUDGE KINDER: So it’s more timing. Is
that right?
MR. DAY: I think it’s more labeling.
Tr. 7:23–8:9. According to Petitioner, Patent Owner
“does not propose any construction of the terms, explain how they allegedly differ, or identify any support
in the patent showing that the ‘received back channel’
is a distinct network element from the ‘back channel’
[because t]here is no such support.” Reply 9–10 (citing
Ex. 1029 ¶¶ 6–7).
Petitioner, however, does not provide persuasive
evidence to support its contention that the elements
“receiving said back channel” and “to create a received
back channel” should be interpreted to be the same
thing. Petitioner cites to column 22, lines 47 to 50 of
the ’196 Patent, which states that “[t]he received identified speech channels are based upon a received back
channel at the wireline node from multiple user sites
coupled to the network. The network supports video
delivery to the user sites and/or cable television delivery to the user sites.” The cited portion of the ’196
Patent merely states that the “received identified
speech channels are based upon a received back channel.” It does not support Petitioner’s contention that
“receiving said back channel” and “to create a received
back channel” should be interpreted to be the same
thing.
We are similarly not persuaded by Petitioner’s
contention that “the received back channel is created
in the sense that it has been received by the speech
processing system[, because i]t’s not creating some
new thing, [and] there’s no support for that in the
specification, [and] there’s nothing described as the

129a
received back channel that’s somehow different.” Tr.
8:17–25. Based on a facial reading, the “to create a
received back channel” portion of the limitation at issue (i.e., “receiving said back channel to create a received back channel”) possibly can be read as superfluous on the basis that after receiving a channel that
channel can be referred to as a received channel.
However, we do not agree that that is the case here.
First, regarding a portion of the claim as superfluous
is generally disfavored. Stumbo v. Eastman Outdoors,
Inc., 508 F.3d 1358, 1362 (Fed. Cir. 2007) (denouncing
claim constructions that render phrases in claims superfluous); Elektra Instruments S.A. v. O.U.R. Scientific Int’l, Inc., 214 F.3d 1302, 1305, 1307 (Fed. Cir.
2000) (claims are interpreted with an eye toward giving effect to all terms in the claim). Second, the next
step of the claim (i.e., “partitioning said received back
channel into a multiplicity of received identified
speech channels”) acts on “said received back channel.” It is difficult to regard the same communication
link to be, at once, both a back channel and a received
back channel. Petitioner would have us apply two different time frames when reading the same claim element. That is atypical and Petitioner has not pointed
to support for that reading from the Specification of
the ’196 patent. Third, we agree with Patent Owner
that the Specification indicates that “back channel”
and “received back channel” are different elements,
e.g., communication paths, and that the latter is
downstream of the former. Tr. 71:6–74:2. Figure 7 of
the ’196 Patent is reproduced below.

130a

Figure 7, which is an embodiment of the claimed invention, “depicts a gateway 3100 of FIG. 3 implemented in a two-dimensional plex communication network with N=4 plex nodes in each of two orthogonal
directions of the node array.” Ex. 1001, 7:32–35. Figure 7 shows the receiving of a back channel (i.e., upstream signal 1510) by speech content gateway 3100
and the creation of a “received back channel” (e.g.,
double ended arrows connecting plex node 003110 to
plex node 0,1) leading eventually to the creation of a
received identified speech channel 1518. Ex. 1001,
20:57–65, 40:64–41:7; see also Tr. 71:14–74:2. For the

131a
foregoing reasons, we determine that Petitioner’s contention that “back channel” and “received back channel” are met by the same element is not reasonable.
Petitioner states that “a person of ordinary skill in
the art would recognize that remote server 108 receives the ‘back channel to create a received back
channel,’ as recited in claim 1.” Pet. 45. Petitioner’s
declarant (Mr. Schmandt) explains that, in Julia, remote server 108 “‘receives’ the back channel to ‘create
a received back channel.’” Ex. 1019 ¶ 311; Pet. 44–45.
Mr. Schmandt, however, does not explain how Julia
teaches creation of a “received back channel” separate
from the “back channel.” Instead, he concludes, without explaining how, “Julia discloses remote server 108
receiving a ‘back channel to create a received back
channel,’ as recited in claim 1.” Id. at ¶ 312; Pet. 44–
45. Petitioner and Mr. Schmandt have, at most,
shown how Julia teaches “receiving said back channel” (signals transmitted over network 106 (i.e., “back
channel”) by remote server 108) but not the creation
of a separate “received back channel.” Accordingly,
because neither the Petition nor Mr. Schmandt shows
how Julia teaches a received back channel separate
from the back channel, we determine that Petitioner
has not established, by a preponderance of the evidence, that Julia teaches “receiving said back channel
to create a received back channel.”
3.

Obviousness Grounds Involving Murdock
(Grounds 1–7)

Petitioner contends that claims 1, 2, 4–6, 12, 13,
27, 28, 30–32, and 38–42 are unpatentable over Murdock alone (Ground 1), Murdock in view of Nazarathy
(Ground 2) or Quigley (Ground 3), or Murdock in view

132a
of Nazarathy or Quigley and Banker (Grounds 4 and
5) or Gordon (Grounds 6 and 7) (collectively, “Murdock
Grounds”) under 35 U.S.C. § 103(a), relying on the
supporting testimony (Exs. 1019, 1029) of Mr.
Schmandt. Pet. 14–42.
The ’196 Patent issued from an application that
has a filing date of February 16, 2001, and that claims
the benefit of priority to a provisional application with
a filing date of June 8, 2000. Ex. 1001, at [22], [60];
Pet. 4. Murdock was filed on November 16, 2000, after
the effective filing date of the ’196 Patent, but claims
the benefit of priority to the filing date of Provisional
Application No. 60/166 010 (Ex. 1011, the “Murdock
Provisional”), which was filed on November 17, 1999.
Ex. 1010, at [22], [60]. Petitioner argues that Murdock is 35 U.S.C. § 102(e) prior art to the ’196 Patent
because Murdock is entitled to the benefit of priority
to the filing date of the Murdock Provisional. Pet. 10.
In Ex Parte Mann, the Board held that “under Dynamic Drinkware, a non-provisional child can be entitled to the benefit of a provisional application’s filing
date if the provisional application provides sufficient
support for at least one claim in the child.” 2016 WL
7487271, at *6 (PTAB Dec. 21, 2016) (discussing
whether Dynamic Drinkware, LLC v. Nat’l Graphics,
Inc., 800 F.3d 1375, 1378, requires “support in the provisional . . . for all claims, any claim, or something in
between”). The Board further held that “the [party
claiming priority] also must [also] show that the subject matter relied upon in the non-provisional is sufficiently supported in the provisional application [and
that t]his subject matter test is in addition to the comparison of claims required by Dynamic Drinkware.”
Id. at *5.

133a
Recognizing these requirements, Petitioner asserts that
Petitioner’s expert Christopher Schmandt
shows in his supporting declaration that at
least claim 1 of Murdock is supported by the
disclosure in the [Murdock P]rovisional application. Schmandt Decl. ¶¶ 99–113. In addition, . . . . Petitioner’s expert witness confirms
that the Murdock [P]rovisional application
meets this requirement, too. Schmandt Decl.
¶¶ 135–293 (showing that the provisional application discloses the challenged claims and
also showing that the provisional application
discloses the same subject matter); . . . .
Pet. 10.
Patent Owner, however, contends that Petitioner
fails to establish that Murdock is prior art and thus
cannot establish a reasonable likelihood of prevailing
on the Murdock grounds because the Petition omits
the analysis necessary to establish Murdock as prior
art, and instead relies on incorporating “more than
150 paragraphs of essential analysis from the declaration into the [P]etition, particularly when the [P]etition was only twenty words under the word limit, is
improper.” Response, 7.
We agree with Patent Owner that Petitioner’s
barebones analysis, in its Petition, is insufficient to
support its contention that Murdock is entitled to the
filing date of the Murdock Provisional. Specifically,
while there is no requirement to rewrite every word or
example from an expert declaration into a petition,
Petitioner’s two sentences concluding that “at least
claim 1 of Murdock is supported by the disclosure in

134a
the [Murdock P]rovisional application” and that “the
[Murdock P]rovisional . . . provide[s] support for the
subject matter relied upon,” are insufficient to establish Murdock as prior art. “Arguments must not be
incorporated by reference from one document into another document.” 37 C.F.R. § 42.6(a)(3). Here, the Petitioner cites to over 170 paragraphs (Ex. 1019 ¶¶ 99–
113, 135–293), spanning more than 80 pages in the
Schmandt Declaration. No reasonable application of
37 C.F.R. § 42.6(a)(3) to the circumstance of this case
results in a conclusion that Petitioner complied with
the rule. The Petition should provide reasonable notice to the Patent Owner as to how the Murdock Provisional provides support for the subject matter relied
upon. In this proceeding, we initially determined that
the Petition offered only an insufficient conclusory
statement as to the Murdock Provisional. Paper 10,
25–27. Nonetheless, pursuant to SAS Inst., Inc. v.
Iancu, 138 S. Ct. 1348, 1355 (2018) and Patent Office
practice, we instituted review of all grounds, including
the grounds based on Murdock. Id. at 2, 45.
Petitioner now attempts to remedy its deficient
Petition in its later Reply briefing. Reply, 3–8. Petitioner contends that, in any event, Murdock still constitutes applicable prior art because Murdock predates the actual filing date of the ’196 patent and because it was incumbent on Patent Owner to establish
entitlement to an earlier effective filing date, which
Patent Owner did not do. Id. at 2. Patent Owner contends that these are “new argument[s] and [they]
should not be considered.” Sur Reply 7.
We need not decide this issue because, even assuming arguendo that Murdock is prior art to the ’196

135a
Patent, Petitioner’s arguments with regard to the alleged grounds of obviousness over Murdock are not
persuasive. They are premised on the same interpretation of “receiving said back channel to create a received back channel” that we have rejected in connection with Petitioner’s arguments based on Julia. See
Pet. 16–17, 26–27; Ex. 1019 ¶¶ 140–141, 223. Specifically, the Petition states that “[t]he remote server
computer receives back channel 134, which constitutes the claimed ‘received back channel.’ Schmandt
Decl. ¶¶ 140–141; Murdock at 3:15–17 (“the remote
serve[r] computer 130 receives the multiplexed signal
from the back channel 134”).” Pet. 17. Mr. Schmandt
explains that “Figure 1 of Murdock illustrates the
combined signals transmitted from multiple different
users over back channel 134 to remote server computer 130, which receives the back channel.” Ex. 1019
¶ 141. Mr. Schmandt, however, does not explain how
Julia teaches creation of a “received back channel”
separate from the “back channel.” Instead, he concludes, without explaining how, “Murdock discloses
remote server computer 130 receiving a “back channel
to create a received back channel,” as recited in claim
1.” Id. Petitioner and Mr. Schmandt have, at most,
shown how Murdock teaches “receiving said back
channel” (signals transmitted over back channel 134
(i.e., “back channel”) by remote server computer 130)
but not the creation of a “received back channel.” Accordingly, because neither the Petition nor Mr.
Schmandt shows how Murdock teaches a received
back channel separate from the back channel, we also
determine that Petitioner has not established, by a
preponderance of the evidence, that Murdock teaches
“receiving said back channel to create a received back
channel.”

136a
4.

Secondary Considerations of Non-obviousness

Patent Owner also contends that secondary considerations further demonstrate non-obviousness of
the challenged claims. Resp. 33–41. We need not,
however, consider or discuss the objective evidence of
nonobviousness, because even assuming the absence
of any evidence of nonobviousness there is not sufficient evidence of obviousness to support a conclusion
that any challenged claim is unpatentable.
D. Motions to Exclude
1.

Petitioner’s Motion to Exclude

Petitioner files a Motion to Exclude Evidence
seeking to exclude Exhibits 2001–2003, 2009–2011,
2015, 2021, 2024, and 2032 as inadmissible hearsay
evidence. Paper 37; see also Papers 45 (Patent
Owner’s Opposition to Petitioner’s Motion to Exclude
Evidence), 49 (Petitioner’s Reply in Support of its Motion to Exclude Evidence). These exhibits relate to Patent Owner’s support for its secondary considerations
arguments. Resp. 33–41. Because we do not reach
the issue of secondary considerations, we dismiss Petitioner’s motion as moot.
2.

Patent Owner’s Motion to Exclude

Patent Owner files a Motion to Exclude seeking to
exclude portions of Mr. Cook’s testimony (Ex. 1024)
“as containing hearsay and/or hearsay within hearsay, as well as for containing testimony outside the
scope of the IPR depositions.” Paper 40, 2. According
to Patent Owner, the portions of Mr. Cook’s testimony
it is seeking to exclude are used by Petitioner for the
following purposes:

137a
(1) to support its assertion that the AgileTV
product wasn’t successful (Paper 29[,] 1 (citing
Ex. 1024[,] 206:2–17));
(2) as a purported admission that the Diva
Systems video-on-demand system provided
pay-per-view (Paper 29[,] 15 (citing Ex.
1024[,] 22:2–13, 249:6–17));
(3) as evidence that Comcast rejected
Promptu’s product (Paper 29[,] 21 (citing Ex.
1024[,] 215:13–217:7));
(4) as evidence that the AgileTV product employed voice recognition processing provided
by a third-party vendor (Paper 29[,] 23 n.5
(citing Ex. 1024[,] 250:15–253:14, 255:22–
258:21, 316:4–6));
(5) as evidence that Comcast’s payment to
Promptu was a loan that Promptu later repaid
in full, that Promptu offered a paid-up license
to its patents, and that Promptu dropped its
television product and shifted to an automotive product (Paper 29[,] 23–24 (citing Ex.
1024[,] 106:20–107:9, 117:12–118:7, 135:4–5,
156:5–12, 160:20–161:2, 215:13–218:13)); and
(6) as evidence that Promptu received substantial funding to develop an automobile
product (Paper 29[,] 24 (citing Ex. 1024[,]
217:22–219:18)).
Id. at 2–3. Patent Owner argues that “the Board
should exclude all of Mr. Cook’s testimony cited in
Comcast’s reply relying on the above-noted portions”
of Mr. Cook’s testimony. Id. at 3. These portions of
Mr. Cook’s testimony, however, relate to Patent

138a
Owner’s secondary considerations arguments. Resp.
33–41. Because we do not reach the issue of secondary
considerations, we dismiss Patent Owner’s motion as
moot.
III. CONCLUSION
Petitioner has not established, by a preponderance of the evidence, that claims 1, 2, 4–6, 12, 13, 27,
28, 30–32, and 38–42 would have been obvious over
Julia and Nazarathy;
Petitioner has not established, by a preponderance of the evidence, that claims 1, 2, 4–6, 12, 13, 27,
28, 30–32, and 38–42 would have been obvious over
Julia and Quigley;
Petitioner has not established, by a preponderance of
the evidence, that claims 5, 6, 31, and 32 would have
been obvious over Julia, Nazarathy, and Banker;
Petitioner has not established, by a preponderance of the evidence, that claims 5, 6, 31, and 32
would have been obvious over Julia, Nazarathy, and
Gordon;
Petitioner has not established, by a preponderance of the evidence, that claims 5, 6, 31, and 32 would
have been obvious over Julia, Quigley, and Banker;
Petitioner has not established, by a preponderance of the evidence, that claims 5, 6, 31, and 32 would
have been obvious over Julia, Quigley, and Gordon;
Petitioner has not established, by a preponderance of the evidence, that claims 1, 2, 4–6, 12, 13, 27,
28, 30–32, and 38–42 would have been obvious over
Murdock;

139a
Petitioner has not established, by a preponderance of the evidence, that claims 1, 2, 4–6, 12, 13, 27,
28, 30–32, and 38–42 would have been obvious over
Murdock and Nazarathy;
Petitioner has not established, by a preponderance of the evidence, that claims 1, 2, 4–6, 12, 13, 27,
28, 30–32, and 38–42 would have been obvious over
Murdock and Quigley;
Petitioner has not established, by a preponderance of the evidence, that claims 5, 6, 31, and 32 would
have been obvious over Murdock, Nazarathy, and
Banker;
Petitioner has not established, by a preponderance of the evidence, that claims 5, 6, 31, and 32 would
have been obvious over Murdock, Nazarathy, and Gordon;
Petitioner has not established, by a preponderance of the evidence, that claims 5, 6, 31, and 32 would
have been obvious over Murdock, Quigley, and
Banker; and
Petitioner has not established, by a preponderance of the evidence, that claims 5, 6, 31, and 32 would
have been obvious over Murdock, Quigley, and Gordon.
IV. ORDER
For the foregoing reasons, it is hereby:
ORDERED that Petitioner has not shown, by a
preponderance of the evidence, that any of claims 1, 2,
4–6, 12, 13, 27, 28, 30–32, and 38–42 is unpatentable;
FURTHER ORDERED that Petitioner’s Motion to
Exclude is dismissed;

140a
FURTHER ORDERED that Patent Owner’s Motion to Exclude is dismissed; and
FURTHER ORDERED that because this is a Final Written Decision, parties to the proceeding seeking judicial review of the decision must comply with
the notice and service requirements of 37 C.F.R.
§ 90.2.

141a
PETITIONER:
James L. Day
Daniel Callaway
FARELLA BRAUN + MARTEL LLP
jday@fbm.com
dcallaway@fbm.com
Leo L. Lam
KEKER, VAN NEST & PETERS LLP
llam@keker.com
PATENT OWNER:
Joshua L. Goldberg
Jacob A. Schroeder
Cory C. Bell
Daniel Klodowski
FINNEGAN, HENDERSON, FARABOW, GARRETT
& DUNNER, LLP
joshua.goldberg@finnegan.com
jacob.schroeder@finnegan.com
cory.bell@finnegan.com
daniel.klodowski@finnegan.com
John S. Ferrell
Wade C. Yamazaki
CARR & FERRELL LLP
jsferrell@carrferrell.com
wyamazaki@carrferrell.com

142a
APPENDIX F
UNITED STATES PATENT AND
TRADEMARK OFFICE
______________
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
______________
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioner,
v.
PROMPTU SYSTEMS CORPORATION,
Patent Owner.
______________
Case IPR2018-00345
Patent 7,047,196 B2
______________
Before JAMESON LEE, ROBERT L. KINDER, and
ALEX S. YAP, Administrative Patent Judges.
YAP, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 318(a)

143a
I.

INTRODUCTION

Petitioner, Comcast Cable Communications, LLC
(“Comcast”), filed a Petition (Paper 1, “Pet.”) requesting an inter partes review of claims 14, 15, 17–19, 25,
26, 53–55, 61, 62, and 64–66 of U.S. Patent 7,047,196
B2 (Ex. 1001, “the ’196 Patent”). We instituted review
of claims 14, 15, 17–19, 25, 26, 53–55, 61, 62, and 64–
66 on all grounds asserted in the Petition. Paper 10.
Patent Owner, Promptu Systems Corporation.
(“Promptu”), filed a Response. Paper 20 (“Resp.”). Petitioner filed a Reply (Paper 29 (“Reply”)) and Patent
Owner filed a Sur-Reply (Paper 38 (“Sur-Reply”)). An
oral hearing was held on January 28, 2019. A copy of
the transcript for the oral hearing has been entered as
Paper 56 (“Tr.”).
As discussed below, Petitioner has not shown, by
a preponderance of the evidence, that any of claims
14, 15, 17–19, 25, 26, 53–55, 61, 62, and 64–66 is unpatentable under any asserted grounds.
A. Related Matter
The ’196 Patent is the subject of a pending civil
action, Promptu Systems Corporation v. Comcast Corporation and Comcast Cable Communications, LLC,
Case No. 2:16-cv-06516 (E.D. Pa.). Patent Owner’s
Mandatory Notices (Paper 5), 2. According to Patent
Owner, the pending civil action “has been stayed . . .
based on the institution decisions rendered in . . .
IPR2018-00344, and IPR2018-00345.”
Patent
Owner’s Updated Mandatory Notices (Paper 16), 2.
Petitioner states that a related “petition for inter
partes review of different claims” of the ’196 Patent
was also filed “along with [its] petition” for this case.
Pet. x; see also IPR2018-00344, Paper 1. We are also

144a
issuing a final written decision in IPR2018-00344 concurrently.
B. The ’196 Patent
The ’196 Patent, titled “System and Method of
Voice Recognition Near a Wireline Node of a Network
Supporting Cable Television and/or Video Delivery,”
was issued on May 16, 2006. Ex. 1001, [45]. It issued
from U.S. Patent Application 09/785,375, filed on
February 16, 2001, and claims the benefit of U.S. Provisional Application No. 60/210,440 filed on June 8,
2000. Id. at [21], [22], [60]. The ’196 Patent generally
relates to a “method and system of speech recognition
presented by a back channel from multiple user sites
within a network.” Ex. 1001, Abstract.
According to the Specification, “a centralized wireline node refers to a network node providing video or
cable television delivery to multiple users using a
wireline physical transport between those users at the
node.” Id. at 1:66–2:2. The Specification states that
“the problems of speech recognition at a centralized
wireline node in a network supporting video delivery
or cable television delivery have not been addressed
by [the] prior art.” Id. at 1:63–66. The Specification
describes a “preferred embodiment [of the claimed invention that uses] a back channel containing a multiplicity of identified speech channels from a multiplicity of user sites presented to a speech processing system at a wireline node in a network that supports at
least one of cable television delivery and video delivery.” Id. at Abstract. Figure 3 of the ’196 Patent is
reproduced below.

145a

Figure 3 illustrates:
a remote control unit 1000 coupled 1002 to settop apparatus 1100, communicating via a twostage wireline communications system containing a wireline physical transport 1200
through a distributor node 1300, and through
a high speed physical transport 1400, possessing various delivery points 1510 and entry
points 1512–1518 to a tightly coupled server
farm 3000, with one or more gateways 3100,

146a
and one or more tightly coupled server arrays
3200[.]
Ex. 1001, 7:17–25, emphasis added. Server farm 3000
includes a central “speech recognition processor system 3200” for processing speech signals from user
sites, such as from subscribers’ set-top boxes. Id. at
Fig. 3. The Specification further notes that “[t]he back
channel is from a multiplicity of user sites and is presented to a speech processing system at the wireline
node in the network.” Id. at 22:12–14. Specifically,
“[t]he speech signal transmitted from a subscriber’s
set-top box, or set-top appliance, 1100[,] is received [at
the] 1510 [entry points] by the five to 40 MHz data
receiving equipment.” Id. at 12:21–23, 12:57–58. Figure 10 of the ’196 Patent is reproduced below.

147a
Figure 10 “depicts a flowchart of a method using a
back channel from a multiplicity of user sites containing a multiplicity of identified speech channels presented to a speech processing system at a wireline
node in a network supporting cable television delivery
in accordance with the invention.” Id. at 7:42–46.
C. Challenged Claims
Claim 14 is a system claim directed to a “program
system controlling at least part of a speech recognition
system coupled to a wireline node in a network” (id. at
52:65–53:21), while claim 53 is a method claim for “operating at least part of a speech recognition system
coupled to a wireline node in a network” (id. at 58:12–
29). Claims 15, 17–19, 25, and 26 depend directly or
indirectly from claim 14, while claims 54, 55, 61, 62,
and 64–66 depend directly or indirectly from claim 53.
Independent claims 14 and 53, reproduced below, are
illustrative of the challenged claims.
14. A program system controlling at least
part of a speech recognition system coupled to
a wireline node in a network, said program
system comprising the program steps of:
processing a multiplicity of received
identified speech channels to create a
multiplicity of identified speech content;
and
responding to said identified speech
content to create an identified speech content response that is unique to each of
said multiplicity of identified speech contents;

148a
wherein said speech recognition system is provided said multiplicity of received identified speech channels based
upon a received back channel at said
wireline node from a multiplicity of user
sites coupled to said network;
wherein each of said program steps
reside in memory accessibly coupled to at
least one computer included in said
speech recognition system;
wherein said at least one computer
communicatively couples through said
wireline node to said multiplicity of user
sites; and
wherein said network supports at
least one of the collection comprising: cable television delivery to said multiplicity
of user sites; and video delivery to said
multiplicity of user sites.
Ex. 1001, 52:65–53:21.
53. A method of operating at least part of
a speech recognition system coupled to a wireline node in a network, comprising the steps
of:
processing a multiplicity of received
identified speech channels to create a
multiplicity of identified speech content;
and
responding to said identified speech
content to create an identified speech content response that is unique to each of

149a
said multiplicity of identified speech contents;
wherein said speech recognition system is provided said multiplicity of received identified speech channels based
upon a received back channel at said
wireline node from a multiplicity of user
sites coupled to said network;
wherein said network supports at
least one of the collection comprising: cable television delivery to said multiplicity
of user sites; and video delivery to said
multiplicity of user sites.
Ex. 1001, 58:12–29.
D. References Relied Upon
Petitioner relies on the following references:
Exhibit
1010
1012
1013
1014
1015
1016

Reference
United States Patent No. 7,013,283 B1, issued March 14, 2006 (“Murdock”).
United States Patent No. 6,513,063 B1, issued January 28, 2003 (“Julia”).
United States Patent No. 6,490,727 B1, issued December 3, 2002 (“Nazarathy”).
United States Patent No. 6,650,624 B1, issued November 18, 2003 (“Quigley”).
United States Patent No. 5,477,262, issued
December 19, 1995 (“Banker”).
United States Patent No. 6,314,573 B1, issued November 6, 2001 (“Gordon”).

150a
Pet. 1–2. Petitioner also relies on the Declaration of
Christopher Schmandt (Ex. 1019), the Reply Declaration of Christopher Schmandt (Ex. 1029), and on the
Declaration of Jeffrey Lau (Ex. 1018).
1.

Murdock (Ex. 1010)

Murdock describes a “system and a concomitant
method for providing programming content in response to an audio signal.” Ex. 1010, Abstract. Figure
1 of Murdock is reproduced below.

Figure 1 “depicts a high-level block diagram of a voice
control system.” Ex. 1010, 1:64–65. The program control device 110 can be “a portable or hand-held controller.” Id. at 2:35–36. It can “capture[] the input verbal command signal from the user of the voice activated control system 100.” Id. at 2:22–24. “Once the

151a
input command signal is received, the program control device 110 performs a transmission, e.g., a wireless transmission, of the command signal to the local
processing unit 120,” which “may include a set top terminal, a cable box, and the like.” Id. at 2:31–34, 45–
47. The input command signal is then transmitted to
remote server computer 130 via back channel 134. Id.
at 3:1–12. Remote server computer 130 “performs
speech recognition on the received signal, . . . retrieves
the requested program content from a program database, and transmits the retrieved program content via
the forward channel 132 to the local processing unit
120.” Id. at 3:15–36. “Upon receipt of the requested
programming content, the local processing unit 120
transmits the received content to the video player 122
or the television recorder 124.” Id. at 2:63–66.

152a
2.

Julia (Ex. 1012)

Julia describes a “navigation of electronic data by
means of spoken natural language requests.” Ex.
1012, 1:16–18. Figure 1a of Julia is reproduced below.

Figure 1a “illustrates a system providing a spoken
natural language interface for network-based information navigation . . . with server-side processing of
requests.” Id. at 3:6–9. “[A] user’s voice input data is
captured by a voice input device 102, such as a microphone[, which p]referably [] includes a button or the
like that can be pressed or held down to activate a listening mode.” Id. at 3:39–43. Input device 102 can be

153a
also be “a portable remote control device with an integrated microphone, and the voice data is transmitted
from device 102 preferably via infrared (or other wireless) link to [a receiver in] communications box 104.”
Id. at 3:46–50. “The voice data is then transmitted
across network 106 to a remote server or servers 108.”
Id. at 3:54–55. The voice data “is processed by request
processing logic 300 in order to understand the user’s
request and construct an appropriate query or request
for navigation of remote data.” Id. at 3:61–64. “Once
the desired information has been retrieved from data
source 110, it is electronically transmitted via network 106 to the user for viewing on client display device 112.” Id. at 4:18–20. Communications box 104 is
used for “receiving and decoding/formatting the desired electronic information that is received across
communications network 106.” Id. at 4:27–30. It is
“preferabl[e to use] the same [] communications box
104, but [it] may also be a separate unit) for receiving
and decoding/formatting the desired electronic information that is received across communications network 106.” Id. at 4:25–30.
3.

Nazarathy (Ex. 1013)

Nazarathy describes “hybrid fiber coaxial cable
networks such as [those] used in cable television
where two-way digital communications are desired.”
Ex. 1013, Abstract.

154a
Figure 9 of Nazarathy is reproduced below.

Figure 9 of Nazarathy illustrates a Wavelength Division Multiplexing (“WDM”) and Time Division Multiplexing (“TDM”) network showing how data from multiple home terminals, 18-1, . . . 18-n, for example, cable modem or set-top box, is transmitted to the cable
headend (HE 202). Id. at Fig. 9, 1:21–27, 14:6–8.
Nazarathy discloses that “[a]ny operations of TDM
and/or WDM multiplexing are undone at the
[headend, HE202,] by corresponding WDM and TDM
demultiplexers.” Id. at 14:62–64, 15:40–46.
4.

Quigley (Ex. 1014)

Quigley describes a “number of features for enhancing the performance of a cable transmission system in which data is transmitted between a cable modem termination system at a headend and a plurality
of cable modem located [at] different distances from

155a
the headend.” Ex. 1014, Abstract, 1:32–35. Figure 1
of Quigley is reproduced below.

Figure 1 of Quigley “is a schematic diagram of a hybrid fiber coaxial (HFC) network showing typical
pathways for data transmission between the
headend[,] which contains the cable modem termination system[,] and a plurality of homes[, ]each of which
contain[s] a cable modem[.]” Id. at 3:56–60. In
Quigley, “[t]he hybrid fiber coaxial network of a cable
modem system utilizes a point-to-multipoint topology
to facilitate communication between the cable modem
termination system and the plurality of cable modems.” Id. at 9:1–4. “Frequency domain multiple access (FDMA)/time domain multiple access (TDMA) is
used to facilitate communication from each cable modem to the cable modem termination system, [i.e.], in
the upstream direction.” Id. at 9:8–12, 48–52. “The

156a
upstream channel 491, is divided into a plurality of
time intervals 110.” Id. at 46:31–34. “The upstream
channel 491 is thus partitioned so as to facilitate the
definition of time slots, such that each of a plurality of
cable modems 12 may transmit data packets to the cable modem termination system 10 without interfering
with one another.” Id. at 46:34–40.
5.

Banker (Ex. 1015)

Banker describes an apparatus “for providing a
user friendly interface to a subscription television terminal.” Ex. 1015, Abstract. Banker describes a number of user interface features such as “messaging, establishing a favorite channel list, pay-per-view, program timing, and terminal control.” Id.; see also id. at
4:1–5, 16–18. Figures 6E and 6F of Banker are reproduced below.

157a

Figures 6E and 6F illustrate a sequence of screens a
user would navigate through in order to purchase a
pay-per-view event. Id. at 16:54–17:3. Banker also
discussed how customers can be billed for using the
subscription television terminal. See id. at 7:58–8:3,
12:1–15.
6.

Gordon (Ex. 1016)

Gordon describes a “method and apparatus for
providing subscription-on-demand (SOD) services for
a[n] interactive information distribution system,
where a consumer may subscribe to packages of ondemand programs for a single price[.]” Ex. 1016, Abstract. Figure 8 of Gordon is reproduced below.

158a

Figure 8 of Gordon shows “a menu that allows a consumer to subscribe to a selected subscription-on-demand service.” Id. at 3:40–41. According to Gordon,
“through manipulation of the menus, the consumer
[can] select[] a programming package [and] become[]
a subscriber to that package and [will be] billed accordingly.” Id. at 2:61–63.
E. Asserted Grounds of Unpatentability
The Board instituted review of claims 14, 15, 17–
19, 25, 26, 53–55, 61, 62, and 64–66 of the ’196 Patent
based on the following grounds of unpatentability set
forth in the following table. Paper 10, 16, 20–21.

159a
Claims
Challenged
Obviousness Grounds involving Murdock
14, 15, 17–
19, 25,
1
Murdock alone
§ 103(a) 26, 53–55,
61, 62,
and 64–66
14, 15, 17–
19, 25,
Murdock and
2
§ 103(a) 26, 53–55,
Nazarathy
61, 62,
and 64–66
14, 15, 17–
19, 25,
Murdock and
3
§ 103(a) 26, 53–55,
Quigley
61, 62,
and 64–66
Murdock,
18, 19, 55,
4
Nazarathy, and
§ 103(a)
and 65
Banker
Murdock,
18, 19, 55,
5
Nazarathy, and
§ 103(a)
and 65
Gordon
Murdock,
18, 19, 55,
6
Quigley, and
§ 103(a)
and 65
Banker

Ground

Reference(s)

Basis 1

The relevant section of the Leahy-Smith America Invents Act
(“AIA”), Pub. L. No. 112–29, took effect on March 16, 2013. Because the application from which the ’196 Patent issued was filed
before that date, the pre-AIA statutory framework applies.
1

160a
7

8

9

10

11
12
13
14

Murdock,
18, 19, 55,
Quigley, and
§ 103(a)
and 65
Gordon
Obviousness Grounds involving Julia
14, 15, 17–
19, 25,
Julia alone
§ 103(a) 26, 53–55,
61, 62,
and 64–66
14, 15, 17–
19, 25,
Julia and
§ 103(a) 26, 53–55,
Nazarathy
61, 62,
and 64–66
14, 15, 17–
19, 25,
Julia and
§ 103(a) 26, 53–55,
Quigley
61, 62,
and 64–66
Julia, Nazara18, 19, 55,
§ 103(a)
thy, and Banker
and 65
Julia, Nazara18, 19, 55,
§ 103(a)
thy, and Gordon
and 65
Julia, Quigley,
18, 19, 55,
§ 103(a)
and Banker
and 65
Julia, Quigley,
18, 19, 55,
§ 103(a)
and Gordon
and 65
II. ANALYSIS
A. Level of Ordinary Skill in the Art

In determining the level of ordinary skill in the
art, various factors may be considered, including the

161a
“type of problems encountered in the art; prior art solutions to those problems; rapidity with which innovations are made; sophistication of the technology; and
educational level of active workers in the field.” In re
GPAC, Inc., 57 F.3d 1573, 1579 (Fed. Cir. 1995) (citation omitted). In that regard, Petitioner and Mr.
Schmandt contend that a person of ordinary skill in
the relevant art would have:
(i) an undergraduate degree (or equivalent)
in electrical engineering, computer science, or
a comparable subject and at least three years
of professional work experience in the field of
multi-media systems including in particular
speech recognition and control technologies;
or (ii) an advanced degree (or equivalent) in
electrical engineering, computer science, or a
comparable subject and at least one year of
post-graduate research or work experience in
the field of multi-media systems including in
particular speech recognition and control
technologies.
Pet. 7–8, emphases added; see also Ex. 1019 ¶¶ 75–76.
Patent Owner does not propose an alternative definition nor does Patent Owner respond to Petitioner’s
proposal. See generally Resp. We adopt, with modification (e.g., removal of the qualifier “at least,” which
broadens ordinary skill to include expert level
knowledge and skill), Petitioner’s definition of a person of ordinary skill in the art:
(i) an undergraduate degree (or equivalent)
in electrical engineering, computer science, or
a comparable subject and three years of professional work experience in the field of multi-

162a
media systems including in particular speech
recognition and control technologies; or
(ii) a Master’s of Science degree (or equivalent) in electrical engineering, computer science, or a comparable subject and one year of
post-graduate research or work experience in
the field of multi-media systems including in
particular speech recognition and control
technologies.
We further note that the prior art in the instant proceeding reflects the level of ordinary skill in the art at
the time of the invention. See Okajima v. Bourdeau,
261 F.3d 1350, 1355 (Fed. Cir. 2001). For example, as
reflected in Julia, a person of ordinary skill in the art
would have familiarity with using spoken natural language as input into control systems. See Ex. 1012,
1:39–48.
B. Claim Construction
In an inter partes review, claim terms in an unexpired patent are given their broadest reasonable construction in light of the specification of the patent in
which they appear. See 37 C.F.R. § 42.100(b) (2017);
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131,
2144–46 (2016) (upholding the use of the broadest reasonable interpretation standard as the claim construction standard to be applied in an inter partes review proceeding). Under the broadest reasonable interpretation standard, claim terms generally are
given their ordinary and customary meaning as would
be understood by one of ordinary skill in the art in the
context of the entire disclosure. See In re Translogic
Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007).

163a
Petitioner proposes constructions for three terms:
“wireline node,” “back channel,” and “partitioning said
received back channel into a multiplicity of [said] received identified speech channels.” Pet. 8–11. The
Patent Owner does not propose alternative constructions but states that “[w]hile Promptu does not agree
with these constructions, many of which are disputed
in the corresponding litigation, the Board need not
construe them here because the [P]etition fails to
carry its burden of establishing that the claims are
unpatentable even under Petitioner’s own proposed
claim constructions.” See Resp. 5–6.
Based on our review of the record before us, we
determine that no term, except “a speech recognition
system coupled to a wireline node in a network,” requires express construction to resolve the controversy
regarding the unpatentability of the challenged
claims. See Nidec Motor Corp. v. Zhongshan Broad
Ocean Motor Co. Ltd., 868 F.3d 1013, 1017 (Fed. Cir.
2017); Vivid Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200
F.3d 795, 803 (Fed. Cir. 1999) (holding that only claim
terms that “are in controversy” need to be construed
and “only to the extent necessary to resolve the controversy”). The term “a speech recognition system
coupled to a wireline node in a network,” needs construction, which we will address within the specific
patentability analysis below where more context is
provided.
C. Obviousness
1.

General Principles

A claim is unpatentable under § 103(a) if the differences between the claimed subject matter and the
prior art are such that the subject matter, as a whole,

164a
would have been obvious at the time the invention
was made to a person having ordinary skill in the art
to which said subject matter pertains. KSR Int’l Co.
v. Teleflex Inc., 550 U.S. 398, 406 (2007). The question
of obviousness is resolved on the basis of underlying
factual determinations, including (1) the scope and
content of the prior art; (2) any differences between
the claimed subject matter and the prior art; (3) the
level of skill in the art; and (4) when in evidence, objective indicia of non-obviousness (i.e., secondary considerations). Graham v. John Deere Co., 383 U.S. 1,
17–18 (1966).
An invention “composed of several elements is not
proved obvious merely by demonstrating that each of
its elements was, independently, known in the prior
art.” KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 418
(2007). Rather, to establish obviousness, it is petitioner’s “burden to demonstrate both that a skilled artisan would have been motivated to combine the
teachings of the prior art references to achieve the
claimed invention, and that the skilled artisan would
have had a reasonable expectation of success in doing
so.” In re Magnum Oil Tools Int’l, Ltd., 829 F.3d 1364,
1381 (Fed. Cir. 2016) (quotations omitted); see KSR,
550 U.S. at 418. Moreover, a petitioner cannot satisfy
this burden by “employ[ing] mere conclusory statements” and “must instead articulate specific reasoning, based on evidence of record” to support an obviousness determination. Magnum Oil, 829 F.3d at
1380. Stated differently, there must be “articulated
reasoning with some rational underpinning to support
the legal conclusion of obviousness.” KSR, 550 U.S. at
418 (quoting In re Kahn, 441 F.3d 977, 988 (Fed. Cir.
2006)).

165a
The “factual inquiry” into the reasons for
“combin[ing] references must be thorough and searching, and the need for specificity pervades . . . .” In re
Nuvasive, Inc., 842 F.3d 1376, 1381–82 (Fed. Cir.
2016) (quotations omitted). A determination of obviousness cannot be reached where the record lacks “explanation as to how or why the references would be
combined to produce the claimed invention.” TriVascular, Inc. v. Samuels, 812 F.3d 1056, 1066 (Fed.
Cir. 2016); see Nuvasive, 842 F.3d at 1382–86 (holding
that an obviousness determination cannot be reached
where there is no “articulat[ion of] a reason why a
[person having ordinary skill in the art] would combine” and “modify” the prior art teachings). This required explanation as to how and why the references
would be combined avoids an impermissible “hindsight reconstruction,” using “the patent in suit as a
guide through the maze of prior art references, combining the right references in the right way so as to
achieve the result of the claims in suit.” TriVascular,
812 F.3d at 1066; In re NTP, Inc., 654 F.3d 1279, 1299
(Fed. Cir. 2011). We analyze the asserted grounds
based on obviousness with these principles in mind.
2.

Obviousness Grounds Involving Julia
(Grounds 8–14)

Petitioner contends that claims 14, 15, 17–19, 25,
26, 53–55, 61, 62, and 64–66 are unpatentable over
Julia (Ground 8), Julia in view of Nazarathy (Ground
9) or Quigley (Ground 10), or Julia in view of Nazarathy or Quigley and Banker (Grounds 11 and 13) or
Gordon (Grounds 12 and 14) under 35 U.S.C. § 103(a),
relying on the supporting testimony of Mr. Schmandt
(Exs. 1019, 1029). Pet. 43–65; see also Reply 9–17.

166a
Patent Owner makes numerous arguments
against how “Julia alone or combined with the teaching of Nazarathy or Quigley renders any of the claims
obvious.” Resp. 8–22; Sur-Reply 1–4, 9–10.
As discussed below, we determine that Petitioner
has not established, by a preponderance of the evidence, that Julia teaches “a speech recognition system
coupled to a wireline node in a network” as required
by independent claims 14 and 53. 2
In light of this deficiency, Petitioner has not persuasively established that claims 14 and 53 are unpatentable. Because the above issue is dispositive, we
exercise our discretion to not reach all other arguments raised by Patent Owner regarding the non-obviousness of these claims.
The preamble of claim 14 recites “a speech recognition system coupled to a wireline node in a network.” Ex. 1001, 52:65–66. For this preamble of claim
14, the Petition states the following:
Julia discloses a program system controlling at least part of a speech recognition system coupled to a wireline node in a network as
recited in claim 1. Schmandt Decl. ¶¶ 271–
272. In particular, Julia discloses a voice control system that can be implemented in an interactive cable television network. Julia at
1:29–34, 4:31–35. Multiple users can issue
voice commands requesting television and

The parties analyze this claim limitation together. We will
address this limitation of claim 14 as representative of the corresponding limitation in claim 53.
2

167a
other video content from a remote server computer (e.g., “a wireline node”). Id. at 6:12–26.
The remote server performs speech recognition
processing to identify the spoken request and
then sends the requested content to the particular user. Id. at 4:18–20, 11:60–67.
Pet. 44, emphasis added. Petitioner’s declarant, Mr.
Schmandt, explains that Julia’s “remote server is [] a
‘program system controlling at least part of a speech
recognition system’ as the preamble of claim 14 requires, because it performs speech recognition.” Ex.
1019 ¶ 271. Accordingly, Petitioner, in the Petition,
maps both the recited “speech recognition system” and
“wireline node” to remote server 108. Patent Owner
contends “to the extent Comcast is trying to map both
the speech recognition system and wireline node to remote server 108, that is an improper interpretation of
the claim language because a proper interpretation
‘must give meaning to all the words in [the] claims.’”
Resp. 11.
In its Reply, Petitioner contends, without any
analysis, that “[t]his language appears only in the
claim preambles, which are generally not limiting.”
Reply 9. We, however, agree with Patent Owner that
“a speech recognition system coupled to a wireline
node in a network” is limiting.
“In general, a preamble limits the invention if it
recites essential structure or steps, or if it is necessary
to give life, meaning, and vitality to the claim.” Catalina Mktg. Int’l, Inc. v. Coolsavings.com, Inc., 289 F.3d
801, 808 (Fed. Cir. 2002) (quotation omitted). One
way for a preamble to “give life, meaning, and vitality
to the claim” is to provide antecedent basis for a term

168a
in the body of the claim. See Eaton Corp. v. Rockwell
Int’l Corp., 323 F.3d 1332, 1339 (Fed. Cir. 2003)
(“When limitations in the body of the claim rely upon
and derive antecedent basis from the preamble, then
the preamble may act as a necessary component of the
claimed invention.”). Here, “a wireline node in a network” provides antecedent basis for “said wireline
node . . . coupled to said network” recited in the body
of the claim. Specifically, the preamble (“a wireline
node”) identifies “the wireline node” in the body of the
claim to where “a received back channel” is received
(i.e., “a received back channel at said wireline node”).
See Catalina, 289 F.3d at 808 (“[D]ependence on a particular disputed preamble phrase for antecedent basis
may limit claim scope because it indicates a reliance
on both the preamble and claim body to define the
claimed invention.”).
Similarly, “a speech recognition system” provides
antecedent basis for “said speech recognition system
is provided . . . .” In particular, the preamble (“a
speech recognition system”) identifies “the speech
recognition system” in the body of the claim where “at
least one computer” is included (i.e., “at least one computer included in said speech recognition system”).
Thus, we determine that the preamble “a speech
recognition system coupled to a wireline node in a network” is limiting.
Petitioner attempts, in its Reply, to change its
mapping of the preamble by contending that “processing logic 300 . . . constitutes a speech recognition
system executing on the server.” Reply 10. As support, Petitioner cites to page 53 of its Petition. However, that page is discussing claims 15, 17, and 25, not

169a
claim 14 or claim 53. Petitioner also cites to paragraphs 271 and 272 of Mr. Schmandt’s declaration.
Even though paragraph 271 states that “[t]he processing of a user’s spoken input request is ‘processed
by request processing logic 300,’ which is stored in ‘remote server 108,’” it does not map processing logic 300
to “a speech recognition system.” Ex. 1019 ¶ 271. To
the contrary, Mr. Schmandt states unequivocally that
“[t]he remote server is [] a ‘program system controlling
at least part of a speech recognition system’ as the preamble of claim 14 requires, because it performs speech
recognition.” Id.; see also Pet. 44 (“The remote server
performs speech recognition processing to identify the
spoken request and then sends the requested content
to the particular user.”). Moreover, when discussing
other limitations involving the speech recognition system, Petitioner points to remote server 108. For example, when discussing “wherein said speech recognition system is provided . . . ,” Petitioner states that
“Julia discloses that a user’s voice request is transmitted from the user’s ‘communication box 104 . . .
through network 106 to remote server 108, the ‘speech
recognition system’ and a ‘wireline node’ as discussed
above.” Pet. 47–48, emphasis added; see also id. at 49
(“. . . are performed by the remote server 108, which is
a ‘computer’ that is ‘included’ in the ‘speech recognition system’”). Therefore, Petitioner’s new mapping in
the Reply constitutes improper new argument and
will not be considered. 37 C.F.R. 42.23(b); Intelligent
Bio-Systems, Inc. v. Illumina Cambridge Ltd., 821
F.3d 1359, 1369 (Fed. Cir. 2016) (“Unlike district
court litigation— where parties have greater freedom
to revise and develop their arguments over time and
in response to newly discovered material—the expe-

170a
dited nature of IPRs bring with it an obligation for petitioners to make their case in their petition to institute.”); Trial Practice Guide Update (Aug. 2018), 14–
15,
https://www.uspto.gov/patents-application-process/patenttrial-and-appeal-board/trials/guidance-impact-sas-aia-trial.
We next turn to Patent Owner’s argument that
Petitioner’s original mapping in the Petition “both the
speech recognition system and wireline node to remote server 108 . . . is an improper interpretation of
the claim language because a proper interpretation
‘must give meaning to all the words in [the] claims.’”
Resp. 11. First, we note that reading a portion of the
claim as superfluous is generally disfavored. Stumbo
v. Eastman Outdoors, Inc., 508 F.3d 1358, 1362 (Fed.
Cir. 2007) (denouncing claim constructions that render phrases in claims superfluous); Elektra Instruments S.A. v. O.U.R. Scientific Int’l, Inc., 214 F.3d
1302, 1305, 1307 (Fed. Cir. 2000) (claims are interpreted with an eye toward giving effect to all terms in
the claim).
Here, Petitioner does not point to anything in the
Specification to support a construction that a speech
recognition system and wireline node can be construed to be the same thing. 3 In addition, construing
“a speech recognition system” and “wireline node” to
be the same thing would also read out “coupled to” in
“a speech recognition system coupled to a wireline
node in a network.” In other words, the term “coupled
to” makes little sense and is not meaningful if used to
Petitioner’s arguments in Reply are based on its new mapping of remote server 108 (to “wireline node”) and processing
logic 300 (to “speech recognition system”). Reply 9–10.
3

171a
refer to a single element and itself. Mr. Schmandt’s
testimony is consistent with and even supports the
understanding that elements that are coupled to each
other are not the same element. Mr. Schmandt “testified that the term ‘coupled to’ means the coupled elements ‘have some way of communicating’ or ‘there’s
some influence between the two things that are coupled.’” Ex. 2034, 27:24–29:9. In addition, the Specification discloses two different things “coupled to” each
other:
As in FIG. 1, each user site contains a Set Top
Box, such as STB 180, coupled to the network
through a coaxial cable 172 which interfaces
170 to a collective coaxial cable 160[,] which is
coupled to Node 126.
Ex. 1001, 4:18–21, emphases added.
FIG. 23 depicts a detail block diagram of an
augmented distributor node 1310, coupled to
wireline physical transport 1200 and coupled
to the wireline communications loop of FIG.
21;
FIG. 24 depicts an alternative detail block diagram of an augmented distributor node
1310, coupled to wireline physical transport
1200 and coupled to the wireline communications loop of FIG. 21;
Id. at 9:1–8, emphases added.
As used herein, a server farm refers to a collection of at least two server components communicatively coupled to one another. The
server components may or may not all be directly communicatively coupled to each other.

172a
Id. at 9:59–62, emphases added.
The invention may also include an array of
microphones that are operated in conjunction
with a remote control 1000 that is coupled to
the set top box 1100.
Id. at 10:33–35, emphases added; see also id. at 22:43–
50, 56–58; 27:19–20, 26–27; 29: 23–26; 31:64–67;
40:42–46, 55–60; 48:3–4; 47:51–52; 48:64–67; 49:23–
26; 49:46–49. None of these passages in the Specification refers to something being coupled to itself.
For the foregoing reasons, we determine that that
“a speech recognition system” and “wireline node”
should be interpreted to be different components. Accordingly, because the Petition points to the same element for “a speech recognition system” and “wireline
note,” we determine that Petitioner has not established, by a preponderance of the evidence, that Julia
teaches “a speech recognition system coupled to a
wireline node in a network,” as claims 14 and 53 require. Thus, Petitioner has not shown, by a preponderance of the evidence, that independent claims 14
and 53 as well as dependent claims 15, 17–19, 25, 26,
54, 55, 61, 62, and 64–66 are unpatentable based on
the obviousness grounds relying on Julia.
3.

Obviousness Grounds Involving Murdock
(Grounds 1–7)

Petitioner contends that claims 14, 15, 17–19, 25,
26, 53–55, 61, 62, and 64–66 are unpatentable over
Murdock alone (Ground 1); Murdock in view of
Nazarathy (Ground 2) or Quigley (Ground 3); or Murdock in view of Nazarathy or Quigley and Banker

173a
(Grounds 4 and 5) or Gordon (Grounds 6 and 7) (collectively, “Murdock Grounds”) under 35 U.S.C.
§ 103(a), relying on the supporting testimony of Mr.
Schmandt (Exs. 1019, 1029). Pet. 15–43. Below, we
consider whether Petitioner has established by a preponderance of the evidence that claims 14, 15, 17–19,
25, 26, 53–55, 61, 62, and 64–66 would have been obvious over the Murdock Grounds.
The ’196 Patent issued from an application that
has a filing date of February 16, 2001, and that claims
the benefit of priority to a provisional application with
a filing date of June 8, 2000. Ex. 1001, at [22], [60];
Pet. 4. Murdock was filed on November 16, 2000, after
the effective filing date of the ’196 Patent, but claims
the benefit of priority to the filing date of Provisional
Application No. 60/166 010 (Ex. 1011, the “Murdock
Provisional”), which was filed on November 17, 1999.
Ex. 1010, at [22], [60]. Petitioner argues that Murdock is 35 U.S.C. § 102(e) prior art to the ’196 Patent
because Murdock is entitled to the benefit of priority
to the filing date of the Murdock Provisional. Pet. 11.
In Ex Parte Mann, the Board held that “under Dynamic Drinkware, a non-provisional child can be entitled to the benefit of a provisional application’s filing
date if the provisional application provides sufficient
support for at least one claim in the child.” 2016 WL
7487271, at *6 (PTAB Dec. 21, 2016) (emphases omitted) (discussing whether Dynamic Drinkware, LLC v.
Nat’l Graphics, Inc., 800 F.3d 1375, 1378 (Fed. Cir.
2015), requires “support in the provisional . . . for all
claims, any claim, or something in between”). The
Board further held that “the [party claiming priority]
also must show that the subject matter relied upon in
the non-provisional is sufficiently supported in the

174a
provisional application [and that t]his subject matter
test is in addition to the comparison of claims required
by Dynamic Drinkware.” Id. at *5.
Recognizing these requirements, Petitioner asserts that:
Petitioner’s expert Christopher Schmandt
shows in his supporting declaration that at
least claim 1 of Murdock is supported by the
disclosure in the [Murdock P]rovisional application. Schmandt Decl. ¶¶ 99–113. In addition, . . . Petitioner’s expert witness confirms
that the Murdock [P]rovisional application
meets this requirement, too. Schmandt Decl.
¶¶ 135–257 (showing that the provisional application discloses the challenged claims and
also showing that the provisional application
discloses the same subject matter) . . . .
Pet. 11–12.
Patent Owner, however, contends that Petitioner
fails to establish that Murdock is prior art and thus
cannot establish a reasonable likelihood of prevailing
on the Murdock Grounds because the Petition omits
the analysis necessary to establish Murdock as prior
art, and instead relies on incorporating “more than
150 paragraphs of essential analysis from the declaration into the [P]etition, [which] particularly when
the [P]etition was within 300 words of the word limit,
is improper.” Resp. 7.
We agree with Patent Owner that Petitioner’s
barebones analysis, in its Petition, is insufficient to
support its contention that Murdock is entitled to the
filing date of the Murdock Provisional. Specifically,

175a
although there is no requirement to rewrite every
word or example from an expert declaration into a petition, Petitioner’s two sentences concluding that “at
least claim 1 of Murdock is supported by the disclosure in the [Murdock P]rovisional application” and
that “the [Murdock P]rovisional . . . provide[s] support
for the subject matter relied upon” are insufficient to
establish Murdock as prior art. Pet. 11. “Arguments
must not be incorporated by reference from one document into another document.” 37 C.F.R. § 42.6(a)(3).
Here, Petitioner cites to over 130 paragraphs (Ex.
1019 ¶¶ 99–113, 135–257), spanning more than 60
pages in the Schmandt Declaration. No reasonable
application of 37 C.F.R. § 42.6(a)(3) to the circumstance of this case results in a conclusion that Petitioner complied with the rule. The Petition should
provide reasonable notice to Patent Owner as to how
the Murdock Provisional provides support for the subject matter relied upon. In this proceeding, we initially determined that the Petition offered only an insufficient conclusory statement at to the Murdock Provisional. Paper 10, 24–27. Nonetheless, pursuant to
SAS Inst., Inc. v. Iancu, 138 S. Ct. 1348, 1355 (2018)
and Patent Office practice, we instituted review of all
grounds, including the grounds based on Murdock. Id.
at 2, 45.
Petitioner, post institution of trial, attempts to
remedy its deficient Petition in its Reply brief. Specifically, Petitioner contends in its Reply that, in any
event, Murdock still constitutes applicable prior art
because Murdock pre-dates the actual filing date of
the ’196 Patent so it was incumbent on Patent Owner
to establish entitlement to an earlier effective filing
date, which Patent Owner did not do. Id. at 2. Patent

176a
Owner contends that these are “new argument[s] and
[they] should not be considered.” Sur-Reply 7.
We need not decide this issue because, even assuming arguendo that Murdock is prior art to the ’196
Patent, Petitioner’s arguments with regard to the alleged grounds of obviousness over Murdock are not
persuasive. They are premised on interpreting “a
speech recognition system” and “wireline node” to be
the same thing, which we have rejected in connection
with Petitioner’s arguments based on Julia. See Pet.
17–18, 30; Ex. 1019 ¶¶ 136–137, 213. Specifically, the
Petition states that “Murdock discloses using a “‘program system controlling at least part of a speech
recognition system’ (i.e., remote server computer 130)
that is ‘coupled to a wireline node in a network’ (i.e.,
remote server computer 130), as recited in claim 1
[sic].” Pet. 17–18, emphases added; see also id. at 22
(“Thus, Murdock discloses that the ‘speech recognition
system’ (i.e., remote server 130) . . . as recited in claim
14.”); Ex. 1019 ¶¶ 136 (“. . . causes the remote server
computer 130 to operate as a speech recognition
server. . . . The remote server computer is therefore a
‘program system controlling at least part of a speech
recognition system’ as the preamble of claim 14 requires, because it performs speech recognition.”); id.
¶ 137 (“In Murdock, remote server computer 130 is a
‘wireline node’ as that term is used in the ’196 Patent”).
Accordingly, because the Petition points to the
same component for “a speech recognition system”
and “wireline node,” we determine that Petitioner has
not established, by a preponderance of the evidence,
that Murdock teaches “a speech recognition system
coupled to a wireline node in a network.”

177a
4.

Secondary Considerations of Non-obviousness

Patent Owner also contends that secondary considerations further demonstrate non-obviousness of
the challenged claims. Resp. 21–35. We need not,
however, consider or discuss the objective evidence of
nonobviousness, because even assuming the absence
of any evidence of nonobviousness there is not sufficient evidence of obviousness to support a conclusion
that any challenged claim is unpatentable.
D. Motions to Exclude
1.

Petitioner’s Motion to Exclude

Petitioner files a Motion to Exclude Evidence
seeking to exclude Exhibits 2001–2003, 2009–2011,
2015, 2021, 2024, and 2032 as inadmissible hearsay
evidence. Paper 37; see also Papers 45 (Patent
Owner’s Opposition to Petitioner’s Motion to Exclude
Evidence), 49 (Petitioner’s Reply in Support of its Motion to Exclude Evidence). These exhibits relate to Patent Owner’s support for its secondary considerations
arguments. Resp. 21–35. Because we do not reach
the issue of secondary considerations, we dismiss Petitioner’s motion as moot.
2.

Patent Owner’s Motion to Exclude

Patent Owner files a Motion to Exclude seeking to
exclude the following portions of Mr. Cook’s testimony
(Ex. 1024) “as containing hearsay and/or hearsay
within hearsay, as well as for containing testimony
outside the scope of the IPR depositions.” Paper 40, 2.
According to Patent Owner, Petitioner used the following portions of Mr. Cook’s testimony as follows:

178a
(1) to support its assertion that the AgileTV
product wasn’t successful (Paper 29[,] 1 (citing
Ex. 1024[,] 206:2–17));
(2) as a purported admission that the Diva
Systems video-on-demand system provided
pay-per-view (Paper 29[,] 15 (citing Ex.
1024[,] 22:2–13, 249:6–17));
(3) as evidence that Comcast rejected
Promptu’s product (Paper 29[,] 21 (citing Ex.
1024[,] 215:13–217:7));
(4) as evidence that the AgileTV product employed voice recognition processing provided
by a third-party vendor (Paper 29[,] 23 [sic]
n.5 (citing Ex. 1024[,] 250:15–253:14, 255:22–
258:21, 316:4–6));
(5) as evidence that Comcast’s payment to
Promptu was a loan that Promptu later repaid
in full, that Promptu offered a paid-up license
to its patents, and that Promptu dropped its
television product and shifted to an automotive product (Paper 29[,] 23–24 (citing Ex.
1024[,] 106:20–107:9, 117:12–118:7, 135:4–5,
156:5–12, 160:20–161:2, 215:13–218:13)); and
(6) as evidence that Promptu received substantial funding to develop an automobile
product (Paper 29[,] 24 (citing Ex. 1024[,]
217:22–219:18)).
Id. at 2–3. Patent Owner argues that “the Board
should exclude all of Mr. Cook’s testimony cited in
Comcast’s reply relying on the above-noted portions”
of Mr. Cook’s testimony. Id. at 3. These portions of
Mr. Cook’s testimony, however, relate to Patent

179a
Owner’s secondary considerations arguments. Resp.
21–41. Because we do not reach the issue of secondary
considerations, we dismiss Patent Owner’s motion as
moot.
III. CONCLUSION
Petitioner has not established, by a preponderance of the evidence, that claims 14, 15, 17–19, 25, 26,
53–55, 61, 62, and 64–66 would have been obvious
over Julia;
Petitioner has not established, by a preponderance of the evidence, that claims 14, 15, 17–19, 25, 26,
53–55, 61, 62, and 64–66 would have been obvious
over Julia and Nazarathy;
Petitioner has not established, by a preponderance of the evidence, that claims 14, 15, 17–19, 25, 26,
53–55, 61, 62, and 64–66 would have been obvious
over Julia and Quigley;
Petitioner has not established, by a preponderance of the evidence, that claims 18, 19, 55, and 65
would have been obvious over Julia, Nazarathy, and
Banker;
Petitioner has not established, by a preponderance of the evidence, that claims 18, 19, 55, and 65
would have been obvious over Julia, Nazarathy, and
Gordon;
Petitioner has not established, by a preponderance of the evidence, that claims 18, 19, 55, and 65
would have been obvious over Julia, Quigley, and
Banker;
Petitioner has not established, by a preponderance of the evidence, that claims 18, 19, 55, and 65

180a
would have been obvious over Julia, Quigley, and Gordon;
Petitioner has not established, by a preponderance of the evidence, that claims 14, 15, 17–19, 25, 26,
53–55, 61, 62, and 64–66 would have been obvious
over Murdock;
Petitioner has not established, by a preponderance of the evidence, that claims 14, 15, 17–19, 25, 26,
53–55, 61, 62, and 64–66 would have been obvious
over Murdock and Nazarathy;
Petitioner has not established, by a preponderance of the evidence, that claims 14, 15, 17–19, 25, 26,
53–55, 61, 62, and 64–66 would have been obvious
over Murdock and Quigley;
Petitioner has not established, by a preponderance of the evidence, that claims 18, 19, 55, and 65
would have been obvious over Murdock, Nazarathy,
and Banker;
Petitioner has not established, by a preponderance of the evidence, that claims 18, 19, 55, and 65
would have been obvious over Murdock, Nazarathy,
and Gordon;
Petitioner has not established, by a preponderance of the evidence, that claims 18, 19, 55, and 65
would have been obvious over Murdock, Quigley, and
Banker; and
Petitioner has not established, by a preponderance of the evidence, that claims 18, 19, 55, and 65
would have been obvious over Murdock, Quigley, and
Gordon.

181a
IV. ORDER
For the foregoing reasons, it is hereby:
ORDERED that Petitioner has not shown, by a
preponderance of the evidence, that any of claims 14,
15, 17–19, 25, 26, 53–55, 61, 62, and 64–66 is unpatentable;
FURTHER ORDERED that Petitioner’s Motion to
Exclude is dismissed;
FURTHER ORDERED that Patent Owner’s Motion to Exclude is dismissed; and
FURTHER ORDERED that because this is a Final Written Decision, parties to the proceeding seeking judicial review of the decision must comply with
the notice and service requirements of 37 C.F.R.
§ 90.2.

182a
PETITIONER:
James L. Day
Daniel Callaway
FARELLA BRAUN + MARTEL LLP
jday@fbm.com
dcallaway@fbm.com
Leo L. Lam
KEKER, VAN NEST & PETERS LLP
llam@keker.com
PATENT OWNER:
Joshua L. Goldberg
Jacob A. Schroeder
Cory C. Bell
Daniel Klodowski
FINNEGAN, HENDERSON, FARABOW, GARRETT
& DUNNER, LLP
joshua.goldberg@finnegan.com
jacob.schroeder@finnegan.com
cory.bell@finnegan.com
daniel.klodowski@finnegan.com
John S. Ferrell
Wade C. Yamazaki
CARR & FERRELL LLP
jsferrell@carrferrell.com
wyamazaki@carrferrell.com

183a
APPENDIX G
CONSTITUTIONAL PROVISION INVOLVED
U.S. Const. art. II, § 2.
Section 2. The President shall be Commander in
Chief of the Army and Navy of the United States, and
of the Militia of the several States, when called into
the actual Service of the United States; he may require the Opinion, in writing, of the principal Officer
in each of the executive Departments, upon any Subject relating to the Duties of their respective Offices,
and he shall have Power to Grant Reprieves and Pardons for Offences against the United States, except in
Cases of Impeachment.
He shall have Power, by and with the Advice and
Consent of the Senate, to make Treaties, provided two
thirds of the Senators present concur; and he shall
nominate, and by and with the Advice and Consent of
the Senate, shall appoint Ambassadors, other public
Ministers and Consuls, Judges of the supreme Court,
and all other Officers of the United States, whose Appointments are not herein otherwise provided for, and
which shall be established by Law: but the Congress
may by Law vest the Appointment of such inferior Officers, as they think proper, in the President alone, in
the Courts of Law, or in the Heads of Departments.
The President shall have Power to fill up all Vacancies that may happen during the Recess of the Senate, by granting Commissions which shall expire at
the End of their next Session.

